<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, APRIL 19, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:58 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Herb Kohl (chairman) presiding.
    Present: Senators Kohl, Pryor, Brown, Blunt, Collins, 
Moran, and Hoeven.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

STATEMENT OF DR. MARGARET HAMBURG, COMMISSIONER
ACCOMPANIED BY:
        PATRICK McGAREY, ASSISTANT COMMISSIONER, OFFICE OF BUDGET, FOOD 
            AND DRUG ADMINISTRATION
        NORRIS COCHRAN, DEPUTY ASSISTANT SECRETARY, OFFICE OF BUDGET, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

                 OPENING STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Good afternoon. The subcommittee will come to 
order.
    Today's hearing will focus on the Food and Drug 
Administration's (FDA's) fiscal year 2013 budget request. We 
welcome Commissioner Hamburg, Mr. McGarey, and Mr. Cochran. We 
appreciate your being here.
    Before we begin, I'd like everyone to know that we have 
votes scheduled for 2:15 p.m. today. So right now we'll plan on 
just having opening statements by myself, Senator Blunt, as 
well as Commissioner Hamburg. Once the votes are called, we'll 
have to stand in recess until the votes are through, and we'll 
come back then and begin our questions. So we thank everybody 
for accommodating that.
    The administration's budget request for fiscal year 2013 
stands in stark contrast to the requests of recent years. Since 
2008, the Congress has provided the FDA with budget increases 
totaling nearly 30 percent and the administration's requests 
have even been higher. This year, however, the FDA budget 
proposes an increase of only $15 million, bringing total 
funding to approximately $2.51 billion.
    Two main funding increases requested in this budget are $10 
million to enhance inspections of drugs and drug ingredients 
manufactured in China, and to work with Chinese manufacturers 
on ways to meet FDA standards; and $18 million to complete the 
FDA's Life Sciences-Biodefense Laboratory complex. These 
increases are partially offset by decreases found elsewhere in 
FDA's budget.
    As we are all aware, this subcommittee has worked over the 
past several years to provide FDA with increased funding for 
food safety activities. This year the only additional funds for 
food safety are requested in the form of a new user fee. My 
understanding is that negotiations on this user fee are in 
their earliest stages, and it is not likely to be passed this 
year. This means essentially that food safety activities are 
flat-funded in this budget, when we all know that the FDA's 
workload in this area has certainly not leveled off. That 
concerns us. I look forward to discussing this further.
    I don't believe that this budget request reflects less 
support for FDA by the administration, but I do believe it 
reflects the budget realities that we continue to face. The FDA 
has been exempt from significant cuts found elsewhere 
throughout the Government. This will certainly prove to be the 
most difficult year in recent history. The importance of FDA's 
work has not diminished, and the agency's workload continues to 
increase. I have said in the past that I believe ensuring the 
safety of our food and drug supply is an important Federal 
function and should not and cannot be relegated to State and 
local governments as well as private industry.
    As these functions continue to become more and more complex 
every day, we will do our best to provide FDA with the funding 
you need to do your job well, with the understanding that we 
are all being required to do more with less.
    We look forward to your testimony, Dr. Hamburg. But first, 
Senator Blunt.

                     STATEMENT OF SENATOR ROY BLUNT

    Senator Blunt. Thank you, Mr. Chairman. Thank you for 
holding today's hearing on the FDA budget. I want to thank our 
witnesses for being here today. I look forward to working with 
the subcommittee, but particularly to working with the 
chairman, who has had such a good impact on FDA issues over his 
time on this subcommittee.
    Commissioner Hamburg, thanks for your visit the other day. 
The agency you head regulates approximately 20 cents out of 
every $1 spent in America and Americans expect the FDA-related 
products will be safe and effective. Similarly, the industry 
expects transparency and certainty from the FDA.
    The agency has authority over 185,000 domestic 
establishments that range from food processing plants to 
facilities that manufacture life-saving medications. As 
companies struggle through the recession, FDA must be mindful 
that burdensome regulations can stifle innovation and lead to 
unnecessary expenses that limit small businesses' ability to 
create jobs.
    For example, FDA's currently reviewing comments on a 
proposed rule that would require restaurants to list calorie 
content for standard menu items and of course very specifically 
defining standard menu items so you could know what that 
standard was. I believe the proposed rule that you've asked for 
comment on and haven't finalized is at this point still 
unnecessarily broad and too inflexible, but hopefully the final 
rule will benefit from the comments you're receiving.
    When implementing the rule, you should adopt the least 
burdensome alternatives that meet your responsibility, and 
doesn't unnecessarily regulate stores that don't sell food as 
their primary business or other things that wouldn't be 
necessary under the act. In addition, the rule should be 
flexible enough to allow locations that don't serve their 
patrons on site the opportunity to provide nutrition 
information in a variety of formats.
    I look forward to being able to discuss this issue a little 
further.
    I'd also like to take a moment to mention that this very 
well may be the last hearing of the subcommittee this year. 
Chairman Kohl has announced that he'll leave the Senate soon, I 
suppose maybe to focus on basketball full-time or one of his 
other many activities that he's involved in. But this may be 
his final hearing as chairman. We're going to continue to work 
closely together to produce a bill.
    I'd like to say that in leading this subcommittee he's 
really displayed keen knowledge of all the work of the 
subcommittee and--as you know, Commissioner--has shown 
particular interest and has been a real leader on FDA issues, 
particularly on food safety, and really, it's been an honor for 
me to get to work with him last year. I hope we produce a bill 
this year that we can get to the floor again, and we'll both be 
out there doing what we can to make this subcommittee work 
under the chairman's leadership.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you. Thank you, Senator Blunt.
    Now, Dr. Hamburg.

                   STATEMENT OF DR. MARGARET HAMBURG

    Dr. Hamburg. Thank you, Chairman Kohl and Ranking Member 
Blunt. I do also want to take this opportunity to thank you, 
Chairman Kohl, for the extraordinary leadership that you've 
shown over so many years and the support you've given the FDA 
in our important mission.
    I am joined, as you note, by Patrick McGarey, who is our 
Assistant Commissioner for Budget, and Norris Cochran, who's 
Deputy Assistant Secretary for Budget at the Department of 
Health and Human Services (HHS).
    Let me begin by again thanking you and the subcommittee for 
your efforts in recent years to really try to shrink the gap 
between the agency's budget and its vast and evolving 
responsibilities. Your leadership has put us on a path towards 
more appropriate funding levels to support our unique and 
crucial mission. We are using these funds responsibly to 
reinforce our core functions and to obtain the most public 
health value for the Federal dollar during these challenging 
fiscal times. We're deploying smarter and more flexible 
regulatory approaches and better targeting of our inspectional 
resources. We've consolidated our information technology (IT) 
infrastructure into modern data centers and expanded our 
efforts to leverage both financial and human capital through 
collaborations with public and private partners.

                             DRUG APPROVALS

    With your support, we have produced concrete results that 
really matter. For example, we lead the world in the number and 
speed of drug approvals, while maintaining high standards for 
safety and efficacy. Last year we approved 35 innovative new 
drugs, many of them groundbreaking, the second highest number 
of approvals in more than a decade.
    During this fiscal year, we've continued our strong 
performance and have already approved 15 innovative new drugs 
and biologics. Last year a total of 195 drug shortages were 
prevented through proactive collaboration with patients, 
healthcare providers, and manufacturers, and by exercising 
regulatory flexibility. This year we've already prevented 
another 30 drug shortages.

                     FOOD SAFETY MODERNIZATION ACT

    Just 1 year after the enactment of the Food Safety 
Modernization Act, we've issued guidances and interim final 
rules and are on the way to meeting the 5-year inspection 
mandate for high-risk domestic facilities.
    I think it is critical to note, though, that the volume and 
complexity of the products we regulate and the complexity of 
the supply chains by which they reach American consumers has 
increased dramatically. We receive thousands of medical product 
submissions each year and serve as the watchdog for the safety 
of tens of thousands of products that are already in the 
marketplace, and we oversee the safety of roughly 80 percent of 
the Nation's food supply. Imports of food products alone come 
from some 200 different countries and from more than 250,000 
foreign facilities each year.

                             GLOBALIZATION

    In addition, our core responsibilities are expanding to 
include additional product areas, such as tobacco, and evolving 
to accommodate scientific and technological advances and the 
challenges of globalization. Our budget request reflects these 
complexities and new demands, although, as you note, it is 
modest.

                        FISCAL YEAR 2013 BUDGET

    The fiscal year 2013 budget recommends $4.5 billion for FDA 
overall, a 17-percent increase from fiscal year 2012. User fees 
account for 98 percent of the increase, however. We're 
proposing cuts or savings in two areas, IT and related systems 
and building and facilities. FDA is also absorbing more than 80 
percent of inflationary rent costs.
    Our fiscal year 2013 budget authority increases will 
support import safety, medical countermeasures, White Oak 
facilities, the commissioned corps pay raise, and about 20 
percent of our rent increase.

                             BUDGET REQUEST

    To strengthen the safety of foods and drugs from China, FDA 
is requesting $10 million. Exports from China are experiencing 
unprecedented growth. In the last 5 years alone, shipments of 
FDA-regulated products from China increased by 62 percent. So 
that represents a fundamental shift of our economic and 
security landscape. These additional resources will strengthen 
our capacity to inspect Chinese facilities and our ability to 
work with our colleagues in China and our ability to perform 
risk analysis on Chinese exports.

                        MEDICAL COUNTERMEASURES

    Thanks to this subcommittee, FDA received a fiscal year 
2012 appropriation of $20 million for medical countermeasures. 
The fiscal year 2013 budget recommends an additional $3.5 
million to support development and review of new diagnostics, 
medical treatments, vaccines, and other technologies against a 
range of naturally occurring or deliberate chemical, 
biological, radiological, or nuclear threats, and new funding 
will help support initiatives focused on acute radiation 
syndrome, the needs of children and pregnant women, in vitro 
diagnostic tests, and building flexible medical countermeasure 
manufacturing capacity, and allow us to continue other ongoing 
efforts.

                  LIFE SCIENCES-BIODEFENSE LABORATORY

    The President's budget also proposes an increase of $17.7 
million to outfit the new Life Sciences-Biodefense Laboratory 
and ensure that all of the biosafety systems are operational 
before we occupy and can use the laboratory.

                               USER FEES

    User fees clearly represent a substantial part of our 
fiscal year 2013 budget and I want to address that briefly. The 
current user fee programs for drugs and medical devices 
expires, as you no doubt know, on September 30 of this year. 
The reauthorization process is now well under way and new user 
fee programs for generic drugs and biosimilars have also been 
put forward.

                     FOOD SAFETY MODERNIZATION ACT

    But to implement the Food Safety Modernization Act and 
reduce the burden of food-borne illness on consumers and 
American food producers, a new food facility registration fee 
that would generate $220 million has been proposed. Additional 
proposals include new user fees to support the cosmetic and 
food contact substance programs, to compensate FDA for medical 
product reinspections, and support import operations at courier 
hubs.

                           PREPARED STATEMENT

    So, to conclude, let me emphasize that the resources in 
this budget are vital to our efforts to ensure timely access to 
innovative products, as well as our commitment to protecting 
the public from unsafe food and ensuring safe, effective 
medical products.
    I appreciate your time and attention and will be happy to 
answer any questions you may have after you come back from your 
vote.
    [The statement follows:]

               Prepared Statement of Dr. Margaret Hamburg

    Chairman Kohl, Senator Blunt and members of the subcommittee, I am 
Dr. Margaret Hamburg, Commissioner of the U.S. Food and Drug 
Administration. I am pleased to present the President's fiscal year 
2013 budget request for the Food and Drug Administration (FDA).
    I want to begin by thanking you for your efforts over the past few 
years to shrink the gap between the FDA's budget and its vast and 
evolving responsibilities. We have made every effort to spend those 
funds responsibly--to reinforce core functions and obtain the most 
public health value for the dollar.
    As a science-based regulatory agency of global scope, FDA's mission 
is both exciting and daunting. Our core responsibilities are evolving 
and expanding to include additional product areas such as tobacco, to 
accommodate scientific and technological advances, and to step up to 
the global leadership role that FDA must play if we are to promote 
innovation and protect American consumers.
    Our recent spending and new budget requests reflect this evolution. 
We are embracing these changes in several important ways--by deploying 
smarter and more flexible regulatory approaches, by identifying 
efficiencies and innovative approaches to deliver our core mission, 
improve outcomes, and better target our resources, and by using 
collaborations to leverage expertise, data, and experience. Through 
these approaches, we are already improving efficiency and achieving 
concrete results. While the challenges loom large, we are confident 
that we have identified investments and approaches that will allow us 
to continue this evolution and to protect and promote the public 
health.

                      FDA INVESTMENTS AND RESULTS

    With the funding you have provided, FDA has delivered significant 
and quantifiable benefits for the American people, and we are very 
proud of these achievements.
    In the area of drugs, FDA now has the highest first action approval 
rate for new drugs we have ever achieved, and we continue to look for 
ways to improve the predictability, consistency, and transparency of 
our drug review process. During fiscal year 2011, we approved 35 
innovative drugs, many of them ground-breaking. This was the second-
highest number of approvals in the past decade. These drugs represented 
real advances for patients, including breakthroughs in personalized 
medicine. They include two novel drugs that were developed and approved 
with diagnostic devices that will allow doctors to target the drug to 
those patients most likely to respond, as well as new drugs to treat 
important medical conditions.
    To achieve these results and to speed access to the American 
people, we demonstrated regulatory flexibility, using, for example, 
accelerated approvals and innovative clinical trial designs. Of note, 
we lead the world in the number and speed of drug approvals. Of the 57 
novel drugs approved by both FDA and the European Union between 2006 
and 2010, 75 percent were approved first in the United States. 
Furthermore, between 2003 and 2010, all 23 cancer drugs approved by FDA 
and the European Union were approved first in the United States by FDA.
    During fiscal year 2012, we continued our strong performance. Since 
October 1, FDA approved 15 innovative drugs and biologics. Of the 15, 
11 (or 73 percent) were approved in the United States first. Fourteen 
of these products had Prescription Drug User Fee Act (PDUFA) deadlines, 
and we met the PDUFA deadline for 13 of the 14 products (that is, we 
met the PDUFA deadline 93 percent of the time). Just as important, of 
the 15 innovative drugs and biologics, 12 were approved on the first 
cycle, for an 80-percent first-cycle approval rate.
    Some specific information on individual drug approvals will provide 
context for the importance of these actions. During January 2012, FDA 
approved a truly breakthrough product in the field of personalized 
medicine, a drug to treat a rare form of cystic fibrosis. Known as 
ivacaftor and sold under the trade name Kalydeco, this drug only works 
for patients with a certain genetic mutation. But, thanks to advances 
in personalized medicine, physicians can identify patients with this 
mutation. This allows doctors to use Kalydeco only for patients where 
the drug will be effective. For patients who respond to this drug, it 
can keep their lungs clear, help them breathe, and make an enormous 
difference in the quality of their lives.
    The FDA drug review process normally takes about 10 months. But in 
the case of Kalydeco, a drug of great importance for patients in need, 
this drug was approved in less than 4 months.
    FDA approved another drug in January 2012. Known as vismodegib and 
sold under the trade name Erivedge, it is the first FDA-approved drug 
for metastatic basal cell carcinoma, the most common type of skin 
cancer. This new drug interferes very little with the growth of healthy 
cells, but works by disrupting the molecular pathway in the body that 
causes cancer cells to grow. Given there were no available treatments 
at the time, FDA took measures to expedite its approval. As a result, 
Erivedge was approved in less than 5 months--or half the time of a 
typical FDA approval.
    We have also been working aggressively to address and prevent drug 
shortages and to implement important Presidential directives. On 
October 31, 2011, the President issued an Executive order that directed 
FDA to take action to help further reduce and prevent drug shortages. 
In 2011, FDA successfully prevented at least 195 drug shortages. During 
the first 3 months of 2012, FDA prevented 22 shortages. FDA has sent 
letters to pharmaceutical manufacturers, reminding them of their legal 
obligations to report certain discontinuances to FDA, and urging them 
to voluntarily notify FDA of all potential disruptions of the 
prescription drug supply, even when not required by law. This has 
resulted in a significant increase in the number of potential shortages 
reported to FDA, and thus enhanced our ability to take action. In 
February of this year, we announced a series of steps to increase the 
supply of critically needed cancer drugs that were in short supply, 
including exercising enforcement discretion for the temporary 
importation of an alternative drug and approving a new manufacturer on 
an expedited basis.
    We are also playing our part to address the rising costs of 
healthcare, by implementing a new approval pathway for biosimilar 
biological products and a user fee program to support review and 
evaluation of biosimilar products. We are also proposing a new generic 
drug user fee program that will support faster, more predictable 
reviews for generic drugs, effectively eliminate the current generic 
application backlog, and help assure quality by providing resources for 
regular surveillance inspections of manufacturers of generic drugs.
    In the area of medical devices, in 2011, FDA released the Plan of 
Action for Implementation of 510(k) and Science Recommendations, which 
contained 25 specific actions that we would take in 2011 to improve the 
predictability, consistency, and transparency of our premarket 
programs. Seventy-five percent of those actions, plus eight additional 
actions, are already completed or well underway. We issued guidance on 
FDA's regulatory expectations for personalized medicine diagnostic 
devices that are developed along with a therapeutic product, to target 
that therapeutic product to the appropriate population. We launched the 
Innovation Initiative, which proposed actions that FDA could take to 
help accelerate and reduce the cost of developing and evaluating 
innovative medical devices, using science-based principles to maintain 
or improve patient safety.
    In the area of food safety, the most sweeping reform of our food 
safety laws in more than 70 years was signed into law by President 
Obama on January 4, 2011--the FDA Food Safety Modernization Act (FSMA). 
We issued an interim final rule describing the criteria for 
administrative detention of food when there is reason to believe the 
food is adulterated or misbranded, and we have used this authority 
several times. We met the 1-year FSMA mandate for inspections of 
foreign facilities, and are well on the way to meeting the 5-year 
inspection frequency mandate for high-risk domestic food facilities. We 
also issued an updated guidance for the seafood industry on food safety 
hazards. We anticipate issuing several proposed rules called for in 
FSMA shortly. We post regular progress reports on implementation 
milestones on our Web site.
    In the area of tobacco, we have been working to achieve a number of 
significant public health goals since enactment of the Tobacco Control 
Act of 2009. These include restricting youth access to cigarettes and 
smokeless tobacco, encouraging youth and adults who use tobacco 
products to quit, providing accurate information on the contents of 
tobacco products and the consequences of tobacco use to the public, and 
using regulatory tools to protect kids from initiating tobacco use and 
to begin to reduce the public health burden of tobacco in the United 
States.
    We also have been aggressively and systematically addressing 
challenges that affect all products that FDA regulates. In June 2011, 
FDA issued our ``Pathway to Global Product Safety and Quality'' report, 
describing the challenges of regulating in the globalized world in 
which FDA now operates, calling for a paradigm shift in how we approach 
our duties in light of such challenges, and describing the concrete 
actions we will take in four areas:
  --Assembling global coalitions of regulators dedicated to building 
        and strengthening the product safety net around the world;
  --Developing a global data information system and network in which 
        regulators worldwide can regularly and proactively share real-
        time information and resources across markets;
  --Expanding FDA's capabilities in intelligence gathering and use, 
        with an increased focus on risk analytics and thoroughly 
        modernized IT capabilities; and
  --Effectively allocating FDA resources based on risk, leveraging the 
        combined efforts of Government and industry.
    The essence of this strategy marries creative international 
coalitions with cutting-edge investigative tools to continue to provide 
the consistently high level of safety and quality assurance the public 
expects--and deserves.

                   MAXIMIZING THE IMPACT OF FDA FUNDS

    At this time of fiscal restraint, FDA is focusing on its core 
responsibilities and working to identify opportunities to streamline 
activities and leverage human and financial resources.
    I have instituted a series of reorganizations designed to ensure 
that FDA better reflects its evolving responsibilities, but that also 
recognizes our responsibility to make the most efficient use of our 
limited resources. Early in my tenure, I appointed a new Deputy 
Commissioner for Foods, to ensure coordination of our growing and 
rapidly evolving responsibilities for oversight of the domestic and 
global food supply chain.
    Last year I created the new position of Deputy Commissioner for 
Global Regulatory Operations and Policy, to fully address the need to 
integrate domestic and foreign inspections, streamline procedures, and 
seek greater harmonization and opportunities for collaboration with our 
counterparts in other countries. I also appointed a new Deputy 
Commissioner for Medical Products and Tobacco, reflecting our 
recognition that the review of medical products increasingly cuts 
across center boundaries and that a new framework was necessary to 
address challenges like personalized medicine and combination products. 
Together, these changes build efficiencies into our organizational 
structure from the ground up and will make it easier to identify new 
opportunities for streamlining in the years to come.
    We have made significant progress in consolidating our IT 
infrastructure into modern data centers. Simultaneously, we have 
modernized and standardized our hardware and software infrastructure, 
resulting in savings in power consumption and the ability to use FDA 
equipment and IT support resources more efficiently. You will see 
savings from this consolidation reflected in our proposed budget for 
fiscal year 2013, as well as additional proposed savings.
    Another key area for improved efficiencies is improved targeting of 
inspection resources. We have been working hard to ensure that our 
import inspection programs are risk-based, targeting imports at port-
of-entry more efficiently. We are redeploying current food inspection 
resources and pursuing efficiencies to support initial implementation 
of FSMA.

                 PREPARING FDA FOR THE CHALLENGES AHEAD

    FDA's mission is challenging, even in the best of times, with 
scientific advances occurring at breakneck speed and the pace of 
globalization accelerating. Our responsibilities are vast and growing, 
a trend that will only continue. We receive thousands of medical 
product submissions each year, and serve as the watchdog for tens of 
thousands of products on the market, ensuring that they continue to 
meet the highest standards.
    We have evolved from a country that once consumed simple, primarily 
domestically produced goods to one that consumes complex products 
manufactured in every corner of the globe. We enjoy a greater variety 
of products from a greater range of places than ever before. The 
complexity of the products we regulate and the complexity of the supply 
chains by which they reach the eventual consumer has only increased. 
All of this means that FDA's job has gotten more complex and the stakes 
have continued to increase.
    As our fiscal year 2013 budget notes, FDA regulates more than $450 
billion of domestic and imported foods. Nearly 40 percent of the drugs 
Americans take are made overseas, and about 80 percent of active 
pharmaceutical ingredients are imported. Food imports have increased 
nine-fold since 1993. These food imports come from more than 250,000 
foreign facilities in 200 countries. About 70 percent of seafood and 
about 35 percent of fresh produce consumed in the United States comes 
from foreign countries.
    We are grateful that Congress has begun to help give FDA the tools 
needed to effectively regulate in a modern, complex, globalized 
environment. We are on the right path, but the road is long and 
challenging. The proposed fiscal year 2013 budget, described in more 
detail below, will continue the forward motion that you have supported.

                  FDA FISCAL YEAR 2013 BUDGET REQUEST

Fiscal Year 2013 Summary
    The fiscal year 2013 budget recommends $4.5 billion for FDA, a 17-
percent increase from fiscal year 2012. The fiscal year 2013 increase 
for user fees, including increases for current law user fees and 
amounts for seven new user fee programs, accounts for 98 percent of the 
FDA budget increase.
    FDA user fee programs support safety and effectiveness reviews of 
human and animal drugs, biological products, medical devices, and other 
FDA-regulated products. Fees also allow FDA programs to achieve timely 
and enhanced premarket review performance. Finally, fees support the 
programs and operations of the FDA Center for Tobacco Products.
    For fiscal year 2013, FDA is proposing savings in two areas--
information technology (IT) and the FDA Buildings and Facilities (B&F) 
account. In addition to these budget authority reductions, FDA is also 
absorbing more than 80 percent of the inflationary cost of rent 
activities.
    After accounting for these savings, the net increase in budget 
authority is $11.5 million for fiscal year 2013. Our increases support 
import safety, medical countermeasures, White Oak laboratory 
facilities, a portion of the increased cost of our rent activities, and 
the military pay raise that FDA Commissioned Corps officers will 
receive.
    The Federal investment in FDA is small compared to the breadth of 
our mission and the $2 trillion in products that we regulate. The 
investment in FDA is also an investment in the economic health of two 
of the largest sectors of America's economy: The U.S. food industry and 
the medical products industry.

FDA Budget Authority
            Fiscal Year 2013 Budget Reductions
    FDA made significant progress in recent years to consolidate our IT 
infrastructure into modern data center facilities. During the 
consolidation, FDA modernized and standardized its hardware and 
software infrastructure. This effort provides an FDA computing 
environment that reduces our costs and provides agility not previously 
possible. The result is savings in power consumption and more efficient 
use of FDA equipment and resources for IT support.
    Under this fiscal year 2013 initiative, FDA will realize savings 
that flow from the consolidation effort. FDA will generate additional 
IT savings by streamlining other data management activities, reducing 
redundant IT devices, and reducing other IT costs, for a total savings 
of $19.7 million. Finally, FDA will also save $3.5 million by deferring 
repair and maintenance projects supported by our Building and 
Facilities account.
            Food and Drug Imports From China
    FDA is requesting a budget authority increase of $10 million to 
strengthen the safety of foods, drug products, and ingredients exported 
from China to the United States. From fiscal year 2007 to 2011, the 
number of shipments of FDA-regulated products from China increased by 
62 percent. This represents a fundamental change in our economic and 
security landscape, a change that requires FDA to alter its approach to 
protecting the health of the American public. To address this change, 
FDA must strengthen its capacity to inspect Chinese facilities that 
ship products to the United States and strengthen its ability to 
perform risk analysis on FDA-regulated products from China.
    The addition of $10 million will strengthen FDA's ability to 
protect American consumers and patients in important and fundamental 
ways.
  --FDA will improve its food and drug inspection and analytical 
        capabilities with 16 additional inspectors in China, and by 
        adding three United States-based analysts.
  --FDA will broaden the range of its inspections. In addition to 
        inspecting Chinese facilities that manufacture food and medical 
        products for export to the United States, FDA will inspect 
        sites of clinical trials.
  --FDA will strengthen the understanding of Chinese regulators and the 
        exporting industry about U.S. safety standards through targeted 
        workshops and seminars. This process will foster a constructive 
        dialogue on improving the safety and quality of food and 
        medical products.
    With these resources, FDA will develop more robust knowledge about 
the complexities of regulatory pathways and supply chains within an 
increasingly globalized environment. This understanding will allow FDA 
to make better evidence-based decisions and allocate FDA resources 
based upon risk.
            FDA Medical Countermeasures Initiative
    The FDA Medical Countermeasures Initiative (MCMi) is designed to 
help meet America's national security and public health requirements 
for medical countermeasure (MCM) readiness. MCMs include drugs, 
vaccines, diagnostics, and other medical products needed to respond to 
chemical, biological, radiological, nuclear (CBRN) threats and emerging 
infectious diseases.
    Thanks to the efforts of this subcommittee, FDA received an 
appropriation of $20 million in fiscal year 2012 to provide a base of 
funding for FDA's MCMi. For fiscal year 2013, the FDA budget includes 
an additional $3.5 million for FDA medical countermeasures activities.
    With the fiscal year 2012 base funding and the additional fiscal 
year 2013 resources, FDA will support partnerships with industry, 
academia, and Government partners to improve the development timelines 
and success rates for MCMs. FDA will also expand technical assistance 
to developers of the highest priority MCMs.
    The top priorities for these MCM funds include FDA action teams to 
support the development of MCMs to address the following MCM needs:
  --Warfighter care for American soldiers exposed to trauma or CBRN 
        threats;
  --Diagnosing and treating the multiple manifestations of acute 
        radiation syndrome;
  --Meeting the special needs of pediatric patients and pregnant women;
  --Developing next generation in vitro diagnostic tests for CBRN 
        threats; and
  --Working closely with HHS to establish flexible manufacturing 
        capacity in the United States.
    Since the announcement of the FDA MCMi in August 2010, FDA and its 
drug, device and biologics programs have worked aggressively to ensure 
that the United States has access to high-priority MCMs during a public 
health emergency. Although less than 2 years old, FDA's MCMi has an 
impressive list of accomplishments, made possible by the resources that 
this subcommittee approved.
            FDA Regulatory Science Facilities
    On August 18, 2010, the General Services Administration (GSA) 
awarded the construction contract for the new laboratory complex at 
White Oak, and construction is well underway.
    An fiscal year 2013 increase of $17.7 million will allow FDA to 
outfit the new Center for Biologics Evaluation and Research (CBER)-
Center for Drug Evaluation and Research (CDER) Life Sciences-Biodefense 
Laboratory complex that will support FDA's core regulatory science 
needs. FDA must make this investment now to ensure that all laboratory 
biosafety hazard systems are operational and the laboratory is ready 
for occupancy during fiscal year 2014.
            Pay and Rent
    The fiscal year 2013 budget also contains $1.5 million to support 
the military pay increase for Commissioned Corps personnel serving at 
FDA and $2.0 million to pay a portion of the inflationary rent costs 
for FDA for FDA programs. Funding these elements of the fiscal year 
2013 budget will help ensure that FDA can retain the professional staff 
to perform our mission of protecting patients and consumers and 
improving public health.

FDA User Fees
            Prescription Drug User Fees
    In January 2012, the Administration submitted legislation to 
Congress to reauthorize the Prescription Drug User Fee Act (PDUFA). The 
proposed legislation recommends $713 million in PDUFA fees for fiscal 
year 2013. The current law expires on September 30, 2012, and FDA is 
ready to work with Congress to ensure timely reauthorization of this 
vital program. To sustain and build on our record of accomplishments, 
reauthorization must occur seamlessly, without any gap between the 
expiration of the old law and the enactment of PDUFA V. The resources 
in PDUFA V will allow FDA to review and approve new and innovative 
therapies for patients, without compromising the FDA's high standards 
for demonstrating safety, efficacy, and quality of new drugs prior to 
approval.
            Medical Device User Fees
    For more than a year, FDA met with stakeholders and held 
discussions with the medical device industry in an effort to develop a 
package of recommendations to reauthorize the Medical Device User Fee 
Act (MDUFA). On February 17, 2012, FDA reached an agreement with 
representatives from the medical device industry, and published draft 
recommendations to reauthorize MDUFA on March 15. The agreement would 
authorize FDA to collect $595 million in user fees over 5 years, an 
amount that is subject to inflation increases. The agreement would also 
result in an fiscal year 2013 MDUFA fee amount is $97.7 million.
    The agreement strikes a careful balance between what industry 
agreed to pay and what FDA can accomplish with the proposed funding. We 
believe that it will result in greater predictability, consistency, and 
transparency through improvements to the review process.
    Key features of the agreement include:
  --Earlier, more transparent and more predictable interactions between 
        FDA and applicants, both during the early product development 
        stage as well as during the review process;
  --More detailed and objective criteria for determining when a 
        premarket submission is incomplete and should not be accepted 
        for review;
  --More streamlined FDA review goals that will provide better overall 
        performance and greater predictability. This includes a 
        commitment to provide feedback to an applicant if FDA's review 
        extends beyond the goal date, so that the parties can discuss 
        how to resolve any outstanding issues;
  --Additional resources to support guidance development, reviewer 
        training and professional development, and an independent 
        assessment of the premarket review process to identify 
        potential enhancements to efficiency and effectiveness;
  --More detailed quarterly and annual reporting of program 
        performance; and
  --A commitment between FDA and industry to reduce the total average 
        calendar time to a decision for premarket approvals (PMAs) and 
        510k applications.
            New User Fees for Generics and Biosimilars
    In addition to recommending the reauthorization of PDUFA and the 
Medical Device User Fee and Modernization Act (MDUFMA), the fiscal year 
2013 budget recommends new user fee programs to support review and 
related activities for generic drugs and biosimilars. The proposed user 
fee programs for generic drugs and biosimilars are modeled on the 
successful PDUFA program, but are tailored to reflect the unique 
challenges and needs associated with regulating generic drugs and 
biosimilars.
    Generic Drug User Fees.--As a result of the Drug Price Competition 
and Patent Term Restoration Act of 1984, commonly known as the Hatch-
Waxman Amendments, America's generic drug industry has been developing, 
manufacturing, and marketing--and FDA has been reviewing and 
approving--lower cost versions of brand-name drugs for more than 25 
years. This legislation and the industry it fostered are a true public 
health success.
    Last year, approximately 78 percent of the more than 3 billion new 
and refilled prescriptions dispensed in the United States were filled 
with generics, yet those drugs accounted for only 25 percent of 
prescription drug spending. In the last decade alone, generic drugs 
have provided more than $931 billion in savings to the Nation's 
healthcare system.
    The number of generic drug submissions sent annually to FDA has 
grown rapidly, reaching another record high during fiscal year 2011, 
including nearly 1,000 ANDAs. The current backlog of pending 
applications is estimated to be more than 2,500. The current median 
time to approval is approximately 31 months, although this includes 
time that the application is with the sponsor to address FDA questions 
about the application.
    The Generic Drug User Fee Act (GDUFA) proposal submitted to 
Congress in January 2012 will put FDA's generic drugs program on a firm 
financial footing and provide $299 million in additional resources to 
ensure timely access to safe, high-quality, affordable generic drugs.
    Biosimilars User Fees.--A successful FDA biosimilars review program 
will spark the development of a new segment of the biotechnology 
industry in the United States. To advance this opportunity, the fiscal 
year 2013 budget includes a proposal for biosimilar user fees of $20.2 
million.
    The proposed biosimilars user fee program will generate fee revenue 
in the near-term and enable sponsors to have meetings with FDA early in 
the process of developing candidates for biosimilar biological 
products. With these fees, FDA will develop the scientific, regulatory, 
and policy infrastructure necessary to review biosimilar biological 
product applications.
            Implementing FSMA--The Fiscal Year 2013 Food Establishment 
                    Registration Fee
    Food Safety remains a critical program area for FDA. FDA's fiscal 
year 2013 proposal for food safety aims to advance the vision of a 
strong, reliable food safety system that Congress enacted in the 
landmark FDA Food Safety Modernization Act of 2011 (FSMA). The fiscal 
year 2013 budget proposal builds on the food safety increases that the 
subcommittee appropriated for fiscal year 2011 and fiscal year 2012 and 
calls for user fee revenue to allow FDA to establish a prevention-
focused domestic and import food safety system, consistent with FSMA.
    FSMA set out a vision for a modern food safety system that shifts 
the focus to preventing food safety problems, rather than relying 
primarily on reacting to problems after they occur. Implementing 
Congress' vision for a strengthened food safety system represents a 
dramatic expansion of FDA's workload. However, the simple truth is that 
FDA cannot meaningfully deliver on these mandates without the funding 
contained in the fiscal year 2013 budget.
    The fee will support:
  --Establishing new, effective, and comprehensive food safety 
        standards;
  --Establishing a new program for import safety;
  --Increasing the number and efficiency of inspections;
  --Launching an integrated national food safety system with States and 
        localities;
  --Expanding research activities, which will include improved data 
        collection and risk analysis; and
  --Improving FDA's capability to conduct risk-based decisionmaking.
    These fees will allow FDA to reduce the risk of illness associated 
with food and feed and decrease the frequency and severity of food- and 
feed-borne illness outbreaks. With these fees, FDA can reduce instances 
of contamination and greatly diminish the burden on American businesses 
and the U.S. economy due to foodborne illness events. Without 
sufficient and reliable fee revenue, we can expect the unacceptably 
high human toll of foodborne illness to continue, with the resulting 
disruptions to the food system and the economic burdens to the food 
industry that result from foodborne illness outbreaks.
            Tobacco Product User Fees
    On June 22, 2009, President Obama signed the Family Smoking 
Prevention and Tobacco Control Act (Tobacco Control Act) into law. 
Since 2009, the user fees authorized in the statute have allowed FDA's 
Center for Tobacco Products (CTP) to hire Center leadership and enable 
those leaders to initiate the scientific, educational, enforcement, and 
regulatory activities needed to accomplish the public health goals of 
the Tobacco Control Act. By the end of fiscal year 2011, the CTP had a 
staffing level of over 230 FTEs, and the Center anticipates meeting 
projected staffing goals in fiscal year 2013.
    The fiscal year 2013 budget request for the Tobacco Program, 
including resources for CTP, is $505 million, an increase of $28 
million above the fiscal year 2012 enacted budget. The amount requested 
is specifically authorized in the Tobacco Control Act and comprised 
entirely of tobacco user fees. Fiscal year 2013 priorities include 
protecting youth from tobacco, encouraging current users to quit, and 
making existing tobacco products less harmful.
            Other New User Fee Proposals
    Cosmetics User Fee.--The proposed cosmetic user fee of $18.7 
million will strengthen FDA efforts to protect public health by 
preventing harm to consumers, ensuring the safety of cosmetics and 
removing unsafe cosmetics from the market. With this fee revenue, FDA 
will develop necessary guidance and standards for industry. The fee 
revenue will also allow FDA to identify research gaps, such as gaps 
related to the safety of novel ingredients used in cosmetics.
    Medical Product Reinspection User Fee.--The FDA Food Safety 
Modernization Act, which Congress enacted in December 2010, authorized 
fees for reinspections of food and feed establishments. FDA is 
proposing to expand this fee authority to medical product 
establishments. With this change, medical product establishments will 
pay the full cost of reinspections and associated follow-up work. FDA 
will impose the user fee when FDA reinspects facilities due to a 
failure to meet Good Manufacturing Practices (GMPs) or other important 
FDA requirements. The fiscal year 2013 estimate for medical product 
reinspection user fees is $14.7 million.
    Food Contact Notification User Fee.--FDA has statutory 
responsibility for the safety of all food contact substances in the 
United States. The Food Contact Notification (FCN) program supports 
applications for innovative food contact substances that help mitigate 
microbial food contamination and provide consumers with more healthful 
and safe food choices. The proposed user fees of $4.9 million will 
support FDA efforts to increase the availability of safe food contact 
substances, to prevent unsafe food contact substances from reaching the 
market and to apply the most modern regulatory science to the review of 
food contact substances.
    International Courier Use Fee.--For fiscal year 2013, FDA is 
proposing a new International Courier User Fee of $5.6 million. The 
proposed fee will support activities associated with increased 
surveillance of FDA-regulated commodities at express courier hubs. To 
address the growing volume of imports entering through international 
couriers, FDA is proposing to pay the increased cost of its 
international courier activities through user fees.

                               CONCLUSION

    The resources in this budget will allow FDA to perform its 
fundamental public health responsibilities in new and more efficient 
ways. Our budget also supports industry efforts to innovate and bring 
new products to market that will benefit American patients and 
consumers and strengthen our economy.
    My goal with this proposed fiscal year 2013 budget is to position 
FDA to seize these opportunities. The resources in this budget will 
allow FDA to perform its core public health responsibilities in more 
efficient ways, to address these and the many other challenges at the 
heart of our mission. This budget also supports industry efforts to 
innovate and bring new products to market that will benefit American 
patients and consumers and strengthen our economy.
    Thank you for the opportunity to testify. I am happy to answer your 
questions.

    Senator Kohl. Thank you, Dr. Hamburg. The vote has been, at 
least for a while, postponed. So we'll just----
    Dr. Hamburg. Oh, okay.
    Senator Kohl [continuing]. Start out with our questions.
    Dr. Hamburg. Excellent.

                     FOOD SAFETY MODERNIZATION ACT

    Senator Kohl. Dr. Hamburg, this budget request assumes $220 
million in additional funding that theoretically would be used 
to implement to the Food Safety Modernization Act. However, as 
you said, that funding increase would come in the form of a new 
user fee that has already been rejected by the Congress and 
that essentially has no chance of being authorized this year.
    So what that really means is that this budget doesn't 
include any funding increase to implement the Food Safety 
Modernization Act, which is of great concern to many of us. How 
have you been working with both the Congress and the industry 
in order to get these user fees authorized?
    Dr. Hamburg. It is extremely important, as you note, to 
continue to implement the Food Safety Modernization Act, which 
gives us a chance to really reorient our whole food safety 
system towards preventing problems before they occur, rather 
than addressing them after the fact, which will have huge 
benefits both in terms of human health and reducing costs to 
the healthcare system, to the workplace, and to industry.
    We are talking with industry about the importance of this 
work. They understand it. These are difficult, challenging 
economic times, however. We all recognize that. And we are, of 
course, working with other potential partners as we implement 
the Food Safety Modernization Act. We have made progress. We 
will continue to make progress, but we will have to prioritize 
in the context of reduced resources, and it will mean that we 
cannot accomplish all of the goals of the Food Safety 
Modernization Act, and I think it will mean that, 
unfortunately, we will not be able to put in place systems that 
would prevent disease and economic burdens as well.
    But we hope that, though the process may take more time 
than we would like, we will continue to make progress in terms 
of the implementation of user fees. It's not inappropriate, I 
think, when you look at the common good, the benefits to 
industry, as well as the benefits to the public, that support 
for this program be a shared responsibility. We've seen the 
benefits of user fees with our drug user fees and more recently 
the device user fees, and I do believe that when you look at 
the amount of resources available to support food safety in 
this country, we clearly need to do more.
    Senator Kohl. But your budget assumes $220 million 
necessary to discharge your responsibilities, but to be raised 
in the form of user fees which, let's be honest, isn't going to 
happen this year--$220 million. How do you propose to even come 
close to discharging your responsibilities without that $220 
million?
    Dr. Hamburg. As I said, we are going to have to make very 
difficult choices. We are not going to be able to do all the 
things the Congress has asked us to do and that the American 
people expect us to do. We will place our emphasis and our 
resources on the highest priority issues. We do need to respond 
to the challenges of globalization and start to really ensure 
that import safety system--we will be taking more risk-based 
approaches so that we're targeting resources where the greatest 
need is, where the greatest risk is. We'll be working with 
States. We'd hoped to have resources to actually give to States 
as we build those partnerships for an integrated food safety 
system. That will be less possible, but we will have to find 
ways to work with State health and agriculture departments.
    And we will have to work closely with industry and they 
will have to fully step up to the plate as partners. This is 
going to be a very, very challenging budget to implement and it 
will put very difficult choices in front of the Commissioner 
and her team.

                                GENERICS

    Senator Kohl. All right. One question on generics, then 
I'll turn to Senator Blunt. This budget request assumes the 
collection of $299 million in new user fees for approval of new 
generic drugs. Assuming these fees are authorized--and we are 
more optimistic in this case that they will be, as you know--
how long will it take to eliminate the backlog of generic drug 
applications that could immediately then be marketed?
    Dr. Hamburg. This is such an exciting and important 
opportunity to really move the generics program and its proven 
benefits to the next level. At the present time, we have 
unacceptable lags in the review of generic drugs, and we're 
also faced with the increasing challenge that so many of the 
manufacturers of generic drugs or components of generic drugs 
are overseas and we really have to level the playing field in 
terms of domestic and overseas inspections.
    This user fee will enable us to do both. We've committed to 
reducing the review lag, which currently it takes an average of 
30 months to review a generic application. We're going to bring 
that down to 10 months. We're committed to doing that in the 5-
year span of this user fee program. And we also have committed 
to having equity between domestic and foreign inspections over 
that same time period.
    Senator Kohl. Thank you very much.
    Senator Blunt.
    Senator Blunt. Thank you, chairman.
    Commissioner, on the $220 million of additional fees, in 
that fee category what's produced now in the current fees, and 
the ones that expire at the end of this fiscal year? You have 
fees that expire at the end of this year. What do they produce?
    Dr. Hamburg. The fees that would expire in September of 
this year are the drug user fees.
    Senator Blunt. The drug fees.
    Dr. Hamburg. And the medical device user fees.
    Senator Blunt. So you have no fees in the food safety 
issue, right?
    Dr. Hamburg. We don't have an establishment fee, which is 
what is being recommended in this budget at the current time, 
no.

                            REINSPECTION FEE

    Senator Blunt. What kind of fees do you----
    Dr. Hamburg. There's one very small fee, which I have to 
turn to--reinspection. There's a reinspection fee in the food 
safety program.
    Senator Blunt. And the reinspection fee----
    Dr. Hamburg. But it's a very small amount of money and it's 
for after there have been problems in a facility and we go back 
in and reinspect to see if they've been corrected.
    Senator Blunt. So with that exception, there are no fees--
--
    Dr. Hamburg. Right.
    Senator Blunt [continuing]. Now, where you're proposing the 
$220 million in fees?
    Dr. Hamburg. Yes.
    Senator Blunt. Would that be the same for the cosmetics? 
Are there fees there now?
    Dr. Hamburg. That's correct, there is not a cosmetics fee.
    Senator Blunt. And that's $18 million?
    Dr. Hamburg. $18.7 million, I think, yes.
    Senator Blunt. And what would the potential collection cost 
of that $18 million be?
    Dr. Hamburg. I think that the----
    Senator Blunt. To put the fee in place and to collect it, 
however you would collect that fee?
    Dr. Hamburg. Having built a very robust infrastructure to 
deal with user fees in other components of FDA, I think we can 
move very quickly and efficiently to establish the user fee 
collection mechanism. It is important that it is done properly 
with the right safeguards and firewalls. But we do know how to 
do that now. We have 20 years of experience on the drug user 
fee side. So I think the greater challenge is sitting at the 
table and negotiating to achieve those user fee agreements.

                               COSMETICS

    Senator Blunt. Do you know what the average fee might be 
for the various categories of cosmetics producers, medium, 
small, or large? Do you have a sense of how this impacts the 
industry?
    Dr. Hamburg. I think we would have to sit down and really 
talk about the different strategies for approaching it and what 
would be the most appropriate way to structure the fee system 
so that there would be the greatest benefit to the industry and 
it would align with the kinds of demands on our time and 
resources.
    Senator Blunt. So would that mean you haven't decided yet 
whether it would just apply to a finished product or have a fee 
during the entire production chain of cosmetics? I assume they 
get things----
    Dr. Hamburg. Yes, I think it would very likely be modeled 
on some of the other fees in terms of registration of 
establishments. But it is a different regulatory framework than 
for drugs. For example, where there's a pre-approval process 
with cosmetics, our legal regulatory responsibilities have to 
do with monitoring for safety issues and is really not focused 
on the pre-approval, so it wouldn't follow the exact kind of 
model of other user fees in existence today.

                                 CHINA

    Senator Blunt. And the China inspection issue, would that 
be fee-based also, or would you propose some inspections in 
China?
    Dr. Hamburg. Yes, the China proposal is really to enable us 
to enhance our inspectional capacity and our presence on the 
ground in China, as well as to enhance our risk-based analytics 
and our strategies for our operations in China. But it would be 
building on existing activities. We'd be expanding our 
inspectional cadre in China by 16 people and correspondingly 
increasing the numbers of inspections in both food and drug. 
But it would not be part of our user fee program.
    Senator Blunt. So it's paid for out of regular taxpayer 
dollars?
    Dr. Hamburg. Yes.
    Senator Blunt. So these Chinese companies wouldn't pay for 
their inspection?
    Dr. Hamburg. No.
    Senator Blunt. Obviously, you'd have to agree that their 
products are going to have to go through this regimen for them 
to be allowed to come into the country?
    Dr. Hamburg. Right. If we are approving a new drug in this 
country, we need to inspect to make sure that, if it's being 
manufactured in another country, that the manufacturing meets 
our standards and requirements. If we are bringing a food 
product into this country, we need to inspect the facility to 
make sure that it's being made according to good manufacturing 
practice and meets our safety quality standards.
    So it would be to enable us to expand work that is under 
way in China. But you can imagine, based on the huge increase 
in imports of the FDA-regulated products that I noted, that we 
are extremely hard-pressed to be able to even begin to do the 
range of inspections that really are important to assuring 
safety and quality to the American people.
    Senator Blunt. But under your proposal for food or 
cosmetics, as an example, either one, that would still be paid 
out of your taxpayer-funded budget. That's not in the fee 
proposal, the China inspection?
    Dr. Hamburg. The China inspections are going to be focused 
on food and drug inspections in China, building on a framework 
that already exists. We do have offices now in Shanghai, 
Beijing, and Guangzhou and are doing inspections out of those 
offices, and also working with our counterpart regulatory 
authorities in China and industry that's based in China, either 
Chinese industries or United States companies, but that are 
manufacturing in China.
    So that $10 million will enable us to expand our capacity 
in ways that are very, very crucial.
    Senator Blunt. I guess the point that I'm trying to get 
established for myself is that we would still fund that effort 
on food, for instance, like we always have, but we would under 
your proposal have a fee for food inspection for U.S. companies 
in the United States, which I'd be reluctant to do. But we can 
visit about that later.
    Dr. Hamburg. What we're trying to do is really create an 
integrated program that is supported by both budget authority 
and user fees. In negotiating the user fees, we would be very 
explicit about how those user fee dollars would be used as part 
of this broader program. But they would not be siloed programs 
in terms of impact----
    Senator Blunt. But the user fees wouldn't be paid by the 
foreign companies. They'd be paid by U.S. companies, unless the 
foreign companies were producing in the United States?
    Dr. Hamburg. The user fees would be paid by the 
establishment that was manufacturing a product----
    Senator Blunt. In the United States?
    Dr. Hamburg. No. They could also be if you were 
manufacturing anything that would be FDA-regulated, foreign or 
domestic.
    Senator Blunt. So the Chinese company might pay the user 
fee if it was in China?
    Dr. Hamburg. Yes, yes.
    Senator Blunt. Okay, okay. That's the one point.
    Dr. Hamburg. No, I'm sorry I wasn't clear. But the $10 
million we're asking for now is to enhance our ability to 
inspect the facilities that are manufacturing goods that are 
FDA-regulated for export into the United States from China.

                             MENU LABELING

    Senator Blunt. Let me ask a couple of questions about 
probably the issue that we've gotten the most questions about 
of anything you're doing this year, which didn't maybe sound 
all that hard going in, but probably has turned out to be 
pretty complicated. And that's menu labeling. So if I 
understand the rule you've got out, on places where restaurant-
type food is not the predominant part of the business, this 
would be certainly grocery stores that might have a food area, 
one of your options is that they wouldn't be subject to the 
rule. I think that's option two under your proposed rule. 
That's how I understand that, that that is one option you 
believe you have available.
    Dr. Hamburg. Yes. We put forward some draft proposed rule 
format for comments that included some of the different 
strategies that could be undertaken. As you note, it has proved 
very complicated, how you define a restaurant-like 
establishment and a standard menu. And we have gone out to get 
comment on the different approaches that could be used for 
defining the universe of restaurant-like establishments and 
what should be labeled and how. And we are now in the process 
of responding to the comments that we've gotten. We got a lot 
of comments and they covered the waterfront in terms of 
perspectives on these issues, and we will be coming forward 
with a final rule in the near future.
    Senator Blunt. As I said in my opening comment, I would 
certainly be as flexible as you think the law allows you to be 
here, because there's lots of difficulty, it seems to me, in 
implementing this, particularly if it's not the principal thing 
you do, if it truly is arguably incidental to what you do. And 
the food options vary so much from one of the grocery stores 
you own to another grocery store you may own because of what's 
available that day or how the food counters are operated. I 
would encourage that.

                              MENU BOARDS

    The other two questions that I had that I'd like you to 
comment on at least, one is the drive-through menu board; what 
do you think that might entail? And what about places where--I 
read somewhere in some information I had that Domino's Pizza, 
that 90 percent of the customers never, never come into a 
location. So for 90 percent of the customers, they're not going 
to see what's on the menu board anyway. Is there some 
understanding that that's a different environment? Do you want 
them to comply in a different way or do you want them to doubly 
comply, something on the Web site and something else on a wall 
that nobody sees? Or what are you thinking there?
    Dr. Hamburg. As I mentioned, we are finalizing the rule 
that will go forward, so I can't speak to specific details 
because it's still being discussed and worked through. But in 
terms of what was sort of put forward in the legislation was 
the recognition that there were different types of 
establishments, but how consumers access menus would be the 
place for communicating the information.
    So if you have a storefront, but that isn't where consumers 
come in to order their pizza, it wouldn't make sense to require 
a menu board that no one would ever see. But if there's a menu 
that's on the Internet, that would certainly be an appropriate 
place, or a flyer that would be distributed, whatever, and the 
same with drive-through food establishments. Where there is a 
menu board that you look at to make your decisions, that would 
probably be the most appropriate place to have the 
communication as to calorie content of what's on the menu.
    But with respect to all of the specifics, it is still in 
discussion, and we got across the range of different types of 
establishments a lot of suggestions about different ways to 
make information available so that it would be most consumer-
friendly and-or least burdensome to the industries involved.
    Senator Blunt. My last question is, where I read 
``nutritional content'' does that mean calories or does that 
mean a lot more than calories, as you comply with this?
    Dr. Hamburg. As I remember, calories was what was clearly 
indicated for posting with a requirement to indicate that 
additional nutritional information----
    Senator Blunt. Is available?
    Dr. Hamburg [continuing]. Would be made available on 
request from the consumer.
    Senator Blunt. Thank you.
    Thank you, Mr. Chairman.
    Senator Kohl. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.

                           KV PHARMACEUTICAL

    Thank you, first of all, for your decisive action a year 
ago on the Makena drug, the progesterone made by KV 
Pharmaceutical, when they took what was a compound, priced it 
$10 to $20 per injection, and a woman, a pregnant woman, needed 
about 20 injections, as you know, in the course of the 
treatment, and after getting FDA approval jacked the price up 
to $1,500. Some would say they overreached. Others would say 
they were greedy.
    Your action was important. However, some things have 
happened that I think demand more attention. As you instructed 
compounding pharmacies to keep compounding and not to respond 
to the cease and desist order, it was a real public health 
victory that you caused. So thank you for that.
    Recently, KV Pharmaceutical--and it's pretty incredible 
behavior, a company that astounds me in its behavior and 
interaction with its patients--claimed that it collected 
contaminated samples of the compounded versions of the drug and 
asked the FDA to investigate. I am pretty amazed how they did 
it, what they did, but they did. This investigation and the 
length of it has caused some doctors to be reluctant in 
prescribing the compound, causing, I would be pretty certain, 
some women not to get the medication, which means a higher 
rate, I don't have evidence of that, but I assume--a higher 
rate of low-birth-weight babies or, second, great expense to 
insurance companies and taxpayers.
    So my question is, what are you doing in this? Are you 
aware of this slowdown in prescriptions that we're told about, 
and what are you doing to speed up this investigation so we can 
put this behind us, so that women who are at high-risk of low-
birth-weight babies get access to this drug for $300 or $400 
instead, or this progesterone for $300 or $400, instead of--
well, they dropped the price from $1,500 to $690. That was 
really kind of them, so it's only $20,000 instead of $30,000.
    What are you doing to fix this public health hazard?
    Dr. Hamburg. When we do get a report, wherever it comes 
from, of a potential public health concern regarding an 
activity that we regulate, we take it very seriously and we do 
follow up. So we are in the process of an inspection, an 
investigation of the concerns that were raised. Obviously, we 
need to do this based on more than just reports, especially if 
the reports come from----
    Senator Brown. The manufacturer.
    Dr. Hamburg [continuing]. The manufacturer.
    However, it is an ongoing investigation and I can't really 
report on details of findings or timing. I have not been made 
aware of concerns that during this process that there has been 
a decline in access to the therapeutic intervention overall. 
And I will go back and look at that.
    Senator Brown. We'll compile what information we can.
    Dr. Hamburg. Okay.
    Senator Brown. Some in the medical community have told us 
that the number of prescriptions has slowed as a result of the 
fear that doctors have because this company has made 
accusations that certainly serve its financial interest. Maybe 
they're true. I understand you have that responsibility. But 
you have a responsibility to move as quickly as you can in this 
case because it's clearly a huge public health threat. Okay, 
thank you.

                             IMPORTED DRUGS

    Second group of questions. Tainted heparin from China--and 
I want to follow up on some things that Senator Blunt asked 
about--in 2008 it killed 100 people in this country, including, 
I believe--around the world; I'm not sure--including 3 people 
from Toledo, Ohio. In 2007-2008, melamine was found in pet food 
and in infant formula in China. I've heard recently, in the 
last year, from a number of dog owners who lost their animals 
as a result, their beloved animals, as a result of tainted 
chicken treats from China.
    More recently, the identity and safety of imported fish has 
become a growing concern, a recurring concern also. You know 
the importance of this. You've asked for $10 million in your 
budget, as you pointed out to Senator Blunt and he pointed out, 
16 new full-time employees, 7 food safety inspectors, including 
7 new safety inspectors and 9 drug safety--7 food, 9 drug 
safety.
    This is a huge problem. There is no way, when you look at--
my understanding is it would take the FDA 9 years to perform 
one inspection at the high-priority pharmaceutical facilities 
in China and 13 years to inspect all of the foreign-based 
pharmaceutical manufacturing plants.
    Understand $10 million is important. The inspectors are 
important. But isn't the goal to make the companies that import 
these drugs--I don't care if they're American companies or if 
they're French companies or Chinese companies that are selling 
into the American market. Shouldn't your goal be to make them 
personally responsible?
    I mean, if a chief executive officer (CEO) is not certain 
where all the ingredients come from, and those ingredients 
coming from wherever end up killing a patient in Toledo, 
shouldn't that CEO go to jail? Shouldn't that CEO, that 
company, be fined huge amounts of money?
    We'll never be able to inspect every place in China. What 
do we do about this? Come up with something more creative than 
begging the Congress for $10 million so we can sprinkle a few 
food inspectors and safety and pharmaceutical inspectors in a 
country of 1.3 billion. Come up with something----
    Dr. Hamburg. I want to reassure you that, number one, this 
is a huge priority for us and we have a multifaceted program. 
The $10 million is a small drop in the bucket of what our 
overall needs are. We do believe that we have to have a 
strategy that rally increases standards and accountability in 
the countries of manufacture, that increases the ability for us 
to work with other regulatory authorities to share information, 
because many countries are facing the same challenge. We need 
to really carve up the landscape.
    We need to also target our inspectional resources more 
efficiently so that they can be extended further. And of 
course, we have to continue our border import safety activities 
as well, but do it in a more risk-based way.
    Senator Brown. I'm going to interrupt. I'm sorry, 
Commissioner. Is there any way to do these inspections, short 
of threatening legal action--and I don't care about, I really 
don't care about a CEO going to jail or I don't care about a 
huge fine against the companies. I want these companies to be 
responsible for their ingredients. Is there any way to do that 
short of some legal process?

                            FOREIGN IMPORTER

    Dr. Hamburg. Yes. And in fact, the Congress has helped us 
in that domain. The Food Safety Modernization Act included a 
component for foreign importer verification and really puts a 
requirement on people that are bringing products into this 
country to verify that they were manufactured in compliance 
with our standards.
    Senator Brown. And if the ingredients have shown to be 
contaminated and cost lives, what is the legal resource for a 
consumer or a family or a country?

                              ENFORCEMENT

    Dr. Hamburg. I think on the drugs side there's legislation 
that's currently being considered to give us additional 
authorities to be able to act and enforce. On the food side, we 
have been able to achieve more of the tools and authorities 
that we need. It still is a real problem to take enforcement 
action proactively in another country, and I think it does 
speak to the fact that we need to continue to work, as we are, 
making this a very important area of focus within the FDA, to 
really----
    Senator Brown. I understand that. But for 100 years in this 
country, from the creation of the FDA after Upton Sinclair's 
book, we have worked hard to protect public health and protect 
food safety and pharmaceutical and drug safety. And just 
because the company--you don't have jurisdiction in another 
country doesn't mean that they should have access to our 
markets unless those companies, the importer or the company, 
whoever it is that's bringing it in, that they should have 
ultimate liability for that.
    Mr. Chairman, if I could go one other short set of 
questions. Thank you.
    Dr. Hamburg. I just want to tell you that this is a huge 
priority, and it's one that we talk about every day in terms of 
we as a Nation have to really address this. FDA is at the 
cutting edge of much of this in terms of responding to the 
challenges of globalization. At the present time, we don't have 
the tools and authorities that we fully need to achieve that, 
nor do we have the resources.
    Senator Brown. I respect you. I've watched your career. I'm 
not convinced yet that you are aggressive enough.
    On the question of drug shortages, thank you for your work 
on that. Thank you for the comments from the chairman.

                              REPACKAGING

    On the issues of repackaging, we sent you a letter about 
repackaging within a specific hospital. They get 15 vials of 
drug X, they break it into 5 packages of 3 each to treat a 
patient, that they're able to repackage and use those, helping 
to perhaps preclude a drug shortage. I sent you a letter 
suggesting we do that. We will follow up with some legislative 
language.
    The letter that you sent back to us yesterday was to us 
inconclusive. I mean, Erin in my office, it wasn't clear to her 
in reading it that that was a very specific answer. I'd just 
like to ask you to work with us on the whole repackaging issue, 
because that can preclude some of these drug shortages.
    Dr. Hamburg. I'd be happy to work with you. I think that 
actually some of the restrictions have to do with other 
components of HHS activity, and we need to work----
    Senator Brown. We'll work with you.
    Thank you.
    Senator Kohl. Thank you, Senator Brown.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you. Thank you to you 
and to the ranking member.

                         ANTIBIOTICS--LIVESTOCK

    Commissioner, I'm pleased by your presence here today. 
Recently the FDA-issued guidance concerning antibiotic use by 
farmers and ranchers in regard to their livestock. Was that 
guidance based upon peer-reviewed science? The second question 
is: Would you provide this subcommittee with the science on 
which that guidance was based?
    Dr. Hamburg. Certainly. We did review an enormous amount of 
literature over quite a long period of looking at these 
questions. We also worked very closely with all of the critical 
stakeholders as we move toward putting forward that guidance, 
which is to restrict the use of antibiotics for growth 
promotion and feed enhancement purposes. We actually got a lot 
of support in both the analytic work for that and in the 
determination to go forward from our colleagues in animal and 
veterinary health, and the pharmaceutical manufacturers 
involved also, I think, believe that the world has changed 
considerably and we now know a great deal about the impact of 
injudicious use of antibiotics and the development of 
antibiotic resistance, that we as a Nation and as a global 
community are facing a very, very serious public health 
challenge with respect to antibiotic resistance and that this 
can make a real difference in order to really reduce this 
public health threat to both humans and animals with respect to 
ensuring that we have antibiotics that work.
    Senator Moran. I think you were suggesting that there is 
broad consensus to back up, in the industry, both the users and 
the scientific community, to support the guidance that you have 
issued.
    Dr. Hamburg. Nothing we do ever has consensus, but we did 
work hard to listen to the concerns of all of the stakeholders 
and address them.
    Senator Moran. Is it related to the use? When you talk 
about use for growth, I assume that's as compared to treating 
disease and infection?
    Dr. Hamburg. Correct.
    Senator Moran. Did the guidance have any implications on 
that use of antibiotics?
    Dr. Hamburg. Not for treating disease. We do believe that 
these antibiotics, just as in human populations, antibiotics 
are used under prescription and guidance of medical 
professionals, that veterinary professionals should be 
overseeing the appropriate use for treatment of disease.
    Senator Moran. Commissioner, would you work with my staff 
to give us----
    Dr. Hamburg. Certainly.
    Senator Moran [continuing]. A summary of the scientific 
basis for that guidance?
    Dr. Hamburg. Certainly.
    [The information follows:]

    Questions regarding the use of antimicrobial drugs in food-
producing animals have been raised and debated for many years. A 
variety of recognized international, governmental, and professional 
organizations have studied the issue. Within the FDA Guidance for 
Industry No. 209, ``The Judicious Use of Medically Important 
Antimicrobial Drugs in Food-Producing Animals,'' we have briefly 
summarized the findings and recommendations from some of the notable 
reports that have addressed this issue over the past 40 years. These 
reports provide context to FDA's current thinking on this issue and 
highlight the longstanding concerns that have been the subject of 
discussion in the scientific community as a whole.
    We acknowledge that a significant body of scientific information 
exists, including some information that may present equivocal findings 
or contrary views. However, below is a list of some of the scientific 
literature that FDA considered in developing this guidance, including 
some key reports and peer-reviewed literature. This list is not 
intended to represent an exhaustive summary of the scientific 
literature but rather to highlight some of the more recent scientific 
research related to the use of antimicrobial drugs in animal 
agriculture and the impact of such use on antimicrobial resistance.
  --1. 1969 Report of the Joint Committee on the Use of Antibiotics in 
        Animal Husbandry and Veterinary Medicine.
  --2. 1970 FDA Task Force Report, ``The Use of Antibiotics in Animal 
        Feed.''
  --3. 1980 National Academy of Sciences Report, ``The Effects on Human 
        Health of Subtherapeutic Use of Antimicrobial Drugs in Animal 
        Feeds.''
  --4. 1984 Seattle-King County Study: ``Surveillance of the Flow of 
        Salmonella and Campylobacter in a Community.''
  --5. 1988 Institute of Medicine (IOM) Report: ``Human Health Risks 
        with the Subtherapeutic Use of Penicillin or Tetracyclines in 
        Animal Feed.''
  --6. 1997 World Health Organization (WHO) Report, ``The Medical 
        Impact of Antimicrobial Use in Food Animals.'' http://
        whqlibdoc.who.int/hq/1997/WHO_EMC_ZOO_97.4.pdf
  --7. 1999 National Research Council (NRC) Report: ``The Use of Drugs 
        in Food Animals--Benefits and Risks.''
  --8. 1999 United States Government Accountability Office (GAO) 
        Report--``Food Safety: The Agricultural Use of Antibiotics and 
        Its Implications for Human Health.'' http://www.gao.gov/
        archive/1999/rc99074.pdf
  --9. 1999 European Commission Report, ``Opinion of the Scientific 
        Steering Committee on Antimicrobial Resistance.'' http://
        ec.europa.eu/food/fs/sc/ssc/out50_en.pdf
  --10. 2000 World Health Organization (WHO) Expert Consultation: ``WHO 
        Global Principles for the Containment of Antimicrobial 
        Resistance in Animals Intended for Food.'' http://
        whqlibdoc.who.int/hq/2000/WHO_CDS_CSR_APH_
        2000.4.pdf
  --11. 2003 Report, ``Joint FAO/OIE/WHO Expert Workshop on Non-Human 
        Antimicrobial Usage and Antimicrobial Resistance: Scientific 
        assessment.'' http://www.who.int/foodsafety/publications/micro/
        en/amr.pdf
  --12. 2003 Institute of Medicine (IOM) Report, ``Microbial Threats to 
        Health: Emergence, Detection and Response.''
  --13. 2004 Report, ``Second Joint FAO/OIE/WHO Expert Workshop on Non-
        Human Antimicrobial Usage and Antimicrobial Resistance: 
        Management options.'' http://www.oie.int/fileadmin/Home/eng/
        Conferences_Events/docs/pdf/WHO-CDS-CPE-ZFK-2004.8.pdf
  --14. 2004 United States Government Accountability Office (GAO) 
        Report--``Antibiotic Resistance: Federal Agencies Need to 
        Better Focus Efforts to Address Risks to Humans from Antibiotic 
        Use in Animals.'' http://www.gao.gov/new.items/d04490.pdf
  --15. 2005 Codex Alimentarius Commission (Codex), ``Code of Practice 
        to Minimize and Contain Antimicrobial Resistance.'' http://
        www.codexalimentarius.net/download/standards/10213/CXP_061e.pdf
  --16. 2006 Antimicrobial Resistance: Implications for the Food 
        System, Comprehensive Reviews in Food Science and Food Safety, 
        Vol. 5, 2006.
  --17. 2009. American Academy of Microbiology. Antibiotic Resistance: 
        An Ecological Perspective on an Old Problem. 1752 N Street, NW, 
        Washington, DC 20036, (http://www.asm.org).
  --18. 2011. Tackling antibiotic resistance from a food safety 
        perspective in Europe. World Health Organization (WHO), 
        Regional Office for Europe Scherfigsvej 8, DK-2100 Copenhagen 
        ;, Denmark. http://www.euro.who.int/data/assets/pdf_file/0005/
        136454/e94889.pdf
  --19. 2008. Longitudinal study of antimicrobial resistance among 
        Escherichia coli isolates from integrated multisite cohorts of 
        humans and swine. Alali WQ, Scott HM, Harvey RB, Norby B, 
        Lawhorn DB, Pillai SD. Appl Environ Microbiol. 74(12):3672-81.
  --20. 2008. Diversity and distribution of commensal fecal Escherichia 
        coli bacteria in beef cattle administered selected 
        subtherapeutic antimicrobials in a feedlot setting. Sharma R, 
        Munns K, Alexander T, Entz T, Mirzaagha P, Yanke LJ, Mulvey M, 
        Topp E, McAllister T. Appl Environ Microbiol. 74(20):6178-86.
  --21. 2008. Effect of subtherapeutic administration of antibiotics on 
        the prevalence of antibiotic-resistant Escherichia coli 
        bacteria in feedlot cattle. Alexander, T.W., L.J. Yanke, E. 
        Topp, M.E. Olson, R.R. Read, D.W. Morck, and T.A. McAllister. 
        Applied and Environmental Microbiology. 74:4405-4416.
  --22. 2009. A metagenomic approach for determining prevalence of 
        tetracycline resistance genes in the fecal flora of 
        conventionally raised feedlot steers and feedlot steers raised 
        without antimicrobials. Harvey, R., J. Funk, T.E. Wittum, and 
        A.E. Hoet. American Journal of Veterinary Research. 70:198-202.
  --23. 2009. Association between tetracycline consumption and 
        tetracycline resistance in Escherichia coli from healthy Danish 
        slaughter pigs. Vieira, A.R., H. Houe, H.C. Wegener, D.M. Lo Fo 
        Wong, and H.D. Emborg. Foodborne Pathogens and Disease. 6:99-
        109.
  --24. 2009. Associations between reported on-farm antimicrobial use 
        practices and observed antimicrobial resistance in generic 
        fecal Escherichia coli isolated from Alberta finishing swine 
        farms. Varga C., A. Rajic, M.E. McFall, R.J. Reid-Smith, A.E. 
        Deckert, S.L. Checkley, and S.A. McEwen. Preventive Veterinary 
        Medicine. 88:185-192.
  --25. 2010. Farm-to-fork characterization of Escherichia coli 
        associated with feedlot cattle with a known history of 
        antimicrobial use. Alexander, T.W., G.D. Inglis, L.J. Yanke, E. 
        Topp, R.R. Read, T. Reuter, and T.A. McAllister. International 
        Journal of Food Microbiology. 137:40-48.
  --26. 2011. Lower prevalence of antibiotic-resistant Enterococci on 
        U.S. conventional poultry farms that transitioned to organic 
        practices. Sapkota AR, Hulet RM, Zhang G, McDermott P, Kinney 
        EL, Schwab KJ, Joseph SW. Environ Health Perspect. 
        119(11):1622-8.
  --27. 2011. Association between antimicrobial resistance in 
        Escherichia coli isolates from food animals and blood stream 
        isolates from humans in Europe: an ecological study. Foodborne 
        Pathogens and Disease. Vieira, A.R., P. Collignon, F.M. 
        Aarestrup, S.A. McEwen, R.S. Hendriksen, T. Hald, and H.C. 
        Wegener. 8:1295-1301.
  --28. 2011. Distribution and characterization of ampicillin- and 
        tetracycline-resistant Escherichia coli from feedlot cattle fed 
        subtherapeutic antimicrobials. Mirzaagha P, Louie M, Sharma R, 
        Yanke LJ, Topp E, McAllister TA. BMC Microbiol. 19;11:78.
  --29. 2012. In-feed antibiotic effects on the swine intestinal 
        microbiome. Looft, T., T.A. Johnson, H.K. Allen, D.O. Bayles, 
        D.P. Alt, R.D. Stedtfeld, W.J. Sul, T.M. Stedtfeld, B. Chai, 
        J.R. Cole, S.A. Hashsham, J.M. Tiedje, and T.B. Stanton. 
        Proceedings of the National Academy of Sciences USA. 109:1691-
        1696.
    In addition, FDA also considered a number of other studies that 
were referenced by the Department of Health and Human Services in 
response to the 2004 United States Government Accountability Office 
(GAO) report entitled, ``Antibiotic Resistance: Federal Agencies Need 
to Better Focus Efforts to Address Risks to Humans from Antibiotic Use 
in Animals'':
  --1. Phillips I, Casewell M, Cox T, et al. Does the use of 
        antibiotics in food animals pose a risk to human health? A 
        critical review of published data. J Antimicrob Chemother, 
        2004;53:28-52.
  --2. Holmberg SD, Wells JG, Cohen ML. Animal-to-man transmission of 
        antimicrobial-resistant Salmonella: investigations of U.S. 
        outbreaks, 1971-1983. Science, 1984; 225:833-5.
  --3. Holmberg SD, Solomon SL, Blake PA. Health and economic impacts 
        of antimicrobial resistance. Rev Infect Dis, 1987; 9:1065-78.
  --4. Lee LA, Puhr ND, Maloney K, et al. Increase in antimicrobial-
        resistant Salmonella infections in the United States, 1989-
        1990. J Infect Dis, 1994; 170:128-34.
  --5. Varma J, M<lbak K, Rossiter S, et al. Antimicrobial resistance 
        in Salmonella is associated with increased hospitalization; 
        NARMS 1996-2000. International Conference on Emerging 
        Infectious Diseases. March 2002. Atlanta, Georgia.
  --6. Varma J, M<lbak K, Rossiter S, et al. Antimicrobial resistance 
        in nontyphoidal Salmonella is associated with increased 
        hospitalization and bloodstream infection--United States, 1996-
        2000. 51st Annual EIS Conference. April 22-26, 2002. Atlanta, 
        Georgia.
  --7. Helms M, Vastrup P, Gerner-Smidt P, M<lbak K. Excess mortality 
        associated with antimicrobial drug-resistant Salmonella 
        Typhimurium. Emerg Infect Dis, 2002; 8:490-5.
  --8. Martin L, Fyfe M, Dore K, et al. Increased burden of illness 
        associated with antimicrobial-resistant Salmonella enterica 
        serotype Typhimurium infections. J Infect Dis, 2004; 189:377-
        84.
  --9. Smith KE, Besser JM, Hedberg CW, et al. Quinolone-resistant 
        Campylobacter jejuni infections in Minnesota, 1992-1998. N Engl 
        J Med, 1999; 340:1525-32.
  --10. Neimann J, M<lbak K, Engberg J, et al. Longer duration of 
        illness among Campylobacter patients treated with 
        fluoroquinolones. 11th International Workshop on Campylobacter, 
        Helicobacter, and Related Organisms, 1-5 September, 2001. 
        Freiburg, Germany.
  --11. Nelson JM, Smith KE, Vugia DJ, et al. Prolonged diarrhea due to 
        ciprofloxacin-resistant Campylobacter infections. J Infect Dis, 
        2004; in press.

    Senator Moran. Thank you very much.

                           NUTRITION LABELING

    Let me express my concern--and Senator Blunt raised this 
topic, but the nutrition labeling of standard menu items at 
chain restaurant provisions was authorized by the Patient 
Protection Affordable Care Act. It's my view that that law was 
intended to provide a uniform standard for chain restaurants 
with 20 or more locations to comply with various State and 
local menu labeling laws.
    The concern I want to express is that the expansion of 
that--those regulations, to grocery stores is in my view a 
serious problem. In fact, the Office of Management and Budget 
(OMB) determined that this was the third most burdensome 
regulatory implementation of any law. Of any law that's 
currently being implemented, OMB says this is the third-largest 
regulatory burden. They estimated an increase of over 14.5 
million hours of work and almost $70 million for increased 
recordkeeping costs alone.
    I would just encourage you strongly and insist to the 
degree that I can that you not take this opportunity to 
regulate further than is required by the law. In part, I would 
express my concern, certainly about the cost that is occurring 
or will occur to the grocery store businesses. For many members 
of Congress, I assume that's a large chain. We have a bit of 
that in Kansas, but many of our grocery stores are very small. 
They are marginal. We struggle--in fact, I remember numerous 
times in my time as a House member, now as a Senator, telling 
people that where I come from economic development can be 
whether or not there's a grocery store in town. It's a very 
basic need.
    In fact, I'm a co-chair of the Senate Hunger Caucus. We're 
working with colleagues here in the Senate, but with the U.S. 
Department of Agriculture (USDA), in regard to so-called food 
deserts, where grocery stores are not available. It's often the 
core center of cities, often rural communities. The ability for 
a grocery store to survive is very difficult now, and the 
burdens that you may place upon grocery stores will exacerbate 
the problem of access to high-quality foods, including fruits 
and vegetables.
    I didn't see in what I read about FDA's cost analysis that 
there were very many benefits as far as calorie intake or 
health of the consumer related to the additional regulation of 
grocery stores in regard to so-called menu labeling. I want to 
point out the significant increase in cost, but I also want to 
point out these regulations may significantly damage the 
ability of everyday Americans who live in places that are 
already difficult to access quality food--it may reduce the 
access to that quality food even further.
    Dr. Hamburg. I appreciate your comments, but I just want to 
make clear that the law did indicate restaurants and 
restaurant-like establishments. That was not intended, 
obviously, to address every single grocery store. But the 
challenge has been trying to determine--there are big grocery 
stores that have restaurant-like cafes with a menu and prepared 
food. So that's a very different thing than looking at menu 
labeling of everything that would be sold in a grocery store, 
whatever.
    So I just want to make clear that I think that the universe 
that would apply to a grocery store is much smaller than 
perhaps you have understood. We have put out for comment 
various potential strategies for how you would define a 
restaurant-like establishment, and of course the issue of how 
to deal with grocery store cafes and these kinds of prepared 
foods for immediate consumption. That's been one of the huge 
areas of complexity and where we're still trying to sort out 
what does make sense in terms of benefits to consumers, but not 
being overly burdensome, and having it really be implementable.
    So I take very seriously what you say.
    Senator Moran. Commissioner, thank you. Even if it is a 
larger grocery store, I assume the kinds of things that may get 
picked up are salad bars and fruit stands. Fruits and 
vegetables are a significant component of increasing the 
healthiness of the American consumer. Let's make certain that 
in the quest to further regulate we don't actually diminish the 
opportunities for--I can see the circumstance in which a 
grocery store, if you pursue these regulations, simply decides: 
We're no longer going to provide the salad bar or the 
opportunity for fresh fruit; it's just not worth trying to 
comply with these regulations that FDA is pursuing.
    Finally, Mr. Chairman, I would just express concern about 
the fees that you're talking about. Mr. Blunt--my time has 
expired, but the ranking member raised this topic. Those are 
significant increases in cost of doing business, that in this 
economic time can be very damaging to the ability of a business 
to stay in business.
    Thank you, Mr. Chairman.
    Senator Kohl. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Thank you for being here today, Commissioner. It's always 
good to see you. I want to start with a quick observation, 
that's going to take some follow-up because I don't have all my 
facts today. I was in Arkansas over this most recent recess, 
and I talked to a pharmacist. She told me that one of the games 
that the pharmaceutical companies are playing right now allow a 
company to take an old drug that's been around forever and 
somehow gain exclusively to sell the drug.
    But nonetheless, the cost has gone up considerably and it's 
the same old drug. So I'd love to sit down with you or your 
team and talk about that.

                               FACILITIES

    Let me ask you about your budget, and specifically about 
buildings and facilities. I know that we're on a spending 
decline for most agencies. In fiscal year 2011, as I understand 
it, for your building and facilities fund you had $12.75 
million; fiscal year 2012, $8.7 million; fiscal year 2013, $5.3 
million. So you're really shaving down the building and 
facilities account.
    That concerns me because you do very valuable, very 
important work. I know this isn't the budget, if you had a 
magic wand that you would choose. But we are where we are.
    Do you share that concern that I have, that you may not 
have enough money for facilities?
    Dr. Hamburg. I do. As you know, this is a budget of very 
hard choices. And it's discouraging in such critical areas as 
building and facilities, as well as other arenas, to see 
limitations on dollars that are needed to make a difference. It 
will mean that we'll have to defer some maintenance activities, 
some upgrade activities. It means we're going to have to really 
prioritize to address those buildings and facilities issues 
that are most critical to supporting our mission in terms of 
being able to review and approve products and do the research 
necessary to support those efforts and to make sure that we 
have the safety systems in our laboratories, for example, that 
are necessary for our employees.

                NATIONAL CENTER FOR TOXICOLOGY RESEARCH

    It is a huge concern, I'm sure you recognize, that the 
National Center for Toxicology Research (NCTR) in Arkansas is a 
place that we have a very important and unique lab resource, 
and this is a reduction that will come very hard on them. But 
we will work carefully with them to make appropriate decisions.
    I should note that 2011 was really a high water mark in our 
buildings and facilities budget. It's not as though we have 
been at a steady state. We have always been stretched very 
thin, and I think it is reflected, unfortunately, in our 
inability to maintain all of our facilities at the levels that 
we would like.

                                  NANO

    Senator Pryor. You mentioned NCTR and I know that you're 
very familiar with the work they do down there. One type of 
work is this new and emerging nano research. I would hate to 
see that slowed down or stopped based on the facilities, 
because they're obviously going to need space and 
infrastructure to have the ability to do this work.
    They have plenty of room out there to do it. It's just a 
question if they have appropriate space within their existing 
facilities or if they need to reconfigure the space. But I 
hope, as you're going through this year and managing the 
agency, you will always remember them and try to continue on 
with that mission.
    Let me move on to the next topic, which is again back on 
NCTR. I know you came down there. Was that last year, I guess?
    Dr. Hamburg. I've been there a couple times, but I was most 
recently there in August of last year.
    Senator Pryor. August of last year.
    Dr. Hamburg. It was hot.
    Senator Pryor. Yes, it was. I remember that. Thank you for 
coming down again.
    We're trying to establish this virtual center of excellence 
in regulatory science. I'm curious about an update on that. As 
you know, that's a multi-partner thing that they're trying to 
pull together.
    Dr. Hamburg. Yes.
    Senator Pryor. So where are we on that?

        NATIONAL CENTER FOR TOXICOLOGICAL RESEARCH COLLABORATION

    Dr. Hamburg. It's an exciting collaboration. It involves 
the State of Arkansas, the five research universities in 
Arkansas, and the FDA through the National Center for 
Toxicological Research. There are a number of things that are 
under way or about to happen. One is that there will be a 
regulatory science credentialed program, training program, at 
the University of Arkansas in their school of public health. 
The first class will begin in the fall, and that will be very, 
very important in terms of helping to ensure that we have the 
cadre of trained professionals that we need going forward, 
whether they work in academia, industry, or government. We need 
those people for the future.
    The State of Arkansas will be helping to support stipends 
for students in that program and we'll be helping with teaching 
and developing the curriculum.
    We also have a research agenda focused in the 
nanotechnology area, and that is producing some exciting 
projects and collaborations really looking at issues at the 
present time of characterization and toxicology with respect to 
nano materials and nanotechnology processes.
    Senator Pryor. That's great. I think that is truly a 
partnership, a collaboration of lots of different entities. You 
guys are obviously very critical to that. But Arkansas's 
pitching in a lot, too. Thank you for your leadership on that.
    Now, I have another question, since we've been talking 
about nanotechnology here, in 2007 there was a nanotechnology 
task force report. Here we are 5 years later. I'm wondering if 
that needs to be updated. Also, do you have a state of nano 
regulation, so to speak? How's the process going of trying to 
get your hands around nanotechnology?
    Dr. Hamburg. The work of that task force is ongoing and 
there is measurable progress in some critical areas, some of it 
reflected in what we were just discussing in terms of ongoing 
research and training activities. Also, FDA has been working 
with industry in the areas that we regulate where 
nanotechnology or nano materials are now being used.
    We're actually about to issue a couple of new guidances, I 
believe any day now, that will be I think very helpful to the 
food industry and cosmetics with respect to their use of nano 
materials and nanotechnology.
    We are dealing with nanotechnology as we deal with other 
emerging technologies where we have an important responsibility 
to help to advance the opportunities that are part of these new 
technologies, but also to really study and ensure safety short-
term and long-term in terms of the use. We are seeing the 
application of nano-related techniques and materials across 
many domains of FDA activity--drugs, devices, food, cosmetics. 
So it's an area that is very, very active at the present time.
    Senator Pryor. And you think that the FDA has its arms 
around the direction nano is taking here and the resources to 
take care of that?
    Dr. Hamburg. I think that we do. I think that the 
opportunity to engage in public-private collaborations is very, 
very critical so that we can assure access to the best and the 
brightest minds, wherever they are, in terms of the research 
that needs to be done, and then working closely with industry 
to address both the potential uses and the opportunity to 
really understand and identify any potential concerns in 
relation to that, so that we can look at both the ability to 
deliver innovative new products and strategies, but also assure 
safety.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Pryor.
    Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.

                             DRUG SHORTAGES

    Dr. Hamburg, physicians, pharmacists, and patients 
throughout this country are continuing to struggle with 
alarming shortages of certain vital drugs. I've heard about 
this from virtually every hospital in my State. Many of the 
drugs in short supply are truly vital. They're used for 
chemotherapy, for example, or for anesthesia or for the 
treatment of infections.
    There are also shortages of drugs used in emergency rooms 
and intensive care units. Eighty percent of hospitals are 
reporting that they've had to delay treatment due to shortages. 
That is so troubling to me, and it's why I've joined with 
Senator Amy Klobuchar of Minnesota in introducing a bill to 
require pharmaceutical manufacturers to report to the FDA 
whenever they see evidence that they're going to have a 
shortage of a drug, whether it's because of raw material 
shortages or contamination, whatever the reason.
    Now, this builds on the model of a drug shortage program 
that already exists in FDA, but it is a voluntary program for 
manufacturers. Nevertheless, it's my understanding that FDA, 
acting on these voluntary reports, has been able to avert 
almost 200 shortages in the last year.
    There's been a tripling of the funding for the drug 
shortage program and yet we still see these shortages of 
critical drugs. So could you first give me some insight as to 
why these shortages are persisting, what FDA thinks should be 
done, and whether or not you have the resources and authority 
that you need?
    Dr. Hamburg. Thank you and we appreciate your leadership 
and work on the drug shortage issue. It's a huge concern, of 
course, to our country. As you identify, it cuts across many 
important areas of medical care.
    In recent years we have seen the numbers of drug shortages 
going up, although there was a report--I saw it in the 
Washington Post--that the University of Utah, which tracks drug 
shortages, is actually reporting that the numbers so far this 
year are one-half what we saw in the same timeframe last year. 
So that is encouraging.
    But drug shortages are occurring for a number of different 
reasons, complex reasons, that have to do with the nature of 
the drugs in short supply. The majority of the drugs that are 
in shortage are sterile injectables that present very specific 
manufacturing issues and also often are older drugs and generic 
drugs with a limited number of manufacturers.
    There also are economic forces at play, and I think we need 
to continue to work to fully understand the factors that are 
causing the drug shortages, so as a Nation we can best address 
those.
    With respect to the FDA role, we can't stop the shortages 
from happening. We can't compel manufacturers to make drugs if 
they choose to discontinue. We cannot assure that all of the 
precursor materials will be available or that the manufacturing 
will meet the quality standards that the American public expect 
and demand.
    But what we can do, and as the proposed legislation really 
addresses, is respond quickly and with a lot of flexibility 
when we have early warning that a shortage may occur and a 
disruption in the supply chain. That's how we were able to 
prevent, as you noted, almost 200 drug shortages last year and 
about 30 so far this calendar year.
    We did put out a request at the end of October to drug 
manufacturers to voluntarily report to us if they saw a 
potential shortage situation looming. Since that time we've 
gotten a sixfold increase in reports and that has been very, 
very helpful. But we think that there is real value in making 
it more explicit through legislation and really enabling us to 
systematize the information that we get, and I think that will 
help us to also establish the kind of databases that we need to 
be able to track more effectively and learn from the shortages.
    But we have, using our ability to work with manufacturers 
to address quality issues, our ability to work with 
manufacturers who aren't facing quality issues or distribution 
issues but make the same drug, to increase their manufacture to 
address the shortage problem, to bring a new manufacturer on 
board in some instances, and sometimes to look overseas if 
there's a drug that can address the shortage need and make sure 
that that drug meets our standards of safety and efficacy, but 
for targeted use bring it over.
    So we do have tools when we know about a shortage situation 
or a looming shortage, and we look forward to working with you.
    Senator Collins. And of course, if you're able to notify 
healthcare providers that a shortage is upcoming, they may be 
able to substitute a drug without interrupting treatment 
halfway through.
    Dr. Hamburg. Right, and we can work with them on that, and 
we do.

                          ARTIFICIAL PANCREAS

    Senator Collins. There is, very quickly, another issue I 
want to raise. I'm the co-chair and the founder of the Senate 
Diabetes Caucus, and I'm very excited about the potential for 
an artificial pancreas. I know that it would have the impact of 
dramatically improving the health and quality of life for 
individuals living with diabetes, particularly type 1 diabetes.
    The FDA has moved forward, has issued draft guidance--I was 
encouraged that that happened last December--to move to 
clinical trials from an inpatient to an outpatient basis. It's 
my understanding that the first outpatient trial using an 
artificial pancreas will be held at the University of Virginia. 
So I commend you for that.
    I know there's been a lot of comments on the draft guidance 
by the Juvenile Diabetes Research Foundation (JDRF) and other 
stakeholders, and I hope you'll look at those comments.
    What I want from you today is a timetable. Could you tell 
us when you plan to finalize the draft guidance on the 
artificial pancreas, and also the draft guidance on the low 
glucose suspend system, which is available in other countries, 
and thus it's been a source of frustration to a lot of people 
living with diabetes that it's not available here?
    Dr. Hamburg. Both of these guidances represent very 
important advances, as you know. If we could get an artificial 
pancreas on the market, it would make a huge difference in the 
lives of so many patients living with diabetes and their 
families. It is something that we're very excited about the 
opportunity that advances in science and technology now offer. 
We want to do our part in making sure that we can advance this 
as quickly as possible, but mindful that this is a very 
sensitive kind of a medical device and you want it to work 
properly or else it doesn't benefit anyone.
    I can't give you an exact timeframe. We are actively 
looking at comments and we have been working very intensively 
and closely with organizations like JDRF and healthcare 
providers in this area. We very much want to move it forward 
swiftly and we think that there's a lot of alignment in terms 
of the strategies, and we've gotten a lot of input in terms of 
the strategies for moving, as you point out, quickly to the 
clinical assessment and moving from a more controlled hospital 
environment to the more real world outpatient. But we want to 
do it right, but we want to do it in a way that's mindful of 
the fact that time matters to people who are living with 
diabetes type 1.
    Senator Collins. I do hope that you'll be able to finalize 
the guidance this summer. I know that's the hope of many of the 
advocacy organizations and physicians and other experts in this 
field.
    I thank you, Mr. Chairman, ranking member, for your 
patience.
    Senator Kohl. Thank you, Senator Collins.

                           PREMARKET APPROVAL

    Dr. Hamburg, in your statement, you spoke about improving 
the premarket approval process for medical devices, which is 
important to get the best medical care to patients. I and 
others have been concerned about the postmarket surveillance of 
medical devices and introduced bipartisan legislation to 
improve the surveillance. As you know, recent news reports have 
highlighted postmarket problems with medical devices, such as 
hip implants and most recently heart wires.
    Given these reports of serious medical device failures, 
don't you agree that your current tools and strategies for 
postmarket safety, nearly all of which are voluntary, are in 
need of improvement?
    It's my understanding that FDA is working on a new 
comprehensive postmarket surveillance strategy and is planning 
to unveil it shortly.
    Dr. Hamburg. This is correct.
    Senator Kohl. Could you give us some indication and some 
elaboration on what you're planning to do?
    Dr. Hamburg. There are a number of different ways that we 
have to address the issues of ongoing monitoring of safety and 
efficacy once a product is in the marketplace. We are putting 
forward a strategy to strengthen postmarket surveillance and to 
really build on data that is available in terms of electronic 
health records and information that is already being collected, 
but that we can tap into to strengthen our ongoing monitoring.
    We also have, as you probably know, introduced in some of 
these higher risk areas requirements, working with the 
manufacturer, for ongoing targeted data collection as to safety 
in the experience with these products once they are in use and 
once we have the opportunity to really understand more about 
how they're really working in the medical care context and in 
the context of daily lives.
    We also are eager to--in some key areas this has already 
been begun--create some registries that will enable us to have 
a deeper knowledge and understanding about the experience with 
these products, and we also believe that fairly soon we'll be 
able to implement the unique device identifier, which will 
again create an infrastructure for better monitoring of devices 
in the postmarket setting.
    So there's a lot of different strategies under way that get 
to the heart of your question, which is the concern for 
oversight of the lifecycle of these products and the ability to 
respond quickly to emerging public safety issues.

                         INFORMATION TECHNOLOGY

    Senator Kohl. All right. Secretary Hamburg, the budget 
request offsets some of your proposed increases through a 
decrease of $8 million in IT and administrative savings. As we 
know, budgets are not increasing, so we all have to work 
smarter. An obvious way to do that is to eliminate redundant or 
wasteful programs. Which are some of the programs you've found 
to be in that category and does your budget request deal with 
some of those programs? If so, tell us about those programs?
    Dr. Hamburg. Yes. In the area of IT we are going to be able 
to find some meaningful cost savings through activities to both 
consolidate our systems into a data center and have savings in 
terms of efficiencies and reductions in contract costs. As 
well, we're moving towards a system that will enable us to 
avoid duplication in terms of laptops and other IT equipment, 
and that actually is going to produce a surprisingly large 
amount of savings.
    Then through other IT initiatives, retiring old legacy 
systems and really looking at our business processes and a 
number of other actions being taken, we will be able, I think, 
to meet our targeted reduction of, I think it's $19.7 million, 
in the fiscal year 2013 budget.
    I have to say, and embarrass him because he's here, we have 
a wonderful new chief information officer (CIO), Eric 
Perakslis, who is really bringing a whole new way of thinking 
and doing business to FDA, strengthening both our IT systems 
and also enabling us, I think, to really deepen and strengthen 
our scientific computing, which will make such a difference in 
our ability to really address critical issues of safety, 
efficacy, and quality of the products that we regulate.
    Senator Kohl. Okay, Dr. Hamburg.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman. I just have a 
couple more questions.
    Actually, since we're talking about IT, let's just go ahead 
and go there. That was one of the areas I wanted to visit with 
a little bit. The Government Accountability Office (GAO) report 
wasn't very good and do you want to talk a little more about 
how the new CIO is responding to that and how you feel about 
it? Information technology is about 10 percent of the money 
you're spending and GAO just frankly said they didn't think you 
were spending it very well.
    Dr. Hamburg. I think that they will have a different 
message soon. That certainly is my hope and my commitment. They 
looked at a period that was time-limited and doesn't, I think, 
reflect many of the advances that have been made and that are 
continuing to be made. They address a number of issues about 
our application list, which in fact we are in a very different 
place now. And while that will always be a dynamic listing 
because we want people to be introducing new applications and 
trying new things, we feel that we now have the kind of list 
that GAO is looking for and we'll be able to sit down and talk 
with them about it.
    They talked about--the bulk of our money is really being 
spent on a limited number of really major systems, and it is 
very, very important that we examine those systems to make sure 
that they are working, that we really need them. We're 
transiting to other ways of doing business that will in fact be 
both more effective and more efficient.
    They talked about that we didn't have a strategy. We have a 
strategy that again is in its final stages. He's been working 
hard since he's been with us. He came on board at the end of 
October.

                    INFORMATION TECHNOLOGY PROGRESS

    But we have made enormous progress and, while I think it 
was a little discouraging to see their report because we know 
it doesn't reflect all the progress that has been made, the 
good news is that that progress has in fact been made. It is 
very much in correspondence with the kinds of recommendations 
that GAO put forward in their report, and it is my strong 
belief that they will be pleased to see the progress made, and 
I hope that you will be pleased to see the progress made.
    Senator Blunt. Have you been in a position to replace some 
of your old systems? Is that one of the things you're 
evaluating, whether there is a much cheaper alternative to the 
old systems you had?
    Dr. Hamburg. Yes, definitely. Consolidation of systems and 
using new strategies. I'm not an IT person, I will admit, but 
moving to cloud computing and other things changes the 
landscape dramatically.

                  LIFE SCIENCES-BIODEFENSE LABORATORY

    Senator Blunt. The other thing I wanted to talk about, you 
had a request here to move into the new building. Where will 
this request get you if we're able to get to most of that?
    Dr. Hamburg. This request will enable us to actually go in 
and use this laboratory space to do absolutely critical work in 
the drug and medical countermeasures arena in particular. We 
have a building that has been basically built out by the 
General Services Administration (GSA), but in order to occupy 
it with laboratories that meet safety codes and other things we 
do need those additional dollars. It would be a tragedy, I 
think, to have invested so much in building this new, 
critically needed and unique facility, and then not be able to 
actually utilize it.
    Senator Blunt. And that amount for outfitting that 
building, does somebody have a number there?
    Dr. Hamburg. $17.7 million.
    Senator Blunt. A little over $17 million.

                        MEDICAL COUNTERMEASURES

    You mentioned medical countermeasures and that was the last 
thing I was going to ask about. Talk to me a little about that, 
and talk to me about what you are doing or you believe you 
could do, or we could help you do, with like the Department of 
Defense (DOD), that clearly has done a whole lot of work in 
this area. A lot of what they've done could serve a bigger 
population, and maybe is. I'm asking for information here.
    Dr. Hamburg. The medical countermeasures is obviously a 
critical area in terms of health, safety, and security of our 
Nation. It involves our ability to have the medical tools, the 
diagnostics, the drugs, the devices, and other technologies to 
enable us to respond to a set of naturally and deliberately 
caused threats, whether it's pandemic flu or a nuclear, 
radiological, chemical, or biological attack, but the kinds of 
threats that could really be catastrophic in their implications 
for health and stability in our country.
    We do work closely with DOD and other components of 
government in terms of our activities. But we are a critical 
link in the chain. Whether it's a product for DOD or a product 
for civilian use, FDA standards review and approval is 
necessary for use. Through this program, which has sort of 
three main pillars--one is to make sure that we have the best 
possible review systems for dealing with these often complex 
products, that we have the underlying science to enable us to 
deal with these products, and that we have really the updated 
legal and regulatory framework for dealing with medical 
countermeasures.
    In all these areas there are complexities that may not 
exist in other domains, because sometimes you're talking about 
a disease that actually doesn't occur naturally in nature and 
where you can't possibly expose people to see if your drug or 
your diagnostic works and there may not be an animal model. So 
we have to be very flexible in our regulatory pathways. We have 
to develop new science, whether it's the appropriate models or 
innovative clinical trial strategies, to really ask and answer 
important questions about safety and efficacy, and then of 
course working with the companies that might be developing some 
of these new products. Because of an increased level of 
scientific and regulatory uncertainty, our ability to work 
closely with them really matters.
    So this program is very, very important. I think that's 
recognized by all of our partners in government and outside. We 
have really been trying to work closely with the DHS and DOD to 
really identify what are the critical threats, what are the 
gaps in terms of available products, and what's needed to 
address those.
    In this budget request for fiscal year 2013, one of the 
areas of critical focus is in fact on the warfighter and the 
need for additional products in some key areas that have to do 
with trauma sustained in the battlefield, and also the 
potential threat of chemical, biological, radiologic, and 
nuclear exposures.
    Senator Blunt. Very good.
    Mr. Chairman, I think that's all I have for today.
    Senator Kohl. Thank you very much, Senator Blunt.
    We'd like to thank you, Dr. Hamburg, for being with us 
today.

                     ADDITIONAL COMMITTEE QUESTIONS

    Members of the subcommittee can submit questions in a 
week's time, by Thursday, April 26, and we'd appreciate your 
response within 1 month of our submitting those questions to 
you.
    Dr. Hamburg. We certainly will.
    Senator Kohl. Thank you so much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted to Dr. Margaret Hamburg
                Questions Submitted by Senator Herb Kohl

                              FOOD SAFETY

    Question. Dr. Hamburg, this budget request assumes $220 million in 
additional funding that theoretically would be used to implement the 
Food Safety and Modernization Act. However, that funding increase would 
come in the form of a new user fee that has already been rejected by 
the Congress and that essentially has no chance of being authorized 
this year. So what that really means is that this budget doesn't 
include any funding increase to implement the Food Safety and 
Modernization Act, which is of great concern to me.
    If this new user fee isn't authorized, and at this point it appears 
it won't be, what does that mean for FDA's ability to implement the 
food safety law? What won't happen?
    Answer. The FDA Food Safety Modernization Act (FSMA) envisions a 
modern new food safety system that is prevention-oriented, science- and 
risk-based, and efficient. However, it cannot be fully realized without 
the proposed fiscal year 2013 resources. If FDA does not receive the 
additional resources recommended in the fiscal year 2013 budget, then 
implementing FSMA will be significantly delayed or limited in several 
priority areas. Specifically, in the absence of the funding proposed 
for fiscal year 2013, FDA must delay its implementation of preventive 
controls because it will have limited capacity to develop guidance, 
conduct outreach and provide science-based technical assistance to 
industry, and retrain FDA and State inspection forces. FDA will also 
experience delays in its ability to create the new import oversight 
system required by FSMA and fulfill the FSMA vision of an effective, 
credible food safety system that uses the best modern tools to prevent 
food safety problems.
    Question. Assuming we are working under the same budget restraints 
as you are, please send us information shortly on what the highest 
priority activities are that would have been funded with the user fees.
    Answer. Priority FDA activities for implementing the FDA Food 
Safety Modernization Act would include continuing to focus on 
rulemaking to implement FSMA. FDA would also prioritize funding for the 
national integrated food safety system in the form of State grants, 
contracts, or cooperative agreements with regulatory and public health 
partners to improve, strengthen, and standardize regulatory activities 
among all partners as mandated by FSMA. As FDA enhances its risk-based 
decisionmaking efforts, another priority area for FDA is improving 
knowledge management tools for risk analysis, such as iRisk and 
iPrioritize, and investing in innovative information technology that 
will provide a systematic and transparent approach to identify, 
characterize, and evaluate food safety risks throughout the food supply 
system and to evaluate the potential impact of control measures or 
intervention strategies. Finally, FDA will further expand planning and 
response tools and systems to collect information for surveillance and 
outbreak detection, from traceback, and for post-response activities. 
This effort will allow FDA to identify trends and improve the 
effectiveness of future response and prevention activities.

                        MEDICAL COUNTERMEASURES

    Question. The budget request includes a small increase of $3.5 
million for your Medical Countermeasures Initiative, which helps FDA 
work to develop drugs, vaccines, diagnostics, and other medical 
products needed to respond to chemical, biological, and other threats 
and emerging infectious diseases. Congress provided $20 million last 
year for this initiative.
    Can you talk about what you have accomplished so far, and what you 
plan to do this year?
    Answer. We have made significant progress in implementing FDA's 
Medical Countermeasures Initiative (MCMi). Key accomplishments include 
establishing action teams to identify and help resolve challenges to 
developing multiplex diagnostic tests and medical countermeasures 
(MCMs) for acute radiation syndrome, warfighter-trauma care, and at-
risk populations such as children and pregnant women. We have also 
established an action team to develop strategies to assess MCM safety 
and performance during public health emergencies.
    FDA held workshops on developing and evaluating next-generation 
smallpox vaccines, regulating multiplex diagnostic tests, and ethical 
and regulatory challenges for MCMs in pediatric populations. FDA also 
held advisory committee meetings on smallpox drugs, MCMs for pneumonic 
plague, and antimicrobial medkits. These efforts have assisted us in 
establishing clear regulatory pathways for a next-generation smallpox 
vaccine, smallpox drugs, and multiplex diagnostic tests.
    Additionally, FDA finalized a pre-emergency use authorization 
package for an acute radiation syndrome MCM that is in strategic 
national stockpile, which will help enable rapid distribution in a 
radiological or nuclear event. FDA also launched a rigorous MCM 
regulatory science program, a program to qualify animal models, and a 
multifaceted MCMi professional development program.
    Our fiscal year 2012 MCMi priorities include sustaining FDA action 
teams and the MCM regulatory science program, with a focus on critical 
regulatory gaps and emerging technologies. We plan to strengthen our 
MCM regulatory science partnerships with academia and U.S. Government 
partners. And we plan to identify and communicate best review practices 
for MCMs across FDA and to re-issue draft guidance on addressing 
efficacy under the Animal Rule.
    FDA will also be holding workshops on developing animal models of 
pregnancy for MCM development and on radiation biodosimetry. FDA also 
plans to enhance pre-event planning and our process for rapid 
deployment of MCMs. Finally, FDA will continue our professional 
development program and expand our outreach activities.
    Question. With resources becoming more limited every year, but the 
need for this work continuing as threats evolve and change, how do you 
prioritize to ensure that you're using the money in the most effective 
way?
    Answer. FDA is working very closely with our U.S. Government 
partners through the Department of Health and Human Services' 
interagency Public Health Emergency Medical Countermeasures Enterprise 
(Enterprise) to build and sustain the civilian MCM programs necessary 
to respond to public health emergencies. FDA is fully engaged with our 
enterprise partners at all levels to help develop and stay abreast of 
near-, mid-, and long-term MCM priorities and requirements and to 
ensure that our activities and investments are aligned with Enterprise 
goals and priorities, which are driven by threat and risk assessments. 
For example, FDA subject matter experts and senior leadership 
participate in the various Enterprise partner committees and working 
groups that develop MCM requirements, plans, priorities, and policies 
and that conduct program oversight and integration.
    FDA has also engaged Enterprise partners in implementing our 
Medical Countermeasures Initiative (MCMi) to ensure appropriate 
alignment with Enterprise priorities. For example, we have established 
a steering committee comprised of Enterprise partners to peer review 
research proposals for our MCM regulatory science program. This 
steering committee ensures that the regulatory science research that we 
fund is in alignment with Enterprise MCM priorities and focused on 
critical gaps or important emerging technologies.
    We also regularly meet with senior leadership at the Department of 
Defense to coordinate MCM activities and to ensure that our investments 
are appropriately aligned to Department of Defense MCM priorities and 
goals.

                        CHINA IMPORT INITIATIVE

    Question. The budget request includes $10 million to increase FDA's 
inspection capabilities in China, as well as work with the Chinese 
regulators and industry on maintaining U.S. quality and safety 
standards. You noted previously that the number of shipments of FDA-
regulated products from China increased by 62 percent from 2007 to 
2011, so the emphasis there is understandable.
    Is the FDA working alone on this, or is this part of a larger 
Government initiative?
    Answer. With reference to increased FDA staffing in China, FDA is 
working with Chinese regulators and the U.S. Department of State. On 
the broader topic of imported commodities originating from China, FDA 
continues to work with other U.S. Federal agencies, including the U.S. 
Departments of Agriculture, Homeland Security, and Commerce, the Office 
of the U.S. Trade Representative, other agencies within the U.S. 
Department of Health and Human Services, as well as other Federal 
counterparts, with U.S. State regulatory agencies and with other 
foreign regulatory counterparts. As part of a comprehensive strategy to 
strengthen trade enforcement and enhance trade related inspections, the 
fiscal year 2013 budget includes an additional $10 million to expand 
FDA's presence in China and ensure the safety of imports before they 
enter the United States. As growth in imports of FDA-regulated products 
continues to increase, and such products travel through increasingly 
complex supply chains, FDA continues to leverage relationships with 
relevant stakeholders to fulfill our mission to protect the health of 
American consumers.
    Question. The proposal would add 16 additional inspectors based in 
China, and three analysts based in the United States. That averages out 
to over half a million dollars for each additional person--that is a 
lot of money, so you must have additional plans for these funds.
    How else will this $10 million be used? Specifically, how do you 
plan to enhance Chinese understanding of U.S. standards besides hiring 
additional inspectors?
    Answer. While the vast majority of work done by new proposed staff 
will be in the area of inspections, FDA will use some funding for 
workshops, conferences, and strategic seminars that will further our 
efforts to ensure that Chinese manufacturers comply with relevant FDA 
requirements for safety and quality. The new staff will work to expand 
FDA's capacity-building efforts to strengthen China's regulatory 
capacity and will provide the information, tools, and training that 
will enhance the safety of FDA-regulated products exported from China 
to the United States.
    FDA's primary goal of increasing staff in China is to enhance 
compliance with relevant FDA regulations and requirements for FDA-
regulated goods exported from China. Inspections can drive increased 
compliance, as can strategically targeted training and capacity 
building. Often, these activities complement one another. In China, we 
have used information from investigations performed by in-country 
inspectors to undergird and inform our strategy for capacity-building. 
The overarching goal of these training activities is to encourage 
Chinese manufacturers to implement measures to ensure that their 
products meet FDA requirements.
    Question. Is this a scalable initiative?
    Answer. The fiscal year 2013 China Initiative contains additional 
positions to meet FDA's expanding workload in China. We hope that the 
following background will highlight how FDA has already been scaling up 
activities in China.
    Each year since opening our China Office, FDA has set year-on-year 
records for numbers of FDA inspections in China. In fiscal year 2008, 
FDA performed 87 inspections in China. By fiscal year 2011, that number 
had grown to 245. Since 2009, two food investigators and two medical 
products investigators have served within FDA's China Office. These 
staff has helped FDA achieve these significant increases in inspection 
numbers. Our inspections abroad will continue to increase under the 
requirements of the Food Safety Modernization Act and the Food and Drug 
Administration Reform Act.
    Question. What work, if any, have you done with the Chinese 
Government in preparation for this initiative?
    Answer. FDA has initiated discussions with the Chinese Government 
and the U.S. Department of State to seek approval for this increase in 
FDA staffing in China. The FDA Commissioner has also informed her 
regulatory counterparts in China through written correspondence of 
FDA's interest in expanding its inspection presence in China. The staff 
that established the FDA China Office in 2008 included four 
investigators. This cadre's work has provided Chinese regulators with 
ample evidence of both the seriousness with which FDA regards its 
mission to protect U.S. public health and of the mutual benefit that 
the presence of FDA inspectors in China can bring.

                             DRUG SHORTAGES

    Question. Dr. Hamburg, we have all been reading in the news 
recently about the large number of drug shortages, often for critical 
diseases such as cancer and heart disease. In your statement you note 
that in 2011, FDA prevented at least 195 drug shortages. This is 
impressive, but still the number of shortages continues to grow. In 
fact, they tripled from 2005 to 2010, and reached record levels in 
2011. Recently, legislation has been introduced that would require drug 
companies to notify FDA of impending shortages so your agency can begin 
to take action sooner.
    Understanding this is a complicated issue, can you speak to what 
you believe are some of the underlying causes of this increase in 
shortages?
    Answer. In 2010, there were 178 drug shortages reported to FDA, 132 
of which involved sterile injectable drugs. In 2011, FDA continued to 
see an increasing number of shortages, especially those involving older 
sterile injectable drugs. Two hundred and fifty-one shortages were 
recorded for 2011, and 183 of these involved sterile injectable drugs. 
These shortages include cancer drugs, anesthetics used for patients 
undergoing surgery, drugs needed for emergency medicine, and 
electrolytes needed for patients on IV feeding.
    A number of different factors contribute to the shortage of sterile 
injectables and other drugs, including manufacturing issues and 
economic factors. Some companies have decided to discontinue making 
their products for business reasons, others have had problems with 
their raw material suppliers, and some have shown manufacturing 
deficiencies that compromise the safety and efficacy of their products. 
Even when there is more than one firm making a drug, there is limited 
manufacturing capacity for sterile injectables at each manufacturer. 
When one firm has a delay or other problem, it is difficult for the 
remaining firms making the drug to increase production quickly to avoid 
or address a shortage.
    FDA works to find ways to mitigate drugs shortages. However, there 
are a number of factors that can cause or contribute to drugs shortages 
that are outside of FDA's control. Also, FDA has no legal authority to 
compel drug manufacturers to manufacture or continue to manufacture a 
drug.
    Question. In what ways could we be of assistance to you as you try 
to deal with this issue? Are there additional tools that you could use?
    Answer. Early notification from manufacturers to FDA can help 
prevent drug shortages in certain circumstances. With earlier 
notification, FDA may be able, for example, to work with the company on 
the issues causing the shortage before the supply is depleted and may 
be able to contact other manufacturers of the drug to encourage them to 
increase production.
    FDA is doing everything it can, within the agency's authority, to 
mitigate and manage shortages as they occur. However, many drug 
shortages arise from quality or other issues experienced during the 
manufacturing process. Manufacturers therefore play a large role in 
preventing or mitigating potential shortages by having rigorous quality 
assurance and risk management processes in place and contingency plans 
to respond to a drug shortage--for example, redundancy built into 
manufacturing capabilities to allow continued production even if the 
main manufacturing site experiences problems, or identification of 
alternative active pharmaceutical ingredient and component suppliers in 
the event the original supplier becomes unavailable.
    FDA supports provisions encouraging manufacturers to institute such 
policies, consistent with our recommendations in the draft guidance for 
industry, Notification to FDA of Issues that May Result in a 
Prescription Drug or Biological Product Shortage.

                              LAB FUNDING

    Question. The largest requested budget increase is $17.7 million to 
outfit a new biodefense and life sciences laboratory complex currently 
being constructed at FDA's White Oak facility. This new lab will 
support essential research by FDA scientists to protect patients and 
consumers. I understand that construction is nearly complete, and this 
funding will fully equip the lab and make the complex operational so 
research can begin there in 2014.
    If this funding is provided, will there be any additional costs 
beyond this, or will this particular project be complete?
    Answer. The increase of $17.7 million for fiscal year 2013 is 
required for special facility-related costs for outfitting, 
commissioning, and providing the essential equipment and infrastructure 
for the laboratories to be certified and operational. In subsequent 
years, FDA must determine how to replace aging laboratory equipment 
that cannot be moved from the existing laboratories and other equipment 
issues.
    Question. What will the effect be if this funding is not provided, 
or is only partially provided? Is this a scalable project?
    Answer. These costs have a direct relationship to the highly 
specialized construction of state-of-the-art laboratories. There are 
unique, one-of-a-kind installations and commissioning requirements 
needed to ensure acceptable operation of these facilities. The BSL-3 
labs need to be in place and operational in 2013 to ensure they are 
certified for occupancy. Delay in certification will lead to the 
reduced ability to make advances in regulatory science, including 
efforts by scientists to do applied research and support regulatory 
decisionmaking in the areas of medical countermeasures and complex and 
novel product applications involving stem cells, tissues, blood and 
blood products, and vaccines. This building was designed in support of 
the consolidated Center for Biologics Evaluation and Research (CBER) 
Life Sciences-Biodefense Lab requirement to meet FDA's mission. If 
funding is not provided and commissioning is not completed as 
scheduled, notifications will have to be provided to landlords of the 
existing facilities and leases will have to be extended. This will lead 
to rental payments on both facilities causing the programs to absorb 
these added costs. This project is not a scalable project. If the full 
$17.7 million is not received, certification will not be achieved and 
the facility will not be operational.
    Question. Is this the FDA's top priority for this fiscal year?
    Answer. This is FDA's top facilities priority in the fiscal year 
2013 budget.

                               USER FEES

    Question. Dr. Hamburg, in your statement, you point out that of 
FDA's total budget request, 98 percent of the requested increase will 
come from user fees, including current user fees and seven new proposed 
fees.
    Can you speak briefly about the status of each of the new user 
fees?
    Answer. The following is a summary of the status of FDA's new user 
fees:

             PRESCRIPTION DRUG USER FEE AMENDMENTS OF 2012

    The proposed Prescription Drug User Fee Amendments of 2012 (PDUFA), 
Generic Drug User Fee Amendments of 2012 (GDUFA), and Biosimilar User 
Fee Act of 2012 (BsUFA) were submitted to the appropriate authorizing 
committees of the Congress on January 13, 2012, and are currently being 
considered by Congress. The draft legislative package for the Medical 
Device User Fee Amendments of 2012 (MDUFA) was submitted to Congress on 
April 20, 2012; this is also currently being considered by Congress.

                      MEDICAL PRODUCT REINSPECTION

    Regarding the Medical Products Reinspection User Fee, the 
Administration has not submitted a proposal for medical product 
reinspection user fees at this time. However, FDA is ready to work with 
Congress and stakeholders to advance this user fee program. A fee 
structure and related proposals would be developed through negotiations 
with industry and other stakeholders.

                                COURIER

    Regarding the International Courier User Fee, the Administration 
has not submitted a proposal for authorizing this user fee at this 
time. However, FDA is ready to work with Congress and stakeholders to 
advance this user fee program. A fee structure and related proposals 
would be developed through negotiations with industry and other 
stakeholders.

                               COSMETICS

    FDA has met with industry representatives to discuss their ideas 
for possible new authorities, such as mandatory facility registration 
and ingredient listing. FDA is ready to work with Congress and 
stakeholders to advance this user fee program. A fee structure and 
related proposals would be developed through negotiations with industry 
and other stakeholders.

                   FOOD CONTACT NOTIFICATION USER FEE

    The Administration has not submitted a proposal for authorizing 
this user fee at this time. The Administration has not submitted a 
proposal for authorizing this user fee at this time. FDA is ready to 
work with Congress and stakeholders to advance this user fee program. 
Industry has previously expressed support for user fees to ensure 
continuation of the Food Contact Notification (FCN) program. A fee 
structure and related proposals would be developed through negotiations 
with industry and other stakeholders.

                 FOODS AND VETERINARY MEDICINE PROGRAM

    Regarding the Food Establishment Registration Fee, the 
Administration has not submitted a proposal for authorizing this user 
fee at this time. However, FDA is ready to work with Congress and 
stakeholders to advance this user fee program. A fee structure and 
related proposals would be developed through negotiations with industry 
and other stakeholders.
    FDA recommends that the proposal authorize the agency to establish 
a system of food establishment registration user fees to support food 
safety activities. The programs and activities that the fee will 
support are: Establishing new, effective, and comprehensive food safety 
standards, establishing a new program for import safety, increasing the 
number and efficiency of inspections, launching an integrated national 
food safety system with States and localities, expanding research 
activities, including improved data collection and risk analysis, and 
maintaining a current facilities registration database and supporting 
other information technologies to improve FDA's risk-based 
decisionmaking capabilities.
    Question. I do understand that user fees allow FDA to raise 
additional funds without additional budget authority, but it is 
striking that so much of your proposed budget growth is slated to come 
from new fees, which obviously must be negotiated with the affected 
industries.
    Does this concern you? Do you believe FDA could be hampered in its 
ability to function when so much of its budget is dependent upon fees 
that must be paid by, and therefore agreed to, by the industries FDA 
regulates?
    Answer. The job of protecting patients and consumers requires 
stable and adequate sources of funding. FDA has benefited from user 
fees since the introduction of PDUFA in 1993. It is only appropriate 
that the industries who directly benefit from the actions taken at FDA 
pay a moderate fee to increase capacity at the agency. At a time when 
the availability of budget authority to support FDA programs is 
constrained, user fees provide an essential source of funding to 
conduct product reviews and ensure product quality and safety.

                     DRUG LABELING DURING PREGNANCY

    Question. I have been working with you and the FDA to improve drug 
labels for women during their pregnancies. As you know, an estimated 75 
percent of pregnant women use about five prescriptions or over-the-
counter drugs during their pregnancies. The FDA proposed rules to make 
drug labeling easier to understand and easier to use for women during 
pregnancy. This process began 15 years ago with the FDA's Pregnancy 
Labeling Task Force and led to a proposed rule in 2008. As of today, 4 
years later, these rules have not yet been finalized.
    In previous inquiries, you told me that pregnancy drug labeling is 
a priority for FDA. If this rule is a priority, can you commit to me 
that FDA will finalize these labeling requirements by the end of this 
year?
    Answer. FDA is committed to finalizing a rule that will improve 
drug labeling for women who are pregnant, and we are diligently working 
to issue this important rule. Because of the complexity of this rule 
and the time required to review and finalize this rule, it is not 
possible to say whether the final rule will publish during 2012.
    However, we want to emphasize that, in addition to finalizing the 
pregnancy and lactation rule, FDA has other important and ongoing 
projects related to the health of pregnant and lactating women. For 
example, on April 30-May 1, 2012, as part of the FDA Medical 
Countermeasures Initiative (MCMi), FDA held a ``Public Workshop on 
Developing Animal Models of Pregnancy to Address Medical 
Countermeasures for Influenza.''
    In addition, FDA has issued five scientific guidance documents 
relating to pregnancy and lactation that support women's health:
  --Integration of Study Results to Assess Concerns about Human 
        Reproductive and Developmental Toxicities (final guidance);
  --Establishing Pregnancy Exposure Registries (final guidance);
  --Pharmacokinetics During Pregnancy and Lactation (draft guidance);
  --Evaluating the Risks of Drug Exposure in Human Pregnancies (final 
        guidance); and
  --Clinical Lactation Studies-Study Design, Data Analysis, and 
        Recommendations for Labeling (draft guidance).

                  SEAFOOD CONSUMPTION DURING PREGNANCY

    Question. In 2004, your agency published an advisory to pregnant 
women on seafood nutrition, which, unfortunately, had a negative 
consequence and was interpreted as a warning for all Americans to limit 
or stop consuming seafood altogether based on concerns over mercury. 
According to FDA's own data, pregnant women have reduced their seafood 
consumption to less than 2 ounces per week since that advisory was 
issued. The updated U.S. Dietary Guidelines for Americans, released 
over a year ago, recommend that pregnant women eat at least 8 ounces of 
seafood per week--a quadrupling of current levels.
    Given the stark scientific evidence that women of childbearing 
years, pregnant women, and mothers with young children are eating too 
little seafood for their health and their babies' health, when will FDA 
finalize and publish an updated advisory for seafood consumption for 
pregnant women?
    Answer. FDA agrees that the fish consumption advice issued in 2004 
jointly by FDA and the Environmental Protection Agency (EPA) is in need 
of an update. We have been working together to issue draft new advice 
for public comment this year.
    Question. One of the problems with the current FDA advice to 
pregnant women is it takes a ``risk only'' approach that has been 
misinterpreted by consumers and the media as Federal advice to reduce 
or stop seafood consumption.
    What is the FDA doing to ensure that the updated advice is drafted 
in a way that includes both benefits and risks and is understandable to 
the average consumer?
    Answer. The Administration currently has several conflicting 
opinions on seafood advice to pregnant women. NOAA recently released a 
video called ``Fish, Mercury, and Nutrition: The Net Effects'' which 
includes a virtual ``who's who'' of leading Government and academic 
scientists that lay out the science of why eating fish is important for 
all Americans, especially pregnant and breastfeeding moms. The 
scientists in the video question the 12 ounce consumption limit created 
by the FDA stating that it limits the benefits accrued from seafood 
consumption. The Washington Post ran an article on the front page of 
the Health section earlier this month that highlighted how the current 
conflict in seafood advice is confusing consumers.
    Question. How is the Administration working together to ensure that 
there is consistent advice across all Federal departments and agencies 
to pregnant women on the consumption of seafood during pregnancy?
    Answer. FDA agrees that the fish consumption advice issued in 2004 
jointly by FDA and the Environmental Protection Agency (EPA) needs an 
update. FDA and EPA have been working together to issue draft new 
advice for public comment this year.
    As you point out, the 2004 advice was risk oriented, in that its 
primary objective was to limit exposure to methylmercury during 
pregnancy. Methylmercury is a neurotoxin and the developing fetus can 
be particularly sensitive to it. Since that advice issued, a number of 
research studies have consistently indicated that fish consumption 
during pregnancy can benefit fetal neurodevelopment even though the 
fish contain at least some methylmercury. The research further 
indicates that for most fish, greater consumption can be more 
beneficial than less consumption, at least up to some point. Evidence 
shows, however, that the methylmercury in the fish can affect the size 
of the benefit, or, if exposure is high enough, whether there is a 
benefit at all. Too much methylmercury could still lead to 
neurodevelopmental deficits.
    Taking these findings into account, the Departments of Agriculture 
and Health and Human Services updated the Dietary Guidelines for 
Americans that the two agencies publish every 5 years to recommend that 
pregnant women eat more fish. As you noted, the Dietary Guidelines for 
Americans 2010 essentially modified the 2004 FDA-EPA advice by adding a 
consumption target of 8-12 ounces per week of a variety of fish lower 
in methylmercury to promote cognitive development. The 2004 advice does 
not contain a consumption target and, in that respect, is now 
inconsistent with the advice in the Dietary Guidelines for Americans 
2010.
    In another development, FDA has performed a quantitative assessment 
of the net effects of fish consumption during pregnancy on fetal 
neurodevelopment that has produced results supportive of a consumption 
target in the range recommended in the Dietary Guidelines for Americans 
2010. The FDA assessment was published in draft in 2009 and is now 
being prepared for publication in final form.
    Updated advice should be consistent with the 8-12 oz. per week 
consumption target for pregnant women for commercial fish as is now 
recommended in the Dietary Guidelines for Americans 2010. That 
objective has been fully recognized by FDA and EPA in their joint 
effort to update their advice. Although updated advice could retain a 
short list of fish that women should probably avoid during pregnancy--
as the Dietary Guidelines for Americans 2010 now does--the advice 
should also be crafted in a way that does not scare women away from a 
consumption target well beyond what most women are now eating. Median 
fish consumption by pregnant women in an FDA survey was 1.8 ounces per 
week, as you have noted.
    It is also imperative that the advice have a solid scientific and 
analytical basis that is in the public domain. We expect that basis to 
consist of the research published since 2004, the FDA assessment as 
described above, and another assessment of the net effects of fish 
consumption published recently by the Food and Agriculture Organization 
of the United Nations and the World Health Organization. That 
assessment produced results consistent with the FDA assessment.

                             SEAFOOD SAFETY

    Question. Dr. Hamburg, the safety of imported seafood is a 
significant concern. FDA does not currently have the resources to 
inspect seafood at the point of origin, and is inspecting less than 2 
percent of imported seafood. However, we understand that many seafood 
buyers already require testing of product in the country of origin, and 
use third-party organizations, including qualified laboratories, to do 
this testing. This does have the advantage of detecting unsafe product 
before it enters the United States. Last year, in both the Senate 
Report and Conference Statement of Managers, we directed FDA to develop 
a comprehensive program for imported seafood.
    What are you doing to implement this directive? In particular, does 
FDA currently have the authority to recognize third-party inspection 
and testing in seafood, and, if so, are you giving this concept any 
consideration?
    Answer. FDA regulates imported seafood by, among other things, 
reviewing U.S. Customs entries, conducting field exams, collecting 
samples for laboratory analysis, and placing products and processors 
with a history of problems on detention without physical examination--
requiring the importer to demonstrate compliance, usually through 
third-party analysis, for future shipments. These procedures address 
the control of pathogens, filth, parasites, decomposition, animal 
drugs, bio-toxins, and illegal food and color additives in imported 
fish and fishery products, among other hazards.
    The implementation of the Seafood Hazard Analysis Critical Control 
Program (HACCP) regulation in 1997 initiated a landmark program 
designed to increase the safety that U.S. consumers already enjoyed and 
to reduce seafood related illnesses to the lowest possible levels.
    Under the HACCP system of controls, the importer and the foreign 
processor share the responsibility for seafood safety. Foreign 
processors that ship fish or fishery products to the United States must 
operate in conformance with the seafood HACCP regulation. In addition, 
importers are required to take steps to verify that their imported 
products are obtained from foreign processors that comply with the 
seafood HACCP regulation. Compliance is verified through inspections.
    The FDA Food Safety Modernization Act (FSMA) directs FDA to 
establish a program for accreditation of third-party auditors to 
conduct food safety audits to assess foreign food firms for compliance 
with FDA requirements. Based on audit results, accredited third-party 
auditors may issue certifications to foreign food firms. In addition, 
FSMA authorizes FDA to set up a program for accredited laboratories to 
perform food testing. Neither program is specific to seafood or to any 
other particular commodity. However, the FSMA requirement is consistent 
with the report language asking FDA to develop a comprehensive program 
for imported seafood.

                            BLOOD PLATELETS

    Question. A recent study in Transfusion showed that the vast 
majority of bacterially contaminated platelet units are being missed by 
culture testing performed by the blood collectors and that testing on 
the day of transfusion detected more than twice as many contaminated 
units in an inventory where the culture positives had already been 
removed. While patients can be assured that there is virtually no risk 
of viral contamination in transfused blood products in the United 
States, the same cannot be said for bacterial contamination. It is 
estimated that 1 of every 3000 units of platelets being transfused is 
contaminated with bacteria at clinically significant levels. What is 
the FDA doing to make the medical community aware of the safety risks 
to transfusion patients from bacterially contaminated blood platelets?
    Answer. FDA has the vital role of ensuring the safety of the 
approximately 17 million donations of Whole Blood and Red Blood cells 
collected from approximately 11 million donors each year. These Whole 
Blood donations are processed into approximately 23 million components, 
including platelets, which are transfused to approximately 4.5 million 
recipients
    Bacteria may contaminate platelet products if bacteria are 
introduced during collection or through the presence of transient 
bacteremia in blood donors. Because platelets are stored at room 
temperature, if the product is contaminated, the bacteria can 
proliferate throughout the storage period. To improve the safety of 
platelet products, collection centers have implemented a number of 
measures over the past several years.
    FDA has been diligent in its research and regulatory efforts to 
address and improve the safety of platelet transfusion. FDA has 
sponsored numerous workshops and advisory committee meetings and taken 
regulatory actions to address issues related to the bacterial 
contamination of platelets. Dating back to 1986, FDA reduced the shelf 
life of platelets from 7 days to 5 days based on reports of septic 
reactions. In 2003, FDA approved blood bags that facilitate diversion 
of the first 15 ml of blood collected into a diversion pouch in order 
to reduce the possibility of bacterial contamination.
    FDA has also cleared several bacterial detection devices for the 
quality control of platelet products. For example, in 2009 FDA cleared 
the Verax Platelet PGD Test System for use as a quality control test 
for the detection of bacteria after platelets derived from whole blood 
have been pooled, just prior to a patient platelet transfusion. 
However, because of the complexity involved with the implementation of 
this test and its variable sensitivity in the detection of bacteria, 
further consideration is warranted prior to recommending its routine 
use. Given the continued risk of bacterial contamination of platelets, 
FDA will continue to collaborate with the transfusion community and 
will consider implementing additional measures that may further improve 
the safety of platelet transfusions as technology develops.

                      RARE AND NEGLECTED DISEASES

    Question. The Food and Drug Administration plays an essential role 
in capacity-building abroad to help build strong regulatory authorities 
in other nations. In addition, FDA's funding for new global health 
tools and its leadership in reviewing and licensing global health 
technologies is key to sustaining and supporting American investment in 
this area.
    In the 2010 Appropriations legislation for FDA, Congress directed 
FDA to establish review groups on rare diseases and on neglected 
diseases of the developing world and to report to Congress on the 
agency's development of guidance for development of new technologies in 
these areas.
    Would you please provide the Committee an update on the monitoring, 
evaluation and progress of the ``Pathway to Global Product Safety and 
Quality''? In the update, please provide the following information in 
discussing the review of drugs and other products for neglected 
diseases:
  --The frequency and barriers to the use of priority review;
  --Ways to work with sponsors to facilitate expanded access to 
        investigational products;
  --Ways FDA can increase coordination and interaction with the World 
        Health Organization, European Medicines Agency, and other 
        international regulatory agencies on these drugs and products;
  --Ways FDA can implement mechanisms to enhance collaboration between 
        the Food and Drug Administration and National Regulatory 
        Authorities in developing countries;
  --Ways FDA can increase coordination among individual drug, 
        biological product, and device review divisions across Food and 
        Drug Administration centers to support the development and 
        monitoring of safe and effective medical products for rare and 
        neglected diseases.
    Answer. The Pathway to Global product Safety and Quality is a major 
shift in the regulatory posture of intercepting harmful or contaminated 
medical products, to anticipating and preventing the arrival of 
violative and unapproved goods in the United States. As part of its 
global transformation, FDA is building an international operating model 
that relies on enhanced intelligence, information-sharing, data-driven 
risk analytics and the smart allocation of resources through 
partnerships. The following information addresses the separate issue of 
review of products for rare and neglected tropical diseases and the 
collaboration with stakeholders to develop and monitor drug development 
in this area.

The Frequency and Barriers to the Use of Priority Review
    FDA has an existing priority review policy that is described in our 
Manual of Policy and Procedures. Products that qualify for priority 
review based on demonstrating an advantage will receive priority review 
based on the merits of the drug. FDA also prioritizes review of 
applications for antiretroviral drug products associated with the 
President's Emergency Plan for AIDS Relief (PEPFAR Program) drugs, as 
discussed below, and applications for drugs that are in short supply. 
There are no barriers to the application of the priority review policy.
The Tropical Disease Priority Review Voucher Program
    Regarding the Tropical Disease Priority Review Voucher program, to 
date, that program, implemented in 2007, appears to have provided 
limited, if any stimulus to development of drugs for neglected tropical 
diseases. One voucher has been issued and redeemed to date. This 
voucher was received for the approval of artemether-lumefantrine 
tablets--Coartem--for treatment of malaria, and the voucher was 
redeemed for the review of canakinumab for treatment of gouty 
arthritis.

Ways To Work With Sponsors To Facilitate Expanded Access to 
        Investigational Products
    FDA has specific provisions in its regulations, which were updated 
just a few years ago, to facilitate access to investigational drugs 
when the primary purpose is to diagnose, monitor, or treat a patient's 
disease or condition. The details in FDA regulations appear at 21 CFR 
312 Subpart I--Expanded Access to Investigational Drugs for Treatment 
Use. This revision of the investigational new drug (IND) regulations, 
promulgated in 2009, was intended to clarify the procedures for 
obtaining investigational drugs for treatment use, by describing in 
detail three categories of expanded access to investigational drugs: 
Provides clarity for sponsors in characterizing expanded access of 
investigational products for individual patient use, for use in 
intermediate-sized patient populations, and for use in a treatment IND 
or treatment protocol. FDA also issued a companion rule at that time on 
charging for investigational products, to clarify and expand the number 
of scenarios where charging would be permitted.

Ways FDA Can Increase Coordination and Interaction With the World 
        Health Organization (WHO), European Medicines Agency (EMA), and 
        Other International Regulatory Agencies on These Drugs and 
        Products
    The Center for Drug Evaluation and Research (CDER) interacts with 
WHO, EMA, and other international regulatory agencies on an 
increasingly frequent basis on a variety of review issues. These 
interactions have promoted a familiarity with one another's programs 
and processes and lead to increased collaboration on numerous review-
based activities.
    An example is our collaboration with WHO on the review of 
antiretroviral drug products associated with the President's Emergency 
Plan for AIDS Relief (PEPFAR) program. FDA actively worked with 
companies to facilitate the development and review of applications for 
fixed dose combination products, in order to help ensure consistent 
availability of these products under PEPFAR for use in treatment 
programs.
    FDA and the European Medicines Agency collaborate on a regular 
basis on orphan product designation and development. There is a common 
application form for submission to both agencies for orphan 
designation. Sponsors may file a common Annual Report to both agencies. 
Sponsors are encouraged to seek parallel scientific advice on orphan 
product development from both agencies. FDA most recently met with the 
European Union and Japanese regulatory agencies on the common 
application last February in Japan while at the International 
Conference for Rare Diseases and Orphan Drugs.
    EMA has a program involving WHO which may assist in the development 
of neglected diseases outside our respective territories, and FDA 
participates in this program when sponsors seek parallel scientific 
advice.
    With regard to the ``Pathway to Global Product Safety and Quality'' 
Report, FDA, EMA, European National Competent Authorities, the European 
Directorate for the Quality of Medicine, WHO, and Australia's 
Therapeutic Goods Administration collaborate on information-sharing and 
joint inspections of the manufacturers of active pharmaceutical 
ingredients. The program focuses on best use of international 
inspectional resources and information to help secure the global supply 
chain.

Ways FDA Can Implement Mechanisms To Enhance Collaboration Between the 
        Food and Drug Administration and National Regulatory 
        Authorities in Developing Countries
    Since September 2005, CDER has offered the CDER Forum for 
International Drug Regulatory Authorities every spring and fall. The 
first nine programs focused on an overview of the CDER review process 
and major offices. Starting with the 10th program, the focus shifted to 
the review process and specifically the information posted at DRUGS@FDA 
to promote a more detailed understanding of the CDER's Review process 
and the scientific disciplines involved. The CDER Forums are very 
interactive and promote the possibility of drug regulatory authorities 
to learn from one another in a collegial way.
    To date, regulators from more than 70 countries have participated. 
Worthy of note is that many countries have now included this activity 
in their budgets to allow staff to participate in the program on a 
regular basis.
    Interactive modules have been created from CDER Forum lectures and 
they may be found on the CDER Web site under CDER World. Details on the 
CDER forum and other activities may be found in FDA's recently 
published report Global Engagement.

Ways FDA Can Increase Coordination Among Individual Drug, Biological 
        Product, and Device Review Divisions Across Food and Drug 
        Administration Centers To Support the Development and 
        Monitoring of Safe and Effective Medical Products for Rare and 
        Neglected Diseases
    In 2010, the Center for Drug Evaluation and Research (CDER) 
established a rare diseases program to increase coordination among the 
individual offices and review divisions within the Office of New Drugs 
on the review and regulation of rare diseases and orphan products. This 
program is due to expand in fiscal year 2013 under the Prescription 
Drug User Fee Act (PDUFA) V, with increased staff, staff training, 
guidance, policy and advice generation, and increased coordination and 
outreach among rare disease stakeholders both within and outside of 
FDA. PDUFA V will also establish a rare disease liaison within the 
Center for Biologics Evaluation and Research (CBER) with similar 
responsibilities. The proposed PDUFA V legislation should contribute to 
and continue to enhance existing efforts at CDER to facilitate, 
support, and accelerate rare disease drug development.
    To help facilitate medical device applications for rare diseases, 
the Center for Devices and Radiological Health (CDRH) released final 
guidance on the Humanitarian Device Exemption (HDE) process in July 
2010 as well as draft guidance on the Humanitarian Use Devices (HUD) 
designation process (with CBER and the Office of Orphan Product 
Development) in December 2011. The proposed User Fee Amendment 
legislation should promote increased use of the HDE pathway for devices 
to treat rare pediatric and adult conditions and further the goal of 
the availability of medical devices for pediatric populations through 
continued funding of the consortia grants for medical device 
development.
    Question. It is my understanding that Chagas disease is not on the 
list of neglected diseases as currently defined by the FDA.
    Please explain why this is not the case and how the agency could 
include Chagas disease in its list of neglected diseases in line with 
the WHO list of Neglected Tropical Diseases.
    Answer. In addition to the list of tropical diseases provided in 
section 524(a)(3), other infectious diseases for which there is no 
significant market in developed nations and that disproportionately 
affects poor and marginalized populations could be designated as 
tropical diseases by regulation (section 524(a)(3)(Q)). We have heard 
from other stakeholders in public comments to us that Chagas disease 
should be added to the list of neglected tropical diseases. FDA is 
considering this suggestion as we work through the rulemaking 
procedures for designating other diseases as tropical diseases. FDA has 
reviewed a list of tropical infectious diseases that are not 
specifically listed in section 524(a)(3) and will provide a discussion 
of why or why not we are to proposing to designate them as tropical 
diseases in the Notice of Proposed Rulemaking.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                              ANTIBIOTICS

    Question. In 2010, nearly 12.5 million kilograms of antibiotics 
were used in animal agriculture. It is widely believed that the vast 
majority of these drugs were given in low doses to healthy animals for 
the sole purpose helping them gain weight. The overuse of antibiotics 
in animals has contributed to bacteria resistance and new, more deadly 
forms of bacteria that were once easily treatable.
    Commissioner Hamburg, the Food and Drug Administration's (FDA's) 
announcement calling on drug companies to help limit the use of 
antibiotics given to farm animals is a step in the right direction. 
However, it is important to note that the new guidance is voluntary, 
and I have real doubts that this industry will make these changes 
willingly.
    What steps are you taking to ensure that companies that do not 
voluntarily revise their antibiotic use, cause no additional harm to 
human health?
    Answer. FDA is confident that the cooperative framework outlined in 
the draft Guidance for Industry (GFI) No. 213, Revising Approved 
Conditions of Use for New Animal Drugs and New Animal Drug Combination 
Products Administered in or on Medicated Feed or Drinking Water of 
Food-Producing Animals, will help limit the use of antibiotic given to 
farm animals, which is why we are initially pursuing this voluntary 
approach. FDA anticipates that sponsors of affected products should be 
able to complete implementation of the changes discussed in this draft 
guidance within 3 years from the date of publication of the final 
version of this guidance.
    FDA will continue to monitor the progress of the voluntary adoption 
strategy, including the progress of measures intended to facilitate an 
orderly and minimally disruptive transition. Three years after issuing 
the final version of GFI No. 213, FDA intends to evaluate the rate of 
adoption of the proposed changes across affected products. FDA will 
consider further action, as warranted or required, in accordance with 
existing provisions of the Food, Drug, and Cosmetic Act (FD&C Act) for 
those products that have not been updated with the recommended changes 
through the voluntary process.
    Question. How much do you expect this policy to reduce the total 
volume of antibiotic use, in terms of kilograms? What metrics are you 
using to judge the success of this initiative?
    Answer. At this time, FDA does not have detailed drug use data that 
would enable us to estimate quantitatively the reduction in the total 
volume of use that would be expected with phasing out the production or 
growth promotion uses of medically important drugs. However, FDA does 
believe that eliminating production uses and limiting remaining use to 
address animal disease under the direction of a veterinarian represents 
a significant change to how these drugs have been used for decades in 
animal agriculture.
    As discussed in FDA's Guidance for Industry (GFI) No. 209, ``The 
Judicious Use of Medically Important Antimicrobial Drugs in Food-
Producing Animals,'' a key objective is to limit the use of medically 
important antimicrobial drugs in food-producing animals to those uses 
that are necessary for addressing animal health needs. Animal health 
needs are to treat, control, or prevent a specifically identified 
disease. Such uses typically involve drug administration at higher, 
therapeutic doses, for shorter durations to targeted animals that have 
a disease or are at risk of disease. In contrast, production or growth 
promotion uses are not necessary for maintaining animal health. Such 
uses are not intended to manage any disease and typically involve 
administering drugs at lower drug doses for prolonged durations to 
entire herds or flocks of animals.
    FDA acknowledges the importance of assessing the effectiveness of 
measures intended to curb antimicrobial resistance. However, 
identifying appropriate metrics is challenging. In conjunction with 
finalizing its plans for implementing the recommendations outlined in 
GFI No. 209, FDA is considering approaches for assessing the impact of 
such measures over time. This includes exploring mechanisms for 
enhancing the drug sales and distribution data that it already receives 
and other metrics such as data provided by the National Antimicrobial 
Resistance Monitoring System (NARMS), to track trends in antimicrobial 
resistance over time.
    Question. How does this announcement interact with the recent court 
ruling that will require FDA modify its approved uses of penicillin and 
tetracycline?
    Answer. FDA is continuing its work with the animal pharmaceutical 
industry, veterinarians, and producer and consumer groups to ensure the 
judicious use of antimicrobials of human health importance. FDA is 
studying the opinion and determining how this will affect the voluntary 
approach outlined in GFI No. 209.
    However, to the extent that the court's decision, dated March 22, 
2012, is not ultimately reversed on appeal, and if sponsors have not 
already voluntarily withdrawn the growth promotion indications for 
their penicillin and tetracycline drug products used in animal feed, 
the application of the court's opinion would appear to require FDA to 
initiate mandatory withdrawal proceedings pursuant to section 512(e) of 
the FD&C Act. The Court's opinion does not address any other medically 
important antibiotics. Thus FDA does not believe that the March 22 
decision precludes FDA from continuing to pursue the voluntary approach 
to phasing out growth promotion uses for those other drugs. In 
addition, the court's decision does not affect FDA's implementation of 
the second principle in GFI No. 209, which uses a voluntary approach to 
phase in veterinary oversight for approved therapeutic uses of 
medically important antimicrobial drugs in the feed or water of food-
producing animals.

                       ARSENIC IN CHICKEN STUDIES

    Question. Commissioner Hamburg, I was recently made aware of the 
John's Hopkins Center for a Livable Future study which suggests that 
poultry are fed banned antibiotics, low levels of arsenic, caffeine, 
and over-the-counter drugs--all illegal--in an effort in fatten them up 
and keep the meat tender.
    This concerns me, because consumers have no way of knowing if the 
chicken they are consuming have been fed these dangerous chemicals.
    How is the FDA responding to the industry's use of illegal 
chemicals in poultry?
    Answer. FDA is aware of the recent studies published in Science of 
the Total Environment and in Environmental Science and Technology that 
analyzed chicken feather meal for bioaccumulated levels of arsenic and 
certain pharmaceuticals and personal care products. Scientists at FDA 
Center for Veterinary Medicine (CVM) are currently working to evaluate 
the methods used in and conclusions drawn by these studies. FDA takes 
this kind of information very seriously and, based on the outcome of 
our evaluation, will act accordingly.
    FDA has conducted its own scientific investigation to determine 
whether the use of the arsenic-based animal drug, roxarsone, causes 
carcinogenic residues in edible tissues of chickens. As part of this 
work, FDA scientists developed an analytical method capable of 
detecting inorganic arsenic in edible tissues. FDA scientists found 
that the levels of inorganic arsenic in the livers of chickens treated 
with 3-Nitro, also known as roxarsone--were increased relative to 
levels in the livers of the untreated control chickens. Based on this 
information, FDA met with the drug sponsor, Alpharma LLC, a subsidiary 
of Pfizer Inc., and developed a plan to address the concerns raised by 
the study. As a result, the drug sponsor voluntarily suspended the sale 
of the product in the United States.
    In addition, FDA and the United States Department of Agriculture's 
Food Safety Inspection Service (FSIS) and the Environmental Protection 
Agency (EPA) continue to work collaboratively to control and monitor 
veterinary drug, pesticide, and environmental contaminant residues in 
FSIS-regulated foods. FSIS, through the National Residue Program, tests 
meat, poultry and egg products to verify that tolerances or action 
levels are not violated. When FSIS identifies violations, FDA uses its 
enforcement tools to address the violation. This includes issuing 
warning letters and seizures and injunctions. Throughout the years, the 
two agencies have pursued a number of cases which have resulted in 
consent decrees.
    Question. What research do you have that suggests that drugs like 
Prozac and Benadryl are safe food additives or food animal drugs?
    Answer. As mentioned above, scientists at FDA's Center for 
Veterinary Medicine (CVM) are currently working to evaluate the study 
that reported finding residues of these drugs and other compounds in 
feather meal. At this time, FDA has no evidence that U.S. poultry 
producers are adding these chemicals to animal feed and it remains 
unclear whether other factors are involved, including exposure to 
environmental sources of these compounds. As this is the first study to 
examine feather meal for these types of compounds, additional research 
is needed to verify the results and to investigate exposure sources.

                              FOOD SAFETY

    Question. In May 2011, the U.S. Department of Agriculture (USDA) 
received a petition to declare antibiotic-resistant salmonella as an 
``adulterant'' in poultry. This would mean that products containing 
these bacteria could not be sold. I would support any decision that 
protects consumers from dangerous pathogens, particularly if that 
decision allowed USDA to recall contaminated poultry before consumers 
get sick.
    Is FDA collaborating with USDA on this issue of antibiotic-
resistant organisms in meat?
    Answer. Yes, FDA and USDA have worked together on this issue since 
1997 when USDA joined FDA's NARMS program. USDA Hazard Analysis and 
Critical Control Point (HACCP) samples, which are tested for antibiotic 
resistance, include retail meat products in the sampling design. The 
results of this work are published in the NARMS annual reports on FDA's 
Web site. In conjunction with HACCP sampling, FDA continues to 
collaborate with USDA on the collection of additional isolates that are 
more representative of food animal production. Additionally, with 
respect to monitoring the use of antibiotics in other nations, FDA 
works in conjunction with USDA's Food Safety Inspection Service when 
residues are identified in imported meat and meat products.
    Question. The most recent data produced by the FDA's National 
Antimicrobial Resistance Monitoring System (NARMS) shows that nearly 30 
percent of poultry tested contain antibiotic resistant strains of 
salmonella. But the monitoring system doesn't even test for highly 
dangerous and resistant bacteria such as methicillin-resistant 
Staphylococcus aureus (MRSA).
    Are there any plans to expand the scope of this important 
monitoring tool?
    Answer. Yes, needed improvements are being made to the sampling 
design for the food animal component of NARMS that will result in more 
reliable data on antibiotic resistance trends. NARMS is an important 
monitoring tool and it is critical to have a flexible program that is 
able to address current and emerging challenges. Regarding MRSA 
specifically, FDA is well aware of the recent research on this issue. 
FDA, the Centers for Disease Control (CDC), and USDA are in agreement 
that the epidemiology of community-associated MRSA does not point to 
the food supply as an important mechanism for spreading this infection.

                     FOOD SAFETY MODERNIZATION ACT

    Question. Commissioner Hamburg, on January 4, 2011, the President 
signed the Food Safety Modernization Act into law. This law ensures 
that we are working to prevent foodborne pathogens from entering the 
food supply rather than just responding to outbreaks. However, it is 
now more than a year since enactment and we still have not seen many of 
the regulations required by this law.
    Will you please provide an update on the timeline for the full 
implementation of the Food Safety Modernization Act?
    Answer. The numerous provisions of the FDA Food Safety 
Modernization Act (FSMA) present FDA with a unique opportunity to 
improve food safety. This also represents an enormous challenge to 
develop and issue more than 50 regulations, guidance documents, and 
reports under very tight timeframes. FDA is committed to issuing all of 
the rules and regulations in FSMA and is prioritizing its work by 
concentrating first on the rulemakings that will form the foundation of 
the preventive controls framework envisioned in FSMA. FDA currently has 
four FSMA proposed rules--Preventive Controls for Human Food, 
Preventive Controls for Animal Food, Produce Safety Standards, and the 
Foreign Supplier Verification Program--currently under review with the 
goal to issue these documents as soon as possible.
    Question. How does FDA plan to differentiate between high-risk and 
low-risk products?
    Answer. The provisions of the FDA Food Safety Modernization Act 
(FSMA) contain many references to high-risk and low-risk products, 
facilities, activities, or situations. FSMA frequently mandates that 
FDA consider risk and be risk-based in its actions. In some sections, 
FSMA provides criteria for evaluating risk and in other sections it 
does not. For example, section 204--Enhancing Tracking and Tracing of 
Food and Recordkeeping--states that each designation of a high-risk 
food shall be based on:

    ``(i) the known safety risks of a particular food, including the 
history and severity of foodborne illness outbreaks attributed to such 
food, taking into consideration foodborne illness data collected by the 
Centers for Disease Control and Prevention;
    ``(ii) the likelihood that a particular food has a high potential 
risk for microbiological or chemical contamination or would support the 
growth of pathogenic microorganisms due to the nature of the food or 
the processes used to produce such food;
    ``(iii) the point in the manufacturing process of the food where 
contamination is most likely to occur;
    ``(iv) the likelihood of contamination and steps taken during the 
manufacturing process to reduce the possibility of contamination;
    ``(v) the likelihood that consuming a particular food will result 
in a foodborne illness due to contamination of the food; and
    ``(vi) the likely or known severity, including health and economic 
impacts, of a foodborne illness attributed to a particular food.''

    In implementing the various provisions of FSMA, FDA will consider 
the specific text related to risk in the relevant section and then, to 
the extent the text allows, strive to be consistent in our 
implementation across the provisions.

                REGISTRY OF LEGITIMATE ONLINE PHARMACIES

    Question. The Internet has made it shockingly easy for patients to 
obtain--and become addicted to--prescription drugs. In a report 
published in January, the National Association of Boards of Pharmacy 
found that 96 percent of the nearly 9,000 Internet drug outlets it 
reviewed were not in compliance with pharmacy laws or established 
industry standards.
    These Web sites are increasingly sophisticated, making it difficult 
for consumers to distinguish between legitimate online retailers and 
those that unlawfully sell prescription drugs. Oftentimes, illegal 
online pharmacies impersonate the layout of legitimate pharmacies; 
claim to be endorsed by Government agencies; or display licenses, phone 
numbers, and addresses, all to deceive consumers.
    I have introduced bipartisan legislation with Senators Sessions, 
Cornyn, and Schumer to protect consumers from these rogue Internet 
pharmacies. Because it is so difficult for consumers to distinguish the 
legitimate online pharmacies from the illegitimate ones, the bill as 
introduced proposes that FDA create a registry of legitimate pharmacy 
Web sites. This would make sure consumers are protected by providing 
accurate information about the legitimacy of pharmacy Web sites. I 
understand that FDA staff has some concerns with this approach. But the 
Internet is not going anywhere, and neither is the problem posed by 
rogue pharmacy Web sites.
    Will you work with me to devise solutions to better educate 
consumers so that they can make informed decisions when they seek to 
purchase prescription drugs online?
    Answer. One of our concerns with establishing a list or registry of 
``legitimate'' online pharmacies as a resource for consumers is that 
the unregulated nature and volume of Web sites on the Internet would 
make it nearly impossible to monitor and maintain such a list with any 
form of real-time accuracy of the legitimacy of the online pharmacies. 
FDA does not have the ability to assure that every site listed in such 
a registry would always remain safe at the time of purchase. Despite 
being listed as ``legitimate,'' an online pharmacy may later decide to 
sell or dispense illegal products that may cause consumers harm. 
Additionally, criminals could also use the list to target online 
pharmacies and masquerade as a listed Web site to sell unapproved, 
adulterated, or counterfeit medicines. Therefore, consumers could be 
misled into thinking that the Web sites listed were completely safe 
sites from which to buy medicines.
    FDA looks forward to working with you and other stakeholders on 
solutions for empowering consumers to make informed decisions when they 
are considering purchasing prescription drugs online. FDA is committed 
to educating the public on how to safely buy prescription medicines 
online and about the risks associated with purchasing prescription 
drugs on the Internet from illegal Web sites. We currently have 
educational materials available on FDA's Web site, http://www.fda.gov/
Drugs/ResourcesForYou/Consumers/BuyingUsingMedicineSafely/
BuyingMedicinesOvertheInternet/default.htm, and continue to research 
consumer and healthcare professional perceptions about buying 
prescription drugs online in order to improve these educational 
materials.

                    DEFINITION OF VALID PRESCRIPTION

    Question. An estimated 1-in-6 Americans--36 million people--have 
purchased prescription medication online without obtaining a valid 
prescription. This has contributed to a growing prescription drug abuse 
in our Nation.
    For example, a man in Wichita, Kansas took eight or nine pills of 
the muscle relaxant Soma each night to help him sleep, even though the 
recommended dosage is only one pill every 6 to 8 hours. One morning, 
his wife found him dead in bed from an accidental overdose of this 
drug. She had assumed that the pills were being prescribed by a doctor, 
but she was wrong. Her husband had obtained the drugs from an illegal 
Internet pharmacy without ever visiting a doctor.
    In another example from my home town, a doctor in San Francisco 
wrote thousands of prescriptions for painkillers for customers of a 
rogue Internet pharmacy. The prescriptions were based on brief 
telephone conversations. The doctor never examined or even met the 
patients. One patient, who also lived in San Francisco, became addicted 
to narcotics and developed liver damage after receiving multiple orders 
of the pain killer Darvocet.
    These tragedies occurred because there is a loophole in current law 
that allows prescriptions for noncontrolled substances to be issued 
without a patient ever visiting a doctor. In 2008, Congress enacted 
legislation that I had introduced--the Ryan Haight Online Pharmacy 
Consumer Protection Act--that requires that a patient receive at least 
one in-person medical evaluation before prescriptions could be issued 
for a drug that is a controlled substance. It is time that we extend 
this provision to cover all prescription drugs, not just controlled 
substances, and I have introduced bipartisan legislation with Senators 
Sessions, Cornyn, and Schumer that would achieve this result.
    I know that the President's U.S. Intellectual Property Enforcement 
Coordinator has issued reports that call for ``valid prescription'' to 
be defined in the law for prescription drugs that are not controlled 
substances.
    Could you describe why the Administration has taken this position?
    Answer. The Administration is correct in being concerned about the 
lack of a clear Federal definition of a ``valid'' prescription for the 
purposes of online drug sales of non-controlled substances. Although it 
will not solve all problems associated with Internet sales of 
prescription drugs, creating a national definition of a valid 
prescription would be helpful to broadly address some of the challenges 
associated with Internet pharmacies. A uniformly applicable definition 
of what constitutes a ``valid'' prescription would be beneficial for 
all prescription drugs as an enforcement tool, regardless of whether 
they are controlled or non-controlled substances.
    Prescription drugs may only be dispensed upon a prescription 
ordered by a State-licensed healthcare practitioner for specific 
patients based on a medical need determined by that healthcare 
practitioner. To ensure the safe use of a prescription drug, the drugs 
should be used under the supervision of a licensed healthcare 
practitioner by law to administer such drug (section 503(b) of the Food 
Drug & Cosmetic Act).
    Illegal online drug sellers (including many located outside the 
United States) pretend to be legitimate Internet pharmacies and offer 
prescription drugs for sale without requiring that the purchaser have a 
valid prescription for such drugs.
    FDA is concerned about the public health risks associated with 
consumers buying prescription drugs from online drug sellers on the 
Internet, because some of these products, particularly those sold 
without requiring a valid prescription, may be ineffective and unsafe. 
Specifically, illegal Internet pharmacies are more likely to offer 
products that are counterfeit, contaminated, contain the wrong active 
ingredient(s), have too much or too little active ingredient, are not 
stored or handled under proper conditions, or are produced under filthy 
conditions. As a result, consumers may experience adverse health 
effects.
    FDA has several examples demonstrating our concern for the public's 
safety when using illegal Internet pharmacies to buy prescription 
drugs:
  --A dangerous counterfeit product that was purchased using the 
        Internet, that contained the wrong active ingredient: http://
        www.abbott.com/vicodin-consumer-alert.htm
  --A past advisory about foreign products with confusing names or the 
        same name, but that may have different active ingredients than 
        the FDA-approved drug:
    http://www.fda.gov/Drugs/DrugSafety/
        PostmarketDrugSafetyInformationforPatientsandProviders/
        DrugSafetyInformationforHeathcareProfessionals/
        PublicHealthAdvisories/ucm173134.htm
  --FDA found that products purchased from ``Canadian pharmacies'' 
        actually came from 27 different countries: http://www.fda.gov/
        NewsEvents/Newsroom/PressAnnouncements/2005/ucm108534.htm
    To help U.S. consumers who buy prescription drugs on the Internet 
protect themselves from receiving unapproved, unsafe, and ineffective 
drugs, FDA recommends that they buy only from online pharmacies that:
  --Are located in the United States;
  --Are licensed by the State board of pharmacy where the Web site is 
        operating;
  --Have a licensed pharmacist available to answer questions;
  --Require a prescription from a doctor or other healthcare 
        professional licensed to prescribe in order to buy a 
        prescription medicine; and
  --Provide contact information that allows the consumer to talk to a 
        person if he or she has problems or questions.
    Additional advice to consumers about how to buy medicines online 
safely can be found on FDA's Web site at: http://www.fda.gov/Drugs/
ResourcesForYou/ucm080588.htm

                      NUTRITION LABELING STANDARDS

    Question. I have heard from constituents in my State who own 
restaurant chains like Carl's Junior and Domino's. They are concerned 
about the implementation of the final rule of section 4205 of the 
Patient Protection and Affordable Care Act, Nutrition Labeling of 
Standard Menu Items at Chain Restaurants.
    These restaurant chains, which employ thousands of people in my 
State, are concerned that the implementation of this final rule could 
be overly burdensome, particularly in these challenging economic times.
    I appreciate your request for comments on many parts of the 
proposed rule, including on the use of stanchions, the declaration of 
variable menu items, and a discussion of different options for the 
final rule.
    The FDA estimates the initial mean cost of complying with the 
requirements of the rule will be $315 million, with an estimated 
ongoing cost of over $44 million. I believe this regulation should be 
implemented in a way that is the least burdensome. In what ways is the 
FDA working with industry to ensure the final regulations are the least 
burdensome and least costly?
    Answer. FDA conducted multiple listening sessions with the industry 
and other stakeholders when developing the proposed rule. The industry 
supplied numerous comments in response to the proposed rule and FDA is 
giving these comments careful consideration in development of the final 
rule.
    FDA examined the impacts of the proposed rule as required under 
Executive Orders 12866 and 13563, the Regulatory Flexibility Act (5 
U.S.C. 601-612), and the Unfunded Mandates Reform Act of 1995 (Public 
Law 104-4). Executive Orders 13563 and 12866 direct agencies to assess 
all costs and benefits (both quantitative and qualitative) of available 
regulatory alternatives and, if regulation is necessary, to select 
regulatory approaches that maximize net benefits (including potential 
economic, environmental, public health and safety effects, distributive 
impacts, and equity). Executive Order 13563 emphasizes the importance 
of quantifying both costs and benefits, of reducing costs, of 
harmonizing rules, and of promoting flexibility.
    In addition, FDA evaluated the impacts of the proposed rule 
pursuant to the Regulatory Flexibility Act, which requires agencies to 
analyze regulatory options that would minimize any significant impact 
of a rule on small entities. FDA's analysis of the regulatory impact of 
the proposed rule was made available for public comment and FDA is 
considering the comments received in developing the final rule.
    Question. Will you allow any flexibility in deadlines for small 
businesses to comply with the regulations?
    Answer. FDA proposed that the final rule become effective 6 months 
from the date of its publication. FDA also requested comments on 
whether the effective date should be extended for a greater period of 
time after the publication of the final rule (76 FR 19192 at 19219). 
FDA also sought comment on whether we should provide for staggered 
implementation based on the size of a chain or of a specific franchisee 
(76 FR 19192 at 19220). FDA is reviewing and considering the comments 
and will include its decisions on the effective date and on staggered 
implementation in the final rule.
    Question. What is the status of the final rule?
    Answer. FDA is currently reviewing and considering the comments, 
and developing the final rule.
    Question. Does the FDA have a target date for implementing the 
final rule?
    Answer. FDA will specify the effective date in the final rule when 
it is published.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt

                      BIOSIMILARS USER FEE PROGRAM

    Question. When Congress adopted the Biologics Price Competition and 
Innovation Act (BPCIA), it did so to ensure a consistent standard 
during the review process, as well as the same level of expertise with 
the reviewers as the Prescription Drug User Fee program. As a result of 
BPCIA, FDA has recently submitted a fee proposal for the review of 
biosimilar products to Congress.
    As a part of this legislative package, why is FDA proposing an 
additional $20 million in appropriated funds, commonly referred to as a 
trigger, for each of the program's 5 years?
    Answer. Under the ``Biosimiliars User Fee Act of 2012'' (BsUFA), 
FDA will allocate at least $20 million, adjusted for inflation, in non-
user fee money for biosimilar review activities to ensure that user 
fees represent supplemental funding to the biosimilar program and to 
avoid redirection of resources from PDUFA to BsUFA activities.
    Question. Does BPCIA include a specific requirement to develop this 
separate funding trigger?
    Answer. BPCIA does not include a specific requirement for funding, 
but directs FDA to develop a biosimilar user fee program for fiscal 
years 2013 through 2017. Similar to FDA's other medical product user 
fee programs, under BsUFA, user fee funding supplements dedicated non-
user fee funding to ensure sufficient resources for the biosimilar 
review program.

                              BIOSIMILARS

    Question. How did FDA arrive at the $20 million figure, and what 
data or information did you use to support at that number? Is FDA 
currently spending appropriated funds on activities related to 
biosimilars?
    Answer. FDA considers the review of biosimilar biological products, 
which offer the potential for a safe and effective, and more affordable 
alternative to innovator biologics to be a high priority. FDA has 
devoted an increasing amount of resources to the biosimilar program 
since BPCIA enactment in March 2010. FDA is developing regulatory 
policies and guidance on the new biosimilar approval pathway, and 
building the review capacity to facilitate biosimilar biological 
product development. On February 9, 2012, FDA released three draft 
guidance documents on biosimilar product development. The draft 
guidances are ``Scientific Considerations in Demonstrating 
Biosimilarity to a Reference Product'', ``Quality Considerations in 
Demonstrating Biosimilarity to a Reference Protein Product'', and 
``Biosimilars: Questions and Answers Regarding Implementation of the 
Biologics Price Competition and Innovation Act of 2009.'' FDA is 
currently seeking comments on the guidance documents and will consider 
information received from the public in finalizing the documents. FDA 
is spending appropriated funds on activities related to biosimilars. 
During fiscal year 2011, FDA spent $7.9 million on biosimilar 
activities.
    Characterizing biological products for the purpose of determining 
biosimilarity or interchangeability is challenging because the 
molecules of biological products tend to be much larger and have a far 
more complex spatial structure than small-molecule drugs. Therefore, 
FDA generally expects the level of effort and expertise required to 
review biosimilar applications to be comparable to that required to 
review innovator biologic applications. As a result, the proposed fee 
levels under BsUFA are similar to the fee levels under PDUFA. Industry 
agreed to these fee levels only if FDA committed to review performance 
goals that would quickly become comparable to the goals of the more 
mature, established PDUFA program. As a result, the proposed 
performance goals for BsUFA include goals related to meetings with 
sponsors, application review, and other biosimilar review activities. 
For certain goals, the target performance levels start at 70 percent 
and increase to 90 percent by the fifth year of the program, while 
others begin at 90 percent and remain at this level for the 5 years of 
the program.
    Although FDA has been meeting with, and providing advice to, 
sponsors of biosimilar product candidates since May 2010, FDA has not 
received a biosimilar biological product application, and there are no 
currently marketed biosimilar biological products. The biosimilar 
program is relatively new, leading to uncertainty regarding future 
program size and user fee collections. To ensure resources for 
biosimilar review activities, while avoiding redirection of resources 
from PDUFA, FDA estimated at least $20 million in non-user fee money 
plus biosimilar user fee collections would be required to have 
sufficient minimum program staffing capacity to be able to achieve 
these aggressive performance goals in the first 5 years of the BsUFA 
program.
    Question. Does this new trigger require Congress to appropriate an 
additional $20 million specifically for the biosimilar program each 
year?
    Answer. BsUFA does not require Congress to appropriate funds for 
the biosimilar program, but requires FDA to spend at least $20 million 
each year, adjusted for inflation, in non-user fee money for biosimilar 
review activities.
    Question. If the FDA intends to reallocate or reprogram the $20 
million from other FDA existing programs and accounts, from precisely 
what programs and in what amounts would the funding be derived?
    Answer. FDA considers the review of biosimilar products to be a 
high priority. In fiscal year 2011, FDA received an increase of $1.8 
million in non-user fee money for the biosimilar review program. For 
fiscal year 2013, if FDA does not receive approximately $20 million in 
new budget authority for the biosimilar review program, then FDA must 
reassess other priorities, and redirect budget authority funding from 
other programs.

                        DEVICES AND DIAGNOSTICS

    Question. Guidance documents can be a useful tool to provide 
flexible, rapid direction to industry and agency personnel on FDA 
policy or issues. However, the proliferation of guidance documents 
issued by FDA, particularly the Center for Devices and Radiological 
Health, has created some confusion in the industry. Issuing numerous 
guidance documents on related topics over a short timeframe creates a 
patchwork of industry responsibilities that may be difficult to 
navigate. The agency claims this ``mosaic'' will fit together smoothly 
once all the pieces are issued; however, it is difficult to see the 
agency's vision.
    Dr. Hamburg, can you help me understand FDA's end strategy 
regarding these guidance documents?
    Answer. In recent years concerns have been raised both within and 
outside of FDA about our regulatory review processes. In August 2010, 
the Center for Devices and Radiological Health (CDRH) released two 
reports that identified issues regarding our premarket programs and 
proposed potential actions for us to take to address the underlying 
root causes. After considering extensive and varied public input on our 
recommendations, in January 2011, CDRH announced a Plan of Action that 
included 25 specific actions that we would take to improve the 
predictability, consistency, and transparency of our premarket 
programs.
    The Plan of Action outlines which recommendations CDRH intends to 
implement including the identification of eight specific guidance 
documents that will help CDRH to better meet its mission of protecting 
and promoting the public health. To date six of the eight originally 
identified guidance documents have been issued in draft.
    FDA believes the actions identified in the Plan for Action, 
including the associated guidance documents, will strengthen our 
premarket review programs. By increasing the predictability, 
reliability, and efficiency of our regulatory pathways, FDA can help 
ensure that better treatments and diagnostics are provided to patients 
more quickly, stimulate investment in and development of promising new 
technologies to meet critical public health needs, and increase the 
global market position of U.S. medical devices.
    A detailed report informing constituents of the many actions CDRH 
is undertaking to improve its premarket programs is available on FDA's 
Web site:
(http://www.fda.gov/AboutFDA/CentersOffices/
OfficeofMedicalProductsandTobacco/CDRH/CDRHReports/ucm276272.htm).
    Question. Until recently, FDA has exercised enforcement discretion 
when diagnostic products labeled Research Use Only (RUO) are used in 
clinical settings. Some are concerned that ending this practice will 
result in manufacturers discontinuing many RUO products, thus limiting 
patient access to innovative diagnostics, particularly in the 
personalized medicine arena.
    Can you comment on whether you believe FDA is striking the right 
balance between protecting the public health and ensuring patient 
access to new therapies?
    Answer. FDA believes that products intended for use in patient 
diagnosis should not be marketed or distributed with the label, ``For 
research use only. Not for use in diagnostic procedures.'' FDA has not 
had a policy of enforcement discretion for Research Use Only--or RUO--
labeled products that are marketed for clinical diagnostic use. Our 
regulations, promulgated in 1976, require manufacturers to label 
products consistent with their intended use. Because RUO products are 
not intended to affect patient care, they are exempt from the safety-
oriented regulatory controls applied to medical devices that are 
intended for diagnostic use. This exemption facilitates the marketing 
and shipping of devices that are intended for research use only by not 
requiring the same level of regulatory controls that are required for 
devices which are used to make patient management decisions.
    The RUO draft guidance was issued June 11, 2011. The policies 
outlined in the draft guidance are supported by longstanding statutory 
and regulatory requirements; the RUO labeling regulation was originally 
promulgated on March 15, 1973, and the definition of intended use for 
devices was promulgated on February 13, 1976. The purpose of the draft 
guidance is to leverage our enforcement resources by reminding 
companies that these regulatory requirements exist, that FDA does 
enforce them, and that by ignoring these regulations, companies may be 
causing their devices to be adulterated and/or misbranded under the 
Federal Food, Drug, and Cosmetic Act.
    In finalizing the guidance, we will carefully consider how the 
guidance might affect access and availability of certain products, and 
will take steps to assure that the public health is not put at risk.
    Question. It has been brought to my attention that FDA's recent 
guidance on Research Use Only products could restrict patient access to 
important diagnostics by restricting sales of these products. Does the 
agency have any evidence of patients being harmed by Research Use Only 
products? What is the agency's sense of the scope of this perceived 
problem?
    Answer. Because RUO products are exempt from the usual regulatory 
controls applied to medical devices, including exemption from 
registration of the manufacturer and listing of the devices sold, and 
the requirement to report adverse events to FDA, we do not typically 
receive reports of RUO device failures and malfunctions, or any adverse 
events related to such failures and malfunctions. However, we have 
encountered examples of advertisements, package inserts, and other 
marketing materials in which a device labeled for research use and not 
in compliance with FDA device regulations is promoted for clinical 
diagnostic use. We are also aware of anecdotal evidence that use of 
such products may have contributed to incorrect diagnoses, and errors 
in public health actions.
    We believe that clinical diagnostic use of products that are not 
labeled for diagnostic use and do not comply with FDA regulations 
presents safety concerns, in part because there is no assurance that 
such products are manufactured in any controlled way. There is also no 
assurance that such products perform as stated, that manufacturers will 
address problems with these products, that there will be uniformity 
between products of the same type, or that potential users will be 
notified if the products are defective or could cause harm.
    In finalizing the guidance, FDA will carefully consider how the 
guidance might affect access and availability of certain products, and 
will take steps to assure that the public health is not put at risk.
    Question. FDA's current regulatory principles hold manufacturers 
responsible only for their own actions and clearly state that 
``intended use'' is determined by objective actions taken by the 
manufacturer, such as product claims. Under the draft RUO guidance, 
FDA's position on this matter has changed significantly. The draft 
guidance states that a product is subject to regulation based on how a 
customer uses the product, even if the manufacturer has labeled and 
promoted it properly.
    What is the basis for FDA's position that a manufacturer's 
knowledge of its customer's use of the product--rather than the 
manufacturer's conduct--makes the product subject to device 
regulations?
    Answer. We do not believe the draft RUO guidance represents a 
significant change, as the regulations governing RUO labeling and the 
definition of intended use that underlie the policies announced in the 
draft guidance have been in place since 1973 and 1976 respectively. 
Under these regulations, a manufacturer has the responsibility to label 
devices consistent with their intended use, and intended use may be 
shown by the circumstances surrounding the distribution of the device, 
including knowledge of actual use. We have observed a striking increase 
in marketing of products that clearly have a diagnostic purpose under 
the RUO label, and wish to remind manufacturers that putting an RUO 
label on a product and then marketing it for diagnostic use is 
violative.
    We consider a number of factors when determining whether a 
manufacturer is in violation of the labeling requirements and believe a 
``totality of the evidence'' approach is appropriate to determining 
whether a manufacturer has acted in accordance with the regulations.

                             MENU LABELING

    Question. FDA is currently working on the final rule in regards to 
menu labeling. This is a tremendous undertaking for restaurants. 
Specifically, the law recognizes that the making of restaurant meals is 
different than manufacturing packaged foods and thus was explicit about 
the use of ``reasonable basis'' to enforce the law.
    Do you intend to follow the intent of the law in regards to uniform 
enforcement with ``reasonable basis''? What is your current thinking on 
how to approach this issue?
    Answer. Section 4205 of the Patient Protection and Affordable Care 
Act of 2010 (Affordable Care Act) states that ``a restaurant or similar 
retail food establishment shall have a reasonable basis for its 
nutrient content disclosures, including nutrient databases, cookbooks, 
laboratory analyses, and other reasonable means, as described in 
section 101.10 of title 21, Code of Federal Regulations (or any 
successor regulation) or in a related guidance of the Food and Drug 
Administration'' (21 U.S.C. 343(q)(5)(H)(iv)). FDA specifically 
requested comment on the appropriateness of its compliance approach in 
the proposed rule (76 FR 19192 at 19218). The comment period for the 
proposed rule closed on July 5, 2011, and FDA received comments, 
including comments from other members of Congress, on the issue of 
reasonable basis. We assure you that FDA will consider alternative 
solutions to address this complex issue. We evaluate all comments 
before issuing a final rule.

                        ANTIMICROBIAL RESISTANCE

    Question. What are the metrics FDA will use to measure ``success'' 
of the recently released Guidance No. 209?
    Answer. FDA acknowledges the importance of assessing the 
effectiveness of measures intended to curb antimicrobial resistance, 
but recognizes that identifying appropriate metrics as indicators of 
``success'' is challenging. In conjunction with finalizing its plans 
for implementing the recommendations outlined in Guidance for Industry 
(GFI) No. 209, ``The Judicious Use of Medically Important Antimicrobial 
Drugs in Food-Producing Animals,'' FDA is considering approaches for 
assessing the impact of such measures over time. This includes looking 
at other metrics such as, exploring mechanisms for enhancing the drug 
sales/distribution data that we already receive and National 
Antimicrobial Resistance Monitoring System (NARMS) data to track trends 
in antimicrobial resistance over time.
    Question. The National Antimicrobial Resistance Monitoring System 
(NARMS) has been a collaboration between FDA, the Centers for Disease 
Control (CDC), and USDA. I have been informed that FDA is planning on 
discontinuing funding to USDA while continuing to fund CDC. If NARMS 
data is one potential metric to be used to measure the impact of 
Guidance No. 209 does FDA feel that program can be viewed as impartial 
and unbiased if the FDA does not have input from outside HHS in survey 
design and data collection?
    Answer. FDA has been working collaboratively with its USDA and CDC 
partners in developing a strategy for instituting enhancements to the 
NARMS program. We do not expect this strategy to reduce total funding 
to USDA, but rather it provides for a redeployment of funding within 
USDA to provide for significant improvements in sampling design for the 
food animal component of NARMS. The NARMS program has and will continue 
to be a collaborative effort between FDA, CDC, and USDA. The changes 
that are currently under development will serve to enhance the NARMS 
program and strengthen the utility of its data for supporting efforts 
to address antimicrobial resistance.
    Question. If metrics such as antibiotic resistance do not decrease, 
what does FDA see as next steps?
    Answer. As noted above, identifying appropriate metrics for 
assessing the effectiveness of measures implemented to curb 
antimicrobial resistance is challenging. In addition, FDA expects that 
such metrics will need to be observed over a number of years in order 
to identify any trends in the data. The strategy outlined in Guidance 
No. 209 and draft Guidance No. 213 represents an appropriate path 
forward for addressing this important public health issue in a manner 
that also ensures that animal health needs continue to be met. If 
following implementation of the recommended changes, assessments do not 
indicate positive effect. FDA will evaluate what additional measures, 
if any, may be needed.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran

                       ADDRESSING DRUG SHORTAGES

    Question. Has the Food and Drug Administration (FDA) evaluated 
whether policies and regulations of the Drug Enforcement Administration 
(DEA) have contributed in any manner to the drug shortage problems we 
are currently seeing in our country?
    Answer. FDA and DEA are continuing to work together to address 
evolving and potential drug shortages of critical care medications and 
prescription drugs. FDA applies the full range of regulatory and 
administrative tools available and engages in extensive cooperative 
efforts with DEA to manage issues associated with this public health 
crisis. These efforts are designed to avoid the concern raised by your 
question.
    Question. Does the FDA study or plan to study whether DEA policies 
and regulations contribute to drug shortage problems?
    Answer. FDA is not studying whether DEA policies and regulations 
contribute to drug shortage problems. However, we understand that the 
Government Accountability Office (GAO) intends to conduct a study of 
the extent to which the Drug Enforcement Administration policies and 
regulations contribute to the growing drug shortage crisis with regard 
to controlled substances prescribed by physicians. FDA will support 
this GAO study as needed.
    Question. What collaborative efforts does FDA engage in with the 
DEA to address drug shortages that may be caused by some degree by 
current DEA quotas?
    Answer. FDA is very concerned about drug shortages and is working 
diligently with firms, stakeholders, and other Federal agencies as 
appropriate. The amount of raw material that a firm can make of a 
controlled substance is under the purview of DEA. However, when firms 
have notified FDA that additional raw material is needed to avoid 
shortages of controlled substances, FDA has worked closely with DEA to 
notify DEA of the potential for shortage. FDA and DEA are continuing to 
work together to address evolving and potential drug shortages of 
critical care medications and other prescription drugs. At this time, 
FDA is working closely with DEA to respond to shortage reports being 
shared with both organizations.

                             MENU LABELING

    Question. As you stated, and was stated in the proposed rule, one 
of the alternatives that FDA is considering is option 2, which would 
narrow the scope of menu labeling regulations to only restaurants and 
retail establishments whose primary business is the selling of 
restaurant or restaurant-type food. Since I'm assuming that the 
proposed rule was cleared by FDA's General Counsel's office, then FDA 
can implement the restaurant menu labeling regulations under the option 
2 alternative and remain in compliance with the law, correct?
    Answer. Section 4205 of the Affordable Care Act requires that 
certain chain restaurants and similar retail food establishments 
disclose nutrition information for standard menu items. As we discussed 
in the proposed rule, the statutory term ``restaurants and similar 
retail food establishments'' is ambiguous, and it is possible to 
imagine a range of interpretations.
    FDA proposed an interpretation alongside alternatives for public 
comment (76 FR 19192 at 19195-19196). Accordingly, in the proposed 
rule, FDA presented the approach of option 2 as an alternative to the 
proposed definition of ``restaurant or similar retail food 
establishment'' (76 FR 19192 at 19198), and considered the costs and 
benefits of option 2 as a regulatory alternative under Executive Orders 
12866 and 13563 (76 FR 19192 at 19223). Option 2 includes requirements 
similar to the proposed rule, but defines ``restaurant or similar 
retail food establishment'' as retail establishments where the sale of 
restaurant food or restaurant-type food--as opposed to food in 
general--is the primary business activity. Option 2 covers all 
establishments included in the proposed rule, with the exception that 
grocery and convenience stores would not be subject to the proposed 
requirements. FDA specifically requested comment on the proposed 
definition of ``restaurant or similar retail food establishment'' and 
on the alternatives, and is reviewing and considering the comments 
received as we are developing the final rule.
    Question. Can you explain how President Obama's Executive Order 
12866 and Executive Order 13563 have impacted your proposed 
implementation? Would the option 2 alternative fulfill Executive Order 
12866 and Executive Order 13563 by minimizing burdens while achieving 
the statutory directives? Can you demonstrate that you are taking the 
least burdensome path in implementing these regulations?
    Answer. Under Executive Orders 12866 and 13563, FDA examined the 
regulatory impacts of the proposed rule and assessed the costs and 
benefits of a number of regulatory alternatives. The proposed rule 
reflects FDA's tentative conclusion that the benefits of the proposed 
rule justify the costs as required by Executive Order 12866, and that 
the proposed rule is ``the least burdensome tool for achieving [the] 
regulatory ends'' of the statute as required by Executive Order 13563. 
In the proposed rule, FDA identified option 2 as a regulatory 
alternative to the proposed rule, and assessed its benefits and costs. 
We will review and consider comments on our preliminary regulatory 
impact analysis of the proposed rule and the regulatory alternatives in 
selecting the regulatory approach in the final rule that minimizes 
costs and maximizes net benefits.
    Question. Can you explain why, under ``option 1'' or the proposed 
rule itself, you use foods that already have nutritional information 
labeled or displayed under the Nutrition Labeling and Education Act 
(NLEA) as a trigger for establishments to be captured under this 
regulation?
    Answer. FDA considered comments received prior to the publication 
of the proposed rule as well as the language and purpose of section 
4205 when considering the scope of establishments covered by section 
4205 and deliberating on how to define ``restaurants and similar retail 
food establishments'' in the proposed rule. FDA proposed that that the 
term ``restaurant or similar retail food establishment'' means a retail 
establishment that offers for sale restaurant or restaurant-type food, 
where the sale of food is the primary business activity of that 
establishment (76 FR 19192 at 19197). FDA refers to this definition in 
the Preliminary Regulatory Impact Analysis (PRIA) as ``option 1.''
    In the proposed rule, FDA also offered an alternative to this 
proposed definition. Under this alternative, a restaurant or similar 
retail food establishment means a retail establishment where the sale 
of restaurant or restaurant-type food--as opposed to food in general is 
the primary business activity of that establishment (76 FR 19192 at 
19198). Therefore, neither the proposed definition of ``restaurant or 
similar retail food establishment'' nor the alternative definition uses 
the sale of packaged food that is required to bear nutrition 
information on its label under the Nutrition Labeling and Education Act 
(NLEA) as the trigger for establishments to be covered by section 4205. 
FDA asked for comment on the proposed and alternative definitions as 
well as any other option for defining the term ``restaurants and 
similar retail food establishments.''
    We further note that in the proposed rule, FDA tentatively 
concluded that some packaged food offered for sale in covered 
establishments is ``food served in restaurants or other establishments 
in which food is served for immediate consumption or that is sold for 
sale or use in such establishments,'' and would therefore meet the 
definition of ``restaurant food.'' To the extent that packaged food is 
``restaurant food'' and otherwise satisfies the requirements of section 
4205, such packaged food would be covered by the menu labeling 
requirements. FDA recognizes that such packaged food includes on its 
label the nutrition information required by the NLEA and in the 
proposed rule, has provided some flexibility to industry for satisfying 
the requirements of section 4205 (76 FR 19192 at 19217).
    Question. In the proposed rule, FDA uses the term ``restaurant-
type'' food even though that term is nowhere in the statute. Can you 
explain how you came up with that term and then why you created a new 
food category (restaurant-type food) to cover another category beyond 
``restaurant food''?
    Answer. The 1990 NLEA amendments included exemptions for nutrition 
labeling for two categories of food:
  --Food ``which is served in restaurants or other establishments in 
        which food is served for immediate human consumption or which 
        is sold for sale or used in such establishments,'' and
  --Food ``which is processed and prepared primarily in a retail 
        establishment, which is ready for human consumption, which is 
        the type described in [(1)] and which is offered for sale to 
        consumers but not for immediate human consumption in such 
        establishment and which is not offered for sale outside such 
        establishment'' (21 U.S.C. 343(q)(5)(A)(i) and (ii)).
    The terms ``restaurant food'' and ``restaurant-type food,'' as used 
in the proposed rule, reflect these two categories of food. As 
explained in the proposed rule, we looked to this statutory context as 
a starting point for developing a regulatory definition of the term 
``restaurants and similar retail food establishments,'' as used in 
section 4205 of the Affordable Care Act (76 FR 19192 at 19196). We are 
reviewing and considering comments that address the scope of 
establishments covered by section 4205 as we develop the final rule.
    Question. Have you accounted for how much the proposed rule's 
definition of ``restaurant-type'' food, as ``food not sold for 
immediate consumption, but ready for human consumption and processed or 
prepared in a retail establishment'', which is sold at practically 
every grocery store, expands the scope of the regulations?
    Answer. In the proposed rule, FDA proposed that a restaurant or 
similar retail food establishment be defined as a retail establishment 
that offers for sale restaurant or restaurant-type food, where the sale 
of food is the primary business activity of that establishment (61 FR 
19192 at 19233). The proposed rule--option 1--therefore encompasses 
grocery stores that are chain retail food establishments as defined in 
the proposed rule. In the proposed rule, FDA also estimated the cost of 
an alternative to this proposed definition--option 2--that limits the 
definition of ``restaurant or similar retail food establishment'' to 
retail establishments where the sale of restaurant food or restaurant-
type food is the primary business activity, and therefore excludes 
grocery stores from the coverage of section 4205 (76 FR 19192 at 
19223). Comparing option 1 to option 2 shows that covering grocery 
stores and convenience stores adds about $10.9 million to the cost of 
the proposed rule. FDA has received comments on the scope of 
establishments covered by section 4205 and will address this issue in 
its response to comments in the final rule.
    Question. Have you accounted how the term ``restaurant-type'' food 
also expands the number of items that would be regulated, particularly 
for grocery stores?
    Answer. The Preliminary Regulatory Impact Analysis (PRIA) did not 
estimate the extent to which the definition of restaurant-type food 
expands the number of items that would be regulated. FDA has received 
comments on this issue and will address this issue in its response to 
comments in the final rule.
    Question. Please provide a revised estimate of the costs of option 
1 to grocery stores based on your use of ``restaurant-type food'' and 
compare it with the costs estimated in your PRIA and by the Office of 
Management and Budget (OMB) in its September 2010 paperwork burdens 
report.
    Answer. FDA has received comments on this issue and FDA is giving 
those comments careful consideration in the development of the final 
rule.
    Question. In FDA's cost-analysis, there appears to be very few--if 
any--studies showing a change in diets, obesity rates, health costs, 
and clearly no economic benefit that can be attributed to menu 
labeling. Can you compare the economic benefits of expanding these 
regulations to grocery stores versus the added costs to retailers?
    Answer. The Preliminary Regulatory Impact Analysis references the 
following studies showing a change in diets attributed to menu 
labeling:
  --Bollinger, B., P. Leslie, and A. Sorensen. ``Calorie Posting in 
        Chain Restaurants.'' American Economic Journal: Economic 
        Policy, 2011, 3(1): 91--128, 2011.
  --Bassett, M. T., T. Dumanovsky, C. Huang, L. D. Silver, C. Young, C. 
        Nonas, T. D. Matte, S. Chideya, and T. R. Frieden. ``Purchasing 
        Behavior and Calorie Information at Fast-Food Chains in New 
        York City, 2007.'' American Journal of Public Health, 
        98(8):1457-59, 2008.
  --Downs, J.S., G. Lowenstein, and J. Wisdom, J. ``The Psychology of 
        Food Consumption: Strategies for Promoting Healthier Food 
        Choices''. American Economic Review: Papers & Proceedings, 
        99(2): 159-164, 2009.
  --Elbel, B., J. Gyamfi, and R. Kersh. ``Child and Adolescent Fast-
        Food Choice and the Influence of Calorie Labeling: A Natural 
        Experiment,'' International Journal of Obesity, Advance online 
        publication, February 15, 2011.
  --Elbel, B., R. Kersh, V. L. Brescoll, and L. B. Dixon. ``Calorie 
        Labeling And Food Choices: A First Look At The Effects On Low-
        Income People In New York City.'' Health Affairs, 28(6):W1110-
        W1121, 2009.
  --Finkelstein, E.A., L. Kiersten, N.L. Strombotne, L. Chan and J. 
        Krieger. ``Mandatory Menu Labeling in One Fast-Food Chain in 
        King County, Washington,'' American Journal of Preventive 
        Medicine, 40(2):122-127, 2011.
  --Tandon, P. S., J. Wright, C. Zhou, C. B. Rogers, and D. A. 
        Christakis. ``Nutrition Menu Labeling May Lead to Lower-Calorie 
        Restaurant Meal Choices for Children.'' Pediatrics, 125(2):244-
        48, 2010.
  --Yamamoto, J.A., J.B. Yamamoto, B.E. Yamamoto, and L.G. Yamamoto. 
        ``Adolescent Fast Food and Restaurant Ordering Behavior with 
        and without Calorie and Fat Content Menu Information.'' Journal 
        of Adolescent Health, 37: 397-402, 2005.
    Comparing option 1 to option 2, FDA estimates that covering grocery 
stores and convenience stores adds about $10.9 million to the cost of 
the proposed rule. FDA spent a significant amount of time considering 
the regulatory impact of the scope of establishments covered by section 
4205. FDA will continue to consider the costs and benefits of covering 
grocery stores as we develop the final rule, and will address this 
issue in its response to comments in the final rule.
    Question. Have you factored in the cumulative effect of regulatory 
burdens that grocery stores already face as compared to restaurants?
    Answer. Executive Order 13563, which states that to the extent 
permitted by law, each agency must take into account ``among other 
things, and to the extent practicable, the costs of cumulative 
regulations,'' was issued on January 18, 2011. FDA published the 
proposed rule on April 6, 2011. The Office of Management and Budget 
(OMB) issued guidance on how to consider the cumulative effects of 
regulations, as directed by Executive Order 13563, on March 20, 2012, 
nearly 1 year after FDA published the proposed rule. FDA did not have 
sufficient time to estimate the cumulative effect of regulations for 
the proposed rule. However, FDA will carefully consider OMB's guidance, 
and to the extent permitted by law and practicable, FDA will take 
active steps to take account of the cumulative costs of new and 
existing rules in the final rule.
    Question. The House Appropriations Committee included the following 
Report Language in support of FDA's option 2 alternative for restaurant 
menu labeling with the fiscal year 2012 Agriculture Appropriations bill 
that was later accepted by the Senate-House Conference Committee when 
it reached final agreement and approved FDA:
  --Nutrition Labeling.--The Committee is concerned with the proposed 
        rule that FDA issued on April 6, 2011, on nutrition labeling of 
        standard menu items in restaurants and similar retail food 
        establishments. The proposed rule would include establishments 
        that are not primarily in the business of selling food for 
        immediate consumption or selling food that is prepared or 
        processed on the premises. These establishments are not similar 
        to restaurants and the Committee believes that FDA should 
        define the term ``restaurant'' to mean only restaurants doing 
        business marketed under the same name or retail establishments 
        where the primary business is the selling of food for immediate 
        consumption. The Committee urges FDA to use the proposed 
        alternative definition in the rule that would encompass only 
        establishments where the primary business is the selling of 
        food for immediate consumption or selling food that is prepared 
        and processed on the premises.
    Please explain how your agency has considered this report language.
    Answer. In addition to the report language that you cite, FDA 
received comments in response to the proposed rule that also support 
option 2, the proposed alternative definition of ``restaurant or 
similar retail food establishment.'' FDA will fully consider the 
comments received in response to the proposed rule as we develop our 
final rule. We want to clarify that under option 2, the term 
``restaurant or similar retail food establishment'' means a retail 
establishment where the sale of restaurant or restaurant-type food--as 
opposed to food in general--is the primary business activity of that 
establishment. Restaurant-type food means food of the type described in 
the definition of restaurant food that is ready for human consumption, 
offered for sale to consumers but not for immediate consumption, 
processed and prepared primarily in a retail establishment, and not 
offered for sale outside the establishment. Therefore, option 2 would 
not define ``restaurant or similar retail food establishment'' to 
exclusively mean establishments where the primary business activity is 
the sale of food for immediate consumption.

                         INTERNAL EFFICIENCIES

    Question. USDA Secretary Vilsack has procured significant savings 
from increased operational efficiencies within USDA. He has reduced 
travel, utilized early retirement programs, and consolidated cell phone 
contracts from over 700 to 10. Secretary Vilsack saved approximately 
$90 million with these actions. In addition, the Farm Service Agency 
(FSA) office consolidation initiative will save approximately $60 
million a year. Has FDA considered any actions like these, as opposed 
to raising taxes on food makers? Perhaps you could look at eliminating 
duplication with State inspections, or maybe some internal budget 
reductions?
    Answer. FDA has proposed savings as part of our fiscal year 2013 
budget related to information technology expenditures. The estimate of 
IT savings for fiscal year 2013 is $19.7 million, and the savings will 
occur in three areas.
    First, FDA has been working to consolidate its IT infrastructure 
into more modern data center facilities. During fiscal year 2013, we 
will realize $6.0 million in savings as due to our consolidation 
efforts. Second, we are launching an initiative to reduce the number of 
redundant laptops and other IT devices. This effort will produce $5.1 
million in savings. Finally, other initiatives across all FDA programs 
will yield an additional $8.6 million in IT savings. The other 
initiatives include retiring legacy IT systems, modifying IT business 
processes, and other forms of IT database savings.

                            MEDICAL RESEARCH

    Question. Since the FDA Accelerated Approval process began, of the 
80 products approved under Accelerated Approval, 32 have targeted AIDS, 
29 cancer, and 20 all other disorders. (Source: Janet Woodcock, ``FDA 
User Fees 2012: How Innovation Helps Patients and Jobs,'' Statement 
before the Committee on Energy and Commerce Subcommittee on Health, 
U.S. House of Representatives, April 18, 2012, p. 7.) Similarly, a 
recent study by Friends of Cancer Research highlighted the agency's 
performance for oncology drugs, noting that most novel oncology 
products have been approved in the United States ahead of Europe. 
(Source: Samantha A. Roberts, Jeff D. Allen, Ellen V. Sigal, ``Despite 
Criticism of the FDA Review Process, New Cancer Drugs Reach Patients 
Sooner in the United States,'' Health Affairs, June 2011.) Clearly, 
cancer is an area where agency processes seem relatively consistent and 
predictable. However, there is growing concern that in other important 
public health and unmet medical needs areas--diabetes, cardiovascular 
disease, obesity, and central nervous system (CNS) conditions for 
example--FDA review processes are viewed as increasingly unpredictable 
and inconsistent. Understanding that the science across these various 
areas are very different, what is the agency doing to improve these 
variances?
    Answer. The Accelerated Approval program has been a great success 
in bringing innovative new drugs to patients with serious or life-
threatening diseases in a timely manner. While it is true that the 
program has been used most often in approval of drugs to treat cancer 
and HIV/AIDS, Accelerated Approval applies across all therapeutic areas 
where the science supports approval and the conditions established in 
the statute and regulations are met. FDA is actively working to improve 
awareness of this pathway for interested stakeholders and FDA staff. 
There are other initiatives in place to accelerate development and 
approval of important new drugs, including the Fast Track Program, 
Rolling Review, and Priority Review. These programs apply across the 
spectrum of therapeutics and have been used frequently to facilitate 
rapid development and approval of innovative medicines. Moreover, FDA 
recognizes the need for these new drugs and actively works with 
sponsors to facilitate the development of their safety, effectiveness, 
and high quality. FDA conducts over 2000 formal meetings with drug 
sponsors each year to discuss drug development programs. Also, the FDA 
publishes guidance documents outlining its current thinking on topics 
such as development of a drug for a specific disease and broader topics 
such as use of adaptive trial designs.
    Question. What metrics and data does the agency use, similar to 
that reported in the aggregate in its annual user fee performance 
reports, to monitor and address performance variances across its 
internal review divisions?
    Answer. In the Center for Drug Evaluation and Research (CDER) and 
Center for Biologics Evaluation and Research (CBER), senior management 
conduct ongoing oversight of the advice given and decisions made by the 
therapeutic review divisions and we carefully track the performance of 
divisions in meeting PDUFA review goals. As part of the proposals for 
PDUFA V there will be programs to further strengthen FDA's capacity to 
respond to the rapidly changing science in areas such as 
pharmacogenomics, patient reported outcomes, meta-analyses, and rare 
disease drug development. These programs are expected to enhance our 
interactions with sponsors across the various therapeutic review 
divisions, which should streamline the development and approval of 
innovative new drugs to meet unmet medical needs.

                           ANIMAL ANTIBIOTICS

    Question. Farmer's and rancher's number one priority is taking care 
of their livestock and producing a safe and healthy food supply. 
Recently FDA issued concerning guidance about antibiotic use that 
suggests farmers and ranchers are not caring for livestock in the most 
appropriate way possible.
    Why did FDA issue this guidance?
    Answer. Current science supports the finding that widespread use of 
antimicrobials for growth promotion in animals can contribute to the 
emergence of drug resistance which may be transferred to humans, 
thereby reducing the effectiveness of these drugs for treating human 
disease. To address this concern, FDA's Guidance for Industry No. 209 
is intended to ensure that medically important antibiotics are used 
judiciously in food-producing animals by recommending a pathway to 
limit their use, in consultation with a veterinarian, to only address 
the health needs of animals, namely to treat, control, or prevent 
disease.
    Question. Was this guidance based on peer reviewed science?
    Answer. A variety of recognized international, governmental, and 
professional organizations have studied the judicious use of medically 
important antimicrobial drugs. Within the Guidance for Industry No. 
209, ``The Judicious Use of Medically Important Antimicrobial Drugs in 
Food-Producing Animals,'' we have briefly summarized the findings and 
recommendations from some of the notable reports and peer-reviewed 
scientific literature that have addressed this issue over the past 40 
years. These reports provide context to FDA's current thinking on this 
issue, and highlight the longstanding concerns that have been the 
subject of discussion in the scientific community as a whole.
    Question. Can you provide me with the scientific evidence that 
supports the guidance that you issued?
    Answer. Below is a list of some of the scientific literature that 
FDA considered in developing the Guidance for Industry No. 209, 
including some key reports and peer-reviewed scientific literature. 
This list is not an exhaustive summary of the scientific literature, 
but only highlights some of the more recent scientific research related 
to the use of antimicrobial drugs in animal agriculture and the impact 
of such use on antimicrobial resistance. We acknowledge that a 
significant body of scientific information exists, including some 
information that may present equivocal findings or contrary views.
  --1. 1969 Report of the Joint Committee on the Use of Antibiotics in 
        Animal Husbandry and Veterinary Medicine.
  --2. 1970 FDA Task Force Report, ``The Use of Antibiotics in Animal 
        Feed.''
  --3. 1980 National Academy of Sciences Report, ``The Effects on Human 
        Health of Subtherapeutic Use of Antimicrobial Drugs in Animal 
        Feeds.''
  --4. 1984 Seattle-King County Study: ``Surveillance of the Flow of 
        Salmonella and Campylobacter in a Community.''
  --5. 1988 Institute of Medicine (IOM) Report: ``Human Health Risks 
        with the Subtherapeutic Use of Penicillin or Tetracyclines in 
        Animal Feed.''
  --6. 1997 World Health Organization (WHO) Report, ``The Medical 
        Impact of Antimicrobial Use in Food Animals.'' http://
        whqlibdoc.who.int/hq/1997/WHO_EMC_ZOO_97.4.pdf
  --7. 1999 National Research Council (NRC) Report: ``The Use of Drugs 
        in Food Animals--Benefits and Risks.''
  --8. 1999 United States Government Accountability Office (GAO) 
        Report--``Food Safety: The Agricultural Use of Antibiotics and 
        Its Implications for Human Health.'' http://www.gao.gov/
        archive/1999/rc99074.pdf
  --9. 1999 European Commission Report, ``Opinion of the Scientific 
        Steering Committee on Antimicrobial Resistance.'' http://
        ec.europa.eu/food/fs/sc/ssc/out50_en.pdf
  --10. 2000 World Health Organization (WHO) Expert Consultation: ``WHO 
        Global Principles for the Containment of Antimicrobial 
        Resistance in Animals Intended for Food.'' http://
        whqlibdoc.who.int/hq/2000/WHO_CDS_CSR_APH_
        2000.4.pdf
  --11. 2003 Report, ``Joint FAO/OIE/WHO Expert Workshop on Non-Human 
        Antimicrobial Usage and Antimicrobial Resistance: Scientific 
        assessment.'' http://www.who.int/foodsafety/publications/micro/
        en/amr.pdf
  --12. 2003 Institute of Medicine (IOM) Report, ``Microbial Threats to 
        Health: Emergence, Detection and Response.''
  --13. 2004 Report, ``Second Joint FAO/OIE/WHO Expert Workshop on Non-
        Human Antimicrobial Usage and Antimicrobial Resistance: 
        Management options.'' http://www.oie.int/fileadmin/Home/eng/
        Conferences_Events/docs/pdf/WHO-CDS-CPE-ZFK-2004.8.pdf
  --14. 2004 United States Government Accountability Office (GAO) 
        Report--``Antibiotic Resistance: Federal Agencies Need to 
        Better Focus Efforts to Address Risks to Humans from Antibiotic 
        Use in Animals.'' http://www.gao.gov/new.items/d04490.pdf
  --15. 2005 Codex Alimentarius Commission (Codex), ``Code of Practice 
        to Minimize and Contain Antimicrobial Resistance.'' http://
        www.codexalimentarius.net/download/standards/10213/CXP_061e.pdf
  --16. 2006 Antimicrobial Resistance: Implications for the Food 
        System, Comprehensive Reviews in Food Science and Food Safety, 
        Vol. 5, 2006.
  --17. 2009. American Academy of Microbiology. Antibiotic Resistance: 
        An Ecological Perspective on an Old Problem. 1752 N Street, NW, 
        Washington, DC 20036, (http://www.asm.org).
  --18. 2011. Tackling antibiotic resistance from a food safety 
        perspective in Europe. World Health Organization (WHO), 
        Regional Office for Europe Scherfigsvej 8, DK-2100 Copenhagen 
        ;, Denmark. http://www.euro.who.int/data/assets/pdf_file/0005/
        136454/e94889.pdf
  --19. 2008. Longitudinal study of antimicrobial resistance among 
        Escherichia coli isolates from integrated multisite cohorts of 
        humans and swine. Alali WQ, Scott HM, Harvey RB, Norby B, 
        Lawhorn DB, Pillai SD. Applied and Environmental Microbiology. 
        74(12):3672-81.
  --20. 2008. Diversity and distribution of commensal fecal Escherichia 
        coli bacteria in beef cattle administered selected 
        subtherapeutic antimicrobials in a feedlot setting. Sharma R, 
        Munns K, Alexander T, Entz T, Mirzaagha P, Yanke LJ, Mulvey M, 
        Topp E, McAllister T. Applied and Environmental Microbiology. 
        74(20):6178-86.
  --21. 2008. Effect of subtherapeutic administration of antibiotics on 
        the prevalence of antibiotic-resistant Escherichia coli 
        bacteria in feedlot cattle. Alexander, T.W., L.J. Yanke, E. 
        Topp, M.E. Olson, R.R. Read, D.W. Morck, and T.A. McAllister. 
        Applied and Environmental Microbiology. 74:4405-4416.
  --22. 2009. A metagenomic approach for determining prevalence of 
        tetracycline resistance genes in the fecal flora of 
        conventionally raised feedlot steers and feedlot steers raised 
        without antimicrobials. Harvey, R., J. Funk, T.E. Wittum, and 
        A.E. Hoet. American Journal of Veterinary Research. 70:198-202.
  --23. 2009. Association between tetracycline consumption and 
        tetracycline resistance in Escherichia coli from healthy Danish 
        slaughter pigs. Vieira, A.R., H. Houe, H.C. Wegener, D.M. Lo Fo 
        Wong, and H.D. Emborg. Foodborne Pathogens and Disease. 6:99-
        109.
  --24. 2009. Associations between reported on-farm antimicrobial use 
        practices and observed antimicrobial resistance in generic 
        fecal Escherichia coli isolated from Alberta finishing swine 
        farms. Varga C., A. Rajic, M.E. McFall, R.J. Reid-Smith, A.E. 
        Deckert, S.L. Checkley, and S.A. McEwen. Preventive Veterinary 
        Medicine. 88:185-192.
  --25. 2010. Farm-to-fork characterization of Escherichia coli 
        associated with feedlot cattle with a known history of 
        antimicrobial use. Alexander, T.W., G.D. Inglis, L.J. Yanke, E. 
        Topp, R.R. Read, T. Reuter, and T.A. McAllister. International 
        Journal of Food Microbiology. 137:40-48.
  --26. 2011. Lower prevalence of antibiotic-resistant Enterococci on 
        U.S. conventional poultry farms that transitioned to organic 
        practices. Sapkota AR, Hulet RM, Zhang G, McDermott P, Kinney 
        EL, Schwab KJ, Joseph SW. Environ Health Perspect. 
        119(11):1622-8.
  --27. 2011. Association between antimicrobial resistance in 
        Escherichia coli isolates from food animals and blood stream 
        isolates from humans in Europe: An ecological study. Foodborne 
        Pathogens and Disease. Vieira, A.R., P. Collignon, F.M. 
        Aarestrup, S.A. McEwen, R.S. Hendriksen, T. Hald, and H.C. 
        Wegener. 8:1295-1301.
  --28. 2011. Distribution and characterization of ampicillin- and 
        tetracycline-resistant Escherichia coli from feedlot cattle fed 
        subtherapeutic antimicrobials. Mirzaagha P, Louie M, Sharma R, 
        Yanke LJ, Topp E, McAllister TA. BMC Microbiol. 19;11:78.
  --29. 2012. In-feed antibiotic effects on the swine intestinal 
        microbiome. Looft, T., T.A. Johnson, H.K. Allen, D.O. Bayles, 
        D.P. Alt, R.D. Stedtfeld, W.J. Sul, T.M. Stedtfeld, B. Chai, 
        J.R. Cole, S.A. Hashsham, J.M. Tiedje, and T.B. Stanton. 
        Proceedings of the National Academy of Sciences USA. 109:1691-
        1696.
    FDA also considered other studies that were referenced by the 
Department of Health and Human Services in response to 2004 United 
States Government Accountability Office (GAO) report entitled, 
``Antibiotic Resistance: Federal Agencies Need to Better Focus Efforts 
to Address Risks to Humans from Antibiotic Use in Animals'':
  --1. Phillips I, Casewell M, Cox T, et al. Does the use of 
        antibiotics in food animals pose a risk to human health? A 
        critical review of published data. J Antimicrob Chemother, 
        2004; 53:28-52.
  --2. Holmberg SD, Wells JG, Cohen ML. Animal-to-man transmission of 
        antimicrobial-resistant Salmonella: Investigations of U.S. 
        outbreaks, 1971-1983. Science, 1984; 225:833-5.
  --3. Holmberg SD, Solomon SL, Blake PA. Health and economic impacts 
        of antimicrobial resistance. Rev Infect Dis, 1987; 9:1065-78.
  --4. Lee LA, Puhr ND, Maloney K, et al. Increase in antimicrobial-
        resistant Salmonella infections in the United States, 1989-
        1990. J Infect Dis, 1994;170:128-34.
  --5. Varma J, M<lbak K, Rossiter S, et al. Antimicrobial resistance 
        in Salmonella is associated with increased hospitalization; 
        NARMS 1996-2000. International Conference on Emerging 
        Infectious Diseases. March 2002. Atlanta, Georgia.
  --6. Varma J, M<lbak K, Rossiter S, et al. Antimicrobial resistance 
        in non-typhoidal Salmonella is associated with increased 
        hospitalization and bloodstream infection--United States, 1996-
        2000. 51st Annual EIS Conference. April 22-26, 2002. Atlanta, 
        Georgia.
  --7. Helms M, Vastrup P, Gerner-Smidt P, M<lbak K. Excess mortality 
        associated with antimicrobial drug-resistant Salmonella 
        Typhimurium. Emerg Infect Dis, 2002; 8:490-5.
  --8. Martin L, Fyfe M, Dore K, et al. Increased burden of illness 
        associated with antimicrobial-resistant Salmonella enterica 
        serotype Typhimurium infections. J Infect Dis, 2004; 189:377-
        84.
  --9. Smith KE, Besser JM, Hedberg CW, et al. Quinolone-resistant 
        Campylobacter jejuni infections in Minnesota, 1992-1998. N Engl 
        J Med, 1999; 340:1525-32.
  --10. Neimann J, M<lbak K, Engberg J, et al. Longer duration of 
        illness among Campylobacter patients treated with 
        fluoroquinolones. 11th International Workshop on Campylobacter, 
        Helicobacter, and Related Organisms, 1-5 September, 2001. 
        Freiburg, Germany.
  --11. Nelson JM, Smith KE, Vugia DJ, et al. Prolonged diarrhea due to 
        ciprofloxacin-resistant Campylobacter infections. J Infect Dis, 
        2004; in press.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven

    Question. I would like to ask you about the Food and Drug 
Administration's (FDA's) lack of enforcement action against companies 
that market products as being eyelash growth promoters, without FDA 
approval, when those products contain prostaglandin analogues (PGAs) or 
derivatives of PGAs. North Dakota has ophthalmologists who prescribe 
Latisse, the FDA-approved drug counterpart to these cosmetic products 
and I am concerned these alternative cosmetic products may pose a 
public health threat to those that purchase them, such that additional 
enforcement action may be beneficial.
    I understand that this issue was raised before the House 
Appropriations Subcommittee on Agriculture on February 29, 2012, and 
you stated that you planned to further investigate the issue.
    What have you and the agency done since that hearing in February to 
address this issue and, if necessary, to protect consumers?
    Answer. Consistent with FDA priorities, resources, and legal 
authorities, FDA's objective is to identify, investigate, and take 
corrective action against violative products. If violations are 
identified, FDA uses a variety of enforcement tools to address these 
violations and to facilitate compliance and protect the public health. 
These tools include but are not limited to warning letters, seizures, 
injunctions, and criminal prosecution. We appreciate and share your 
concerns about the potential risks posed by eyelash products that 
contain PGAs or their derivatives and are marketed as cosmetics. FDA 
will communicate information regarding any action taken related to 
these products when that information is available for disclosure.
    Question. Would the agency be willing to release a public health 
advisory about the health risks associated with the products so that 
the State Attorneys General can police the sale of these products, if 
necessary?
    Answer. FDA shares your concern about these PGA-containing products 
marketed as cosmetics. FDA is considering your suggestion and is 
committed to protecting the public from potential harm. We encourage 
the ophthalmologists in your State to submit any adverse events related 
to these PGA-containing eyelash products to FDA's Medwatch Adverse 
Event Reporting program.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. The Family Smoking Prevention and Tobacco Control Act of 
2009 specifically banned candy flavorings in cigarettes. Now, tobacco 
companies are using flavored cigars to encourage kids to smoke. Cigars 
with candy-like flavorings such as strawberry, watermelon, vanilla, and 
chocolate attract kids to smoking and help hook them on this addictive 
habit. An estimated 1.8 million high school students and 475,000 middle 
school students smoke cigars. The Centers for Disease Control (CDC) 
estimates that, in 13 States, more high school males smoke cigars than 
smoke cigarettes. Does the Food and Drug Administration (FDA) believe 
youth cigar smoking is a problem? What is the agency doing to stop this 
epidemic and appropriately regulate flavored cigars?
    Answer. The restriction on cigarettes with characterizing flavors 
is in effect and is actively being enforced. With respect to products 
other than cigarettes, FDA is pursuing a proposed rule to deem all 
products meeting the statutory definition of ``tobacco product'' to be 
subject to the Food, Drug, and Cosmetic Act (FD&C Act). This would 
enable FDA to take further action with respect to flavorings in other 
tobacco products if FDA concludes that it is appropriate to do so in 
order to protect the public health.
    FDA is currently engaged in research that is exploring the role 
that flavorings play in prompting the initiation and use of various 
tobacco products, particularly among youth. FDA is also continuing to 
evaluate the impact of menthol on youth initiation, and will determine 
what action, if any, is appropriate based on the scientific evidence.
    Question. The myth of the healthier cigarette continues to threaten 
the well-being of Americans. For decades, tobacco companies claimed 
that some cigarettes were ``light,'' ``mild,'' or ``low,'' misleading 
Americans about the safety of the products. The Family Smoking 
Prevention and Tobacco Control Act helped put an end to this deceptive 
marketing, specifically prohibiting companies from using terms like 
``light,'' ``mild,'' ``low,'' or ``similar descriptors.'' However, the 
agency has failed to offer any regulations or guidance restricting the 
use of ``similar descriptors,'' and cigarette companies continue to use 
words like ``natural,'' ``organic'' and ``smooth'' to mislead consumers 
about the health of their products. When does the agency plan to issue 
guidance or regulations on the use of ``similar descriptors''? What is 
the FDA doing to prevent this deceptive marketing?
    Answer. FDA has been actively enforcing the modified risk tobacco 
product provisions of the FD&C Act, particularly the provisions that 
pertain to reduced risk of disease, reduced level or lack of a 
substance, and the use of the descriptors ``light,'' ``low,'' and 
``mild'' on regulated tobacco product label, labeling, and advertising. 
FDA has not, at this time, issued a regulation or guidance that 
specifically defines the term ``similar descriptors'' and has been 
gathering information regarding descriptors that may be considered 
similar to ``light,'' ``low,'' or ``mild'' and could impact consumer 
perceptions of risk. This will help inform FDA's implementation and 
enforcement of the modified risk tobacco product provision, which could 
include, for example, providing additional guidance.
    FDA is in the process of conducting consumer perception studies on 
terms that could be considered ``similar descriptors.'' FDA will 
continue to pursue violations for label, labeling, or advertising where 
FDA has sufficient evidence of claims that the product presents a lower 
risk of tobacco related disease, a reduced level of or exposure to a 
substance, or is free of or does not contain a substance.
    Question. Roll-your-own cigarette shops allow customers to make 
their own cigarettes. These stores exist in at least 15 States, 
including New Jersey, and I am concerned that these shops may be 
violating Federal cigarette laws and regulations by marketing their 
cigarettes as ``healthier'' and not appropriately restricting access to 
only those 18 and older. FDA has yet to assert its authority over the 
cigarettes produced in these shops. Is FDA aware of the proliferation 
of roll-your-own shops? Does the agency believe these shops are 
currently in violation of Federal law?
    Answer. FDA is aware of retail establishments with roll-your-own 
cigarette machines that permit customers to make their own cigarettes 
and is gathering more information about this practice to determine the 
appropriate regulatory response.
    Question. Under the Tobacco Control Act, the FDA has the authority 
to regulate tobacco products, but, without an important ``deeming'' 
regulation, the agency's jurisdiction extends to only a small set of 
products. Products like cigars, hookah tobacco, dissolvable tobacco, 
and electronic cigarettes remain unregulated by FDA, putting Americans' 
health at risk. Last year, FDA committed to issuing a ``deeming'' 
regulation by October 2011 that would extend its rightful regulatory 
authority over these of tobacco products. What is the status of this 
important regulation? Why is this regulation now 6 months overdue?
    Answer. The Tobacco Control Act provided FDA with immediate 
authority to regulate cigarettes, cigarette tobacco, roll-your-own 
tobacco, and smokeless tobacco. The act also authorizes FDA to deem, by 
regulation, other tobacco products to be subject to chapter IX of the 
Food, Drug, and Cosmetic Act or FD&C Act. FDA has publicly announced 
its intention to deem all products that meet the statutory definition 
of tobacco product to be subject to the FD&C Act. Deeming would ensure 
that all tobacco products are subject to FDA's tobacco control 
authority, which will help to address existing regulatory gaps.
    In the February 2012 edition of the Unified Agenda, FDA included an 
entry for a proposed rule that would deem products meeting the 
statutory definition of ``tobacco product'' to be subject to chapter 9 
of the FD&C Act.
    While FDA cannot comment on the details of pending rulemaking, FDA 
continues to work diligently to issue the proposed rule in the near 
future. It is important to note that the process for issuing any 
proposed rule on this issue will provides the opportunity for public 
comment as part of the rulemaking process. FDA routinely allows a 
minimum of 60 days for public comment and carefully considers these 
comments when it develops the final rule.

                         CONCLUSION OF HEARINGS

    Senator Kohl. This hearing is recessed.
    [Whereupon, at 3:24 p.m., Thursday, April 19, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
